<html>
<title> - SCHNEIDER, KORNZE, KASTNER, AND WILLIAMS NOMINATIONS</title>
<body><pre>[Senate Hearing 113-162]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-162
 
                    SCHNEIDER, KORNZE, KASTNER, AND 
                          WILLIAMS NOMINATIONS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

    CONSIDER THE NOMINATIONS OF MS. JANICE M. SCHNEIDER, ASSISTANT 
SECRETARY OF THE INTERIOR (LAND AND MINERALS MANAGEMENT), DEPARTMENT OF 
   THE INTERIOR; MR. NEIL G. KORNZE, DIRECTOR OF THE BUREAU OF LAND 
 MANAGEMENT, DEPARTMENT OF THE INTERIOR; DR. MARC A. KASTNER, DIRECTOR 
OF THE OFFICE OF SCIENCE, DEPARTMENT OF ENERGY; DR. ELLEN D. WILLIAMS, 
 DIRECTOR OF THE ADVANCED RESEARCH PROJECTS AGENCY--ENERGY, DEPARTMENT 
                               OF ENERGY

                               __________

                           DECEMBER 17, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-425 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Heller, Hon. Dean, U.S. Senator From Nevada......................     4
Kastner, Marc A., Nominee To Be Director of the Office of 
  Science, Department of Energy..................................    14
Kornze, Neil, Nominee To Be Director of the Bureau of Land 
  Management, Department of the Interior.........................    11
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Reid, Hon. Harry, U.S. Senator From Nevada.......................     3
Schneider, Janice M., Nominee To Be Assistant Secretary of the 
  Interior (Land and Minerals Management), Department of the 
  Interior.......................................................     7
Williams, Ellen D., Nominee To Be Director of the Advanced 
  Research Projects Agency-Energy, Department of Energy..........    16
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    43

                              Appendix II

Additional material submitted for the record.....................    71


                    SCHNEIDER, KORNZE, KASTNER, AND 
                          WILLIAMS NOMINATIONS

                              ----------                              


                       TUESDAY, DECEMBER 17, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:42 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The committee now moves to consider 4 very 
well-qualified nominees.
    Janice Schneider has been nominated to be the Assistant 
Secretary of the Interior for Land and Minerals Management.
    Ms. Schneider is currently a partner with the law firm of 
Latham and Watkins where she chairs the firm's Environment, 
Land and Water Resources Committee. She co-chairs the Energy 
and Infrastructure Project Siting practice. She was a counselor 
to the Deputy Secretary of the Interior, David Hayes, from 2000 
to 2001 and was a trial attorney in the Environment and Natural 
Resources division of the Justice Department from 1998 through 
1999.
    Neil Kornze has been nominated to be the Director of the 
Bureau of Land Management.
    He's been the Senior Advisor in the Bureau of Land 
Management since January 2011, its Acting Deputy Director for 
Policy and Programs since October 2011 and its Principle Deputy 
since March 1st of this year.
    Before joining the Department of the Interior, Mr. Kornze 
held a succession of increasingly senior positions in the 
Office of Majority Leader Reid from 2003 to 2011. We're pleased 
that the Majority Leader is joining us here this morning.
    Marc Kastner has been nominated to be the Director of the 
Office of Science at the Department of Energy.
    The Doctor is a physicist who has been on the faculty for 
the Massachusetts Institute of Technology for the past 40 
years. He became a full professor in 1989, the head of the 
Physics Department in 1998, and has been the Dean of the School 
of Science since 2007.
    Dr. Ellen Williams has been nominated to be the Director of 
the Advanced Research Projects Agency -Energy, at the 
Department of Energy.
    She is currently on leave from the University of Maryland 
where she's been a Professor of Physics since 1991. Since 2010 
she has been the Chief Scientist for BP.
    My view is is that all 4 of the nominees are highly 
qualified for the positions they've been nominated for. I look 
forward to hearing more about their thoughts on key issues.
    Let me recognize Senator Murkowski for her statement at 
this point. Then I want to call on the Majority Leader and 
Senator Heller to introduce Mr. Kornze. Then we have some 
formalities to take care of with respect to the nominees.
    But let me recognize Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I think we here in this Energy Committee have been spending 
a lot of time, probably an extraordinary amount of time, on 
nominations lately. I think what we're seeing this morning 
moving forward 3 nominees after a thorough and good vetting 
process. This is important.
    The opportunity to take up an additional 4 this morning 
from the Department of Energy, the Department of the Interior, 
is good. It's important.
    A lot of discussion on the Floor of late about nominations, 
but I think our committee, most certainly has taken the issue 
of those nominees in front of us, given them, a fair 
consideration and really worked it through the process, as I 
believe is so important. So I thank you for that.
    I'd like to welcome each of our distinguished nominees to 
the committee. Thank you for your willingness to serve.
    Dr. Kastner, Dr. Williams, we didn't get an opportunity to 
visit personally. But your credentials are certainly 
impressive. As I noted at last week's confirmation hearing, I 
think that Dr. Moniz is assembling a pretty top notch team to 
assist him with the important work being done by the Energy 
Department. So I'm pleased with what I'm seeing coming forward 
out of DOE.
    Mr. Kornze, I enjoyed our meeting last week. I'm very 
encouraged by your willingness to go up, be on the ground, see 
what the issues are in my State. As I've mentioned it's 
probably going to consume a lot more of your time than you 
might want. But you'll have fun.
    I can guarantee you that. They'll be some good trips there. 
But it's a lot of hard work. So I appreciate your willingness 
to learn and give the kind of commitment that I'm looking for 
in a Federal land manager for this country.
    Ms. Schneider, I appreciate the opportunity that you and I 
had to visit. As I mentioned, I don't know you as well as Mr. 
Beaudreau, who is currently acting in the position for which 
you are now nominated. I think that Mr. Beaudreau was doing a 
good job there. But he's now slated to move over to Policy, 
Management and Budget.
    But because the Assistant Secretary for Lands and Minerals 
Management has such a significant role in Alaska and in, 
really, in energy resource development nationwide, I want to 
make sure that I really do know the direction that you will 
take in this position and understand better your qualities, 
your qualifications and priorities for the position.
    With that, Mr. Chairman, I look forward to the testimony 
and the responses to our questions from the nominees this 
morning.
    The Chairman. Thank you, Senator Murkowski.
    Let me now call on Senator Reid and Senator Heller to 
introduce Mr. Kornze.
    We're glad to have the Majority Leader here. He has a long 
record of involvement in Western resource issues and Mr. 
Leader, proceed as you wish.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Chairman Wyden, thank you very much.
    Ranking Member Murkowski and wow, this is great to have so 
many members here. This is nice.
    Mr. Chairman, it was good for me to sit and listen to the 
quality of these 4 people. It's really astounding that we have, 
with all the things going on in our country today, we have 
these good people who are willing to take these jobs. I think 
that's remarkably important for us.
    The Bureau of Land Management, to most people, doesn't mean 
a thing because it is an agency that is focused on, mostly, the 
West. The State of Nevada, 87 percent of the land in the State 
of Nevada is owned by the Federal Government, more than any 
other State and the vast majority of that 87 percent is Bureau 
of Land Management land. Having been involved in government for 
a number of years, the Bureau of Land Management is looked upon 
as a remarkably sound agency compared to what it was 20 years 
ago.
    Twenty years ago the Bureau of Land Management had a lower 
approval rating than the Internal Revenue Service. But they've 
done a good job of becoming more modern.
    Now Neil Kornze is somebody that is just perfect for the 
job, raised in rural Nevada, Elko County.
    Nevada has 17 counties. But in the northeastern part of the 
State is a large county that is really a remarkably beautiful 
place. It now has more mining in it than any place in America. 
The State of Nevada produced about 6 million ounces of gold 
last year and much of it came from Elko County.
    But in addition to that we have beautiful ranches. Some of 
them are quite famous. Bing Crosby had a big ranch there and a 
lot of movie actors. But these ranches, even though they were 
owned by some of these celebrities, were always working 
ranches.
    Elko County has beautiful wilderness area. The first 
wilderness we had in the State of Nevada was a long time ago in 
a place called Jarbridge which is a wonderfully beautiful, 
pristine area.
    The State of Nevada is a very mountainous State, more 
mountainous than any State in the Union expect for Alaska. We 
have more than 300 mountain ranges in Nevada.
    We have a wide range of animals. Elko County has it all. We 
have mountain goat and mountain sheep there and all kinds of 
things. But the only place that I know of in the Western part 
of the United States, other than South Dakota, there could be 
other places, but we in Nevada are very proud that in Elko 
County we have mountain goats in addition to all the other 
animals we have.
    So it's a beautiful State and a beautiful county.
    Neil was born and raised in Elko County. He really does 
understand the role of rural America.
    He has a master's degree in International Relations from 
London School of Economics. He has, as indicated here, spent a 
lot of time in my office. The staff cared a great deal about 
him and you can always tell what kind of a staffer you have by 
how other members of the staff feel about him or her.
    So he understands to develop policy in the Western part of 
the United States you have to have consensus. There's a lot of 
competing interest there. He understands that.
    Frankly, he and I have learned a lot of that together. You 
just can't charge forward and do what you know is right because 
you may be wrong. He understands that.
    He's been with the Bureau for some time now. His expertise 
is going to be invaluable to the Bureau of Land Management.
    Senator Heller has represented, as a Member of Congress, 
rural Nevada, the northern part of the State which is the 
Congressional District that he was a Member of Congress. I can 
speak for Dean, but he'll speak for himself, this is, again, an 
unusually qualified person for the Bureau of Land Management. 
He has his Nevada roots but he understands the West remarkably 
well.
    As Senator Murkowski has said, he is a person who will be 
on the ground trying to figure out the best thing to do.
    So, I have every bit of confidence in Neil Kornze that he 
will be the best Director we've ever had at the Bureau of Land 
Management.
    The Chairman. I thank the Majority Leader. You and I have 
talked about Elko in the past. Now I can tell my children about 
the goats.
    [Laughter.]
    The Chairman. Because now somehow I had missed that part of 
the account.
    But thank you very much. I very much share your view, Mr. 
Leader, with respect to Neil Kornze. As you know he was 
invaluable to us to the various challenges dealing with Secure 
Rural Schools. We'll be talking about that.
    Mr. Leader, I know you've got your hands full today. We 
welcome you to stay for as long as you wish.
    Senator Reid. I'm going to stay and listen to my colleague, 
Dean.
    The Chairman. Very good.
    Very good.
    Senator Heller.
    Thank you for your cooperation on this as well.

          STATEMENT OF HON. DEAN HELLER, U.S. SENATOR 
                          FROM NEVADA

    Senator Heller. Chairman Wyden, thank you and Ranking 
Member Murkowski.
    It's also a pleasure to join Senator Reid in introducing 
Neil Kornze.
    It would be my preference if I had been at the witness 
table. Unfortunately the mobility of my foot, it wouldn't be 
fair to this committee to have you endure me moving back and 
forth in crutches. So please abide with me as I make my 
statements from up here.
    But again, I appreciate the comments that Senator Reid has 
made and his comments about Neil.
    Neil is a Nevadan. Neil was born and raised in Elko, as the 
Leader said. I also echo that Elko is one of Nevada's most 
vibrant rural communities which I believe gives Neil a 
firsthand perspective of the challenges that Nevada and other 
Western States face regarding our vast public lands because, as 
mentioned, BLM controls roughly 67 percent of Nevada's land. 
Our ability to access and use these public lands is vital to 
our State and has an enormous impact on Nevada's economy.
    As a Nevadan Neil understands that good public land 
management, economic development are not mutually exclusive and 
has taken this sensibility throughout his career.
    Senator Reid and I have worked closely to find solutions to 
issues facing Nevada, particularly when it comes to the 
appropriate use of Nevada's public lands and natural resources. 
My staff and I have enjoyed a good relationship with Neil 
during his tenure in Senator Reid's office. We collaborated to 
do what is best for the people of Nevada on a variety of public 
lands issues including renewable energy development, mining, 
water, outdoor recreation, rural development and wildlife.
    Our working relationship has continued during his tenure at 
BLM. Neil understands the importance of working together, has 
displayed maturity and wisdom beyond his years which he will 
need as he officially takes the helm of the Bureau of Land 
Management.
    While I've not always agreed with him on policy, he has 
proven to be a good partner on public land management issues. 
His pragmatic nature, his background, provides him with a fresh 
perspective as the head of the BLM which allows him to think 
outside the box to find ways to maximize resources, produce 
good outcomes. These attributes will be especially important as 
we wade into many difficult issues such as wildfires, resource 
development and conservation and especially management 
decisions impacting sage grouse and their habitat.
    As it relates to sage grouse it bears to mention that an 
ESA listing for the bird would have a devastating impact on 
Nevada's fragile economy statewide. Given this it's imperative 
that Nevada has the cooperation of the BLM Director as well as 
other relevant Federal agencies. Neil has committed to me that 
he'll continue to work together on this issue. I'm depending on 
that commitment as I know my fellow Nevadans are.
    The stakes are too high. We have a lot of work to do. So 
I'm confident that if confirmed by the Senate, Neil will 
continue to successfully manage the BLM, bring a much needed 
fresh perspective to an agency facing many challenges that 
directly impact Nevada and many of my colleagues on this 
committee.
    Again, thank you, Mr. Chairman. I want to thank all those 
that are with us today. I want to thank Senator Reid also for 
his testimony.
    By the Neil, it's good to have your wife here with you 
also.
    So, thank you.
    The Chairman. Senator Heller, thank you.
    Senator Reid, thank you as well for attending.
    The rules of the committee apply to all nominees require 
that they be sworn in connection with their testimony. Could 
each of you rise and raise your right hand?
    Do you solemnly swear the testimony you're about to give to 
the Senate committee on Energy and Natural Resources shall be 
the truth, the whole truth and nothing but the truth, so help 
you God?
    [Witnesses respond, I do.]
    The Chairman. Before you begin your statements there are 3 
questions that each of you will have to address.
    The first question is, and we need a response from each of 
you, will you be available to appear before this committee and 
other congressional committees to represent Departmental 
positions and respond to issues of concern to the Congress?
    [Witnesses respond, I will.]
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    [Witnesses respond, no.]
    The Chairman. Are you involved or do you have assets held 
in a blind trust?
    [Witnesses respond, no.]
    The Chairman. Alright.
    We'd like to ask each of you to introduce your family 
members.
    Dr. Williams, go ahead.
    Ms. Williams. I'm very pleased to have here today my 
mother, Lois Williams and my husband, Neil Gehrels, also quite 
a few people I believe from my family are watching these 
proceedings online.
    The Chairman. Very good.
    Dr. Kastner.
    Mr. Kastner. With me today is my wife of 46 years, Marcia 
Kastner, who had a job as supervising all the standardized 
mathematics tests for the Commonwealth of Massachusetts school 
children.
    Also with me are my two daughters, one from California and 
one from New York, and my two sisters and their partners, one 
from Maryland and one from North Carolina.
    The Chairman. Very good.
    You, Ms. Schneider.
    Ms. Schneider. Thank you, Senator.
    With me is my mother, my sister, Lisa, my partner, Cynthia 
Johnson of 23 years. I'd also like to acknowledge my Latham 
family which is way in the back, a large contingent. You spend 
a lot of hours at a law firm and they're like family.
    The Chairman. We saw the room was full. You brought them 
out.
    [Laughter.]
    Ms. Schneider. Yes.
    I'd also like to acknowledge my extended family watching on 
the web in Colorado and Texas.
    The Chairman. Very good.
    Mr. Kornze.
    Mr. Kornze. Thank you, Chairman.
    I'm so pleased to introduce my wife, Mara Gassmann, who is 
with me today. We also online have family watching from Nevada, 
Colorado, Idaho, Utah and Georgia.
    The Chairman. Very good.
    In order of seniority I think we probably should start with 
you, Ms. Schneider. You've been nominated to be the Assistant 
Secretary of Interior for Land and Minerals Management.
    We'll recognize you for your statement. If you could keep 
it to around 5 minutes, we'll make your prepared statement a 
part of the record in its entirety.

   STATEMENT OF JANICE M. SCHNEIDER, NOMINEE TO BE ASSISTANT 
   SECRETARY OF THE INTERIOR (LAND AND MINERALS MANAGEMENT), 
                   DEPARTMENT OF THE INTERIOR

    Ms. Schneider. Thank you, Mr. Chairman, Ranking Senator 
Murkowski and members of the committee, it's an honor to be 
considered for the position of Assistant Secretary for Land and 
Minerals Management at the U.S. Department of the Interior. I 
don't typically sound like this. I came down with a bug over 
the weekend, so I ask for your indulgence as I work through 
this brief summary.
    First, I'd like to thank Secretary Jewell and President 
Obama for giving the opportunity, with your consent, to serve 
the American people in this position.
    I second would like to thank David J. Hayes. David has been 
an enormous influence on me. I always try to conduct myself 
with the same levels of integrity, candor and hard work as he 
does.
    Distinguished members of the committee allow me to 
summarize my background for you briefly and its relevance to 
this position.
    Although I spent my childhood in New York City, my career 
has had a constant focus on natural resource use, development 
and conservation issues across the country. In over 30 years 
I've worked successfully with States, tribes, industry, 
conservation groups and other stakeholders on a broad range of 
projects. Balance, attention to stakeholder needs, strong 
science, open and transparent communication, the ability to 
listen and a willingness to collaborate are the elements to 
being successful and to minimizing litigation.
    My undergraduate education as a double science major and 
work for 6 years as a marine biologist in South Florida formed 
the foundation for a strongly analytical and science based 
approach to my work. Working on coastal issues I was 
increasingly faced with laws and regulations I wanted to 
understand better. So I loaded everything I had into my 
hatchback, moved out to Oregon for law school.
    There, working in law school.
    Excuse me?
    The Chairman. Good decision.
    [Laughter.]
    Ms. Schneider. Go Ducks! Ha Ha.
    Working in law school for the Oregon Department of Justice 
on natural resource issues I was hooked. I also learned 
important lessons on State's rights and that State's 
perspectives may differ from Federal and tribal perspectives.
    As a young attorney I practically grew up in the hallways 
of Interior.
    Graduating from law school I was honored to be selected 
during President George H.W. Bush's Administration for the 
Interior Solicitor's Office Honors Program. In my 8 and a half 
years in Federal service, which included a detail to the Deputy 
Secretary's office and as a litigator with the Justice 
Department, I worked on with all of the department's agencies 
and many of the agencies outside of the Department. I 
understand their diverse missions and their broad ranging 
responsibilities.
    After about 8 and a half years of Federal service I went 
into private practice. I'm now an equity partner at Latham and 
Watkins. For the last 12 years I've focused on energy issues. 
I've worked closely with those who generate and transmit 
energy, those who provide important resources for this Nation's 
growth and security and those who finance these projects.
    I strongly believe that energy independence is vital to 
this Nation's security. I understand that if confirmed the 
agencies I would oversee play a critical role, not only in 
getting us there, but in also creating jobs and providing 
economic security across the country.
    Nonetheless resource development must and can be conducted 
in a balanced, environmentally sound and sustainable way. All 
Federal decisions need to be science based and take diverse 
views into consideration.
    I strongly support the President's all of the above energy 
strategy and the need for a renewable and conventional 
resources both onshore and offshore. I've personally worked on 
coal projects, upstream and midstream oil and gas projects, 
wind, solar, geothermal projects, LNG development, hard rock 
and leasable mineral development, refinery issues and extensive 
transmission and pipeline work on public and private lands.
    These projects are not easy. They are high stake, billion 
dollar projects. They're multifaceted. They raise complex 
issues and have significant stakeholder components.
    I understand the business need for efficiency and 
predictability for both project developers and financial 
institutions. I also understand that these needs must be 
balanced with environmental protection and with community 
engagement.
    These are not mutually exclusive goals. I am proudest when 
we are able to work issues out with a broad range of 
stakeholders and avoid litigation.
    I've also worked on many conservation projects as detailed 
in my written statement. I have over 20 years of experience 
with American Indian issues. So I understand the Federal 
Government's responsibility to honor tribal views, protect 
trust and treaty resources. If confirmed I will bring this 
balanced and experienced approach to this office.
    Finally, I appreciate that public lands are also critically 
important recreation areas. I love being outdoors. I've 
detailed some of my exploits in my written statement.
    Many have asked why I would consider leaving a strong and 
successful law practice. The answer is simple. I believe in 
public service. I believe that I can contribute to these issues 
in a balanced and transparent way.
    If confirmed I look forward to working with each of you on 
this committee with Congress and stakeholders.
    Thank you, Mr. Chairman, distinguished members of the 
committee. I'm happy to take any questions you may have.
    [The prepared statement of Ms. Schneider follows:]

  Prepared Statement of Janice M. Schneider, Nominee to be Assistant 
Secretary of the Interior (Land and Minerals Management), Department of 
                              the Interior

    Thank you Mr. Chairman, Ranking Senator Murkowski, and 
members of the committee. It is an honor to be considered for 
the position of Assistant Secretary for Land and Minerals 
Management at the U.S. Department of the Interior, and an honor 
to appear before you today.
    First, I want to thank Secretary Jewell and President Obama 
for giving me the opportunity, with your consent, to serve the 
American people in this position.
    Second, I would like to acknowledge my family and friends 
in the audience, including my mother; my partner Cynthia 
Johnson; my sister; and my dad and the rest of my extended 
family watching from Colorado and Texas for all of their love 
and support. I would not be here today without you.
    Third, I want to thank David J. Hayes. David has been an 
enormous influence. I always try to conduct myself with the 
same levels of integrity, candor and hard work as he does. I 
would also like to thank my many other friends, including my 
colleagues and partners at Latham & Watkins LLP and my clients, 
for the opportunities we have shared together.
    Distinguished Members of the Committee, allow me to 
summarize my background for you and its relevance to this 
position:
    Although I spent my childhood in New York City, my career 
has had a consistent focus on natural resource use, 
development, and conservation issues across the country.
    In over 30 years, I have worked successfully with states, 
tribes, industry, conservation groups and other stakeholders on 
a wide variety of projects. Balance, attention to stakeholder 
needs, strong science, open and transparent communication, the 
ability to listen, and a willingness to collaborate, are the 
elements to being successful and minimizing litigation.
    I have always been drawn to the sciences and the natural 
environment. My undergraduate education as a double science 
major, and work for six years as a marine biologist in south 
Florida, formed the foundation for a strongly analytical and 
science based approach to my work.
    I began my professional career as a research biologist in 
south Florida investigating population and abundance of 
commercially and recreationally important fish species--such as 
stone crab, swordfish, sardines in the Gulf of Mexico, and 
shrimp--to support sustainable use strategies. At the 
University of Miami's experimental fish hatchery, I worked to 
develop techniques to support viable fish stocking of snook, a 
popular game fish, which was then in decline. I also worked on 
oceanographic cruises in the Straits of Florida, mapping the 
location of ocean density layers, and for the National Park 
Service down at Everglades National Park.
    As a professional, I transitioned to managing teams 
assessing the environmental impacts of proposed projects--such 
as new or widened roads, highways and causeways--at the Florida 
Department of Transportation, and worked extensively on coastal 
development issues as a private environmental consultant. 
Working on these projects (such as large marinas and other 
coastal development) raised a host of environmental review and 
mitigation issues, including wetlands, endangered species, and 
cultural resources.
    I was increasingly faced with laws and regulations that I 
wanted to understand better. It piqued my interest in the law. 
So, after over six years of working as a biologist, I loaded 
everything I had into my hatchback and moved to Portland, 
Oregon for law school, to expand my horizons and my experience. 
The rest of my career has been spent focusing on western 
resource issues.
    During law school, I worked for two years for the Oregon 
Department of Justice on a very broad range of natural resource 
issues. These included: mining in eastern Oregon; tribal 
treaty, recreational, and commercial fishing rights, licensing 
and regulation; western water law; public access, hunting and 
law enforcement; timber, and sensitive species issues; other 
Endangered Species Act and National Environmental Policy Act 
issues; and evaluating new oil spill legislation. Working for 
Oregon, I learned the importance of state perspectives on 
issues, and that they may differ from federal and tribal 
perspectives.
    As a young attorney, I practically grew up in the hallways 
of Interior. Upon graduation, I was selected by Tom Sansonetti, 
during President George H. W. Bush's Administration for the 
Interior Solicitor's Honors Program. In my six and a half years 
there--including a detail to the Deputy Secretary's Office--I 
worked with all of the Department's agencies, including the 
Bureau of Land Management, the Office of Surface Mining, the 
former Minerals Management Service, the Bureau of Indian 
Affairs, the Fish and Wildlife Service, the Bureau of 
Reclamation, the National Park Service, and the U.S. Geological 
Survey.
    As a litigator with the Justice Department--where I 
specialized in Endangered Species Act, Magnuson-Stevens Fishery 
Conservation and Management Act and Marine Mammal Protection 
Act litigation--I worked closely with other agencies outside 
Interior, such as NOAA Fisheries, the U.S. Army Corps of 
Engineers and the Forest Service. I understand each agency's 
diverse missions and broad ranging responsibilities.
    After eight and a half years in public service, I went into 
private practice. I am now an equity partner with Latham & 
Watkins LLP; the Local Chair of the Environmental Department 
here in Washington, DC; and a co-chair of the Energy and 
Infrastructure, Siting and Defense practice.
    For the last 12 years, I have focused on energy issues, and 
worked closely with industry, including those who generate and 
transmit energy, those who provide important resources for this 
Nation's growth and security, and those who finance these 
projects.
    I strongly believe that energy independence is vital to 
this Nation's security and a priority for the Administration. I 
understand that, if confirmed, the agencies I would oversee 
play a critical role not only in getting us there, but also 
creating jobs and providing economic security across the 
country, while adapting and responding to climate change. 
Nonetheless, resource development must--and can--be conducted 
in a balanced, environmentally sound, and sustainable way. All 
Federal decisions must be science-based and must take diverse 
views into consideration.
    I strongly support the President's ``All of the Above'' 
energy strategy, and the need to increase our renewable and 
conventional resources, both onshore and offshore. Among other 
things, I personally have worked on coal projects across the 
country; oil and gas projects, including in the Bakken; wind, 
solar and geothermal projects in West Virginia, Hawai'i, 
Washington, California and Nevada, respectively; LNG 
development in Louisiana; hardrock and leaseable mineral 
development in Oregon, Idaho and Minnesota, respectively; 
refinery issues in Alaska; and extensive high voltage 
transmission and pipeline work on public and private lands.
    For example, I recently led the legal strategy for 
development and successful defense of a $2 billion transmission 
line, one of the first specifically built to deliver renewable 
energy, and also successfully handled the environmental review 
for a new mineral rights development. These projects are not 
easy; they are multi-faceted and raise complex issues. One 
project I am working on right now involves seven different 
federal agencies, along with needed state and tribal approvals. 
These projects also have significant stakeholder components. I 
understand the business need for efficiency and predictability 
for both project developers and financial institutions. I also 
understand those needs must be balanced with environmental 
protection and community engagement. These are not mutually 
exclusive goals. I am proudest when we are able to work issues 
out with a range of stakeholders and avoid litigation.
    I have also worked on many conservation and mitigation 
efforts during my career. This includes: helping to create two 
national parks (the Great Sand Dunes National Park in Colorado, 
and Paterson National Historical Park in New Jersey); helping 
to restore river flows in the Trinity, the Flathead and the 
Missouri; working to improve the Everglades and California Bay 
Delta ecosystems; land acquisition for conservation; and, I 
have first-hand experience implementing a broad range of 
protective and mitigation measures to address impacts from 
development projects. I also have over twenty years of 
experience with American Indian issues and understand the 
federal government's responsibility to honor tribal views, and 
protect trust and treaty resources.
    If confirmed, I will bring this experience and a balanced 
approach to the office.
    Finally, I appreciate that the public lands are also 
critically important recreational areas. I love being outside. 
I will never forget my first backpacking trip on Mount Hood in 
Oregon and the raw beauty of the Pacific Northwest, hiking 
Aravaipa Canyon on BLM lands in Arizona, rafting the Arkansas 
River in Colorado, duck hunting on a magical morning in the 
Everglades, or the pleasure of surf-fishing on a lot of beaches 
on the east coast. While I like to ski in the winter, and to 
sea kayak when it is not quite so cold, I also understand and 
respect that people like to recreate in different ways, which 
should--and can--be accommodated.
    Many have asked me why I would consider leaving an 
interesting and successful law practice. The answer is simple. 
I believe in public service, and I believe that I can 
contribute to the dialogue on energy policy and conservation in 
a balanced, transparent and positive way. If confirmed, I look 
forward to working with each of you on this Committee, Congress 
and stakeholders, in that regard.
    Thank you, Mr. Chairman, and thank you, distinguished 
Members of the Committee. I am happy to take any questions you 
may have.
    The Chairman. Ms. Schneider, thank you.
    Why don't we go to you next, Mr. Kornze?

STATEMENT OF NEIL KORNZE, NOMINEE TO BE DIRECTOR OF THE BUREAU 
         OF LAND MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Kornze. Thank you, Chairman Wyden, Ranking Member 
Murkowski and members of the committee. It's an honor to be 
here today as the President's nominee for the Director of the 
Bureau of Land Management.
    I'd also like to thank Senator Heller and Senator Reid for 
their kind comments.
    My family's connection to the land goes back generations. 
My great grandparents homesteaded on the Great Plains. My 
grandparents grew and packed apples in the Pacific Northwest. 
My father explored for gold in States like Nevada and all 
around the West. Through this, the bounty of the land has 
always been central to my understanding of our Nation and our 
potential.
    As an individual I'm a hunter, an angler, a hiker, a 
recreational shooter and a white water enthusiast when I can 
find the time. I'm also a consumer of fossil fuels and 
renewable energy.
    Growing up in Northeastern Nevada I came to know the 
importance of natural resources through hometown industries 
like gold mining and cattle ranching. In fact my first job out 
of high school was working at one of the Nation's largest hard 
rock mines.
    Life in Elko also introduced me to the recreational 
opportunities that public lands afford. Many weekends were 
spend hunting the local hills or exploring remote areas by 4 
wheeler or on foot. Through these pursuits and practices and 
through my work both in the U.S. Senate and at the BLM I've 
come to understand our Nation's natural heritage from a wide 
range of perspectives.
    During my time working here in the U.S. Senate I had the 
great privilege of working with many of you to craft critical 
national legislation like the Omnibus Public Lands Act of 2009 
and to work on a long term reauthorization of the Secure Rural 
Schools Act and the Payment in Lieu of Taxes program.
    As Majority Leader Reid's advisor on public lands I worked 
with members on both sides of the aisle and with this committee 
to promote responsible development and smart conservation in 
places where they make sense.
    Over the last 3 years I worked at the BLM in a number of 
leadership positions including my current role as Principle 
Deputy Director. Through this position which I have held for 
the past year, I've been the functioning head of the agency. In 
this role I have strived both to bring a continuity of 
leadership to the organization as well as a willingness to 
approach issues with fresh eyes.
    While at the BLM I've worked with my colleagues to find new 
ways to connect and collaborate with the public, our 
stakeholders and even with our own internal team to further our 
core mission of multiple use and sustained yield. We've made 
some strides in this area. But much more needs to be done to 
provide clear, more user friendly information for the public to 
understand the resources that are on the public lands and our 
short and long term plans for management.
    The issue of communication is a particular challenge for 
the agency because unlike some of our sister agencies the 
resources we manage are scattered across all 50 States and 
there is rarely a clear demarcation of where public lands start 
and stop.
    We're proud, however, of the way that this pattern places 
us as an integral partner of communities, both rural and urban. 
But it also gives us an added responsibility to be very clear 
about where we are and what we do.
    Right now at the Bureau we are in the process of using 
technology to break down barriers. In the oil and gas realm 
we've made improvements, important improvements, in the last 
few years in our processing and drilling permits. We will 
continue that progress with the use of an online APD system 
that will be tested and rolled out in the year ahead.
    Similarly we have a unique responsibility in the State of 
Alaska to native corporations and to the State itself. That 
responsibility is conveying millions of acres of land. By 
looking at this particular challenge over the last months in 
the last year, we have found ways to use technology to 
literally take decades off of our current schedule for those 
land conveyances, to do it at a fraction of the cost and to do 
it while delivering an even better product than what we have 
today.
    So we're very proud of some of these innovations.
    Through these efforts and through greater use of science 
and our decisionmaking processes and by moving to a more nimble 
landscape level planning approach, we will have incredible 
opportunities in the years ahead.
    As you know the challenges we face are also substantial. 
Fire, drought and the decline of species like sage grouse are 
all situations we must adapt to and we must help address.
    We also have to do more to understand the most durable ways 
to mitigate the development impacts on public lands and to 
restore the public lands so that we can truly live up to our 
agency's mandate of public use and sustained yield.
    If confirmed I will work with my partners and my hard 
working BLM colleagues to tackle these issues directly. It's a 
great honor to be here with you today. I look forward to taking 
your questions.
    [The prepared statement of Mr. Kornze follows:]

 Prepared Statement of Neil Kornze, Nominee to be Director, Bureau of 
              Land Management, Department of the Interior

    Thank you, Mr. Chairman, Ranking Member Murkowski, and 
Members of the Committee. I am deeply honored to be here today 
as President Obama and Secretary Jewell's nominee to be the 
next Director of the Bureau of Land Management. Before we 
begin, I would like to take a moment to introduce my wife, Mara 
Gassmann, who is here with me. I am grateful for her support 
and that of our extended family who are watching today from 
Nevada, Idaho, Utah and Georgia.
    My family's connection to the land goes back generations. 
From my great grandparents who homesteaded on the Great Plains, 
to my grandparents who grew, picked and packed apples in the 
Pacific Northwest, to my father who spent his career exploring 
Nevada and other states for gold and copper deposits, the 
bounty of the land has always been central to my understanding 
of our nation's greatness and its potential. As an individual, 
I am a hunter, an angler, a hiker, a recreational shooter, and 
a mountain bike rider. I am also a consumer of fossil fuels and 
renewable energy. Through these pursuits and practices and 
through my work both here in the U.S. Senate and at the Bureau 
of Land Management, I have come to appreciate our nation's 
natural heritage from a wide range of perspectives.
    During my time working here in the U.S. Senate, I had the 
privilege of helping to craft critical national legislation 
like the Omnibus Public Lands Act of 2009 and a long-term 
reauthorization of the Secure Rural Schools and Payment-In-
Lieu-of-Taxes programs. As Majority Leader Harry Reid's advisor 
on public land and natural resource issues, I worked closely 
with Members from both parties and this committee to move 
forward statutory improvements that recognized both the need 
for responsible development of our natural resources and smart 
conservation in places where it makes sense.
    Over the last three years I have worked at the Bureau of 
Land Management in a number of leadership positions, including 
my current role of Principal Deputy Director. Through this 
position--which I have held for the past year--I have been the 
functioning head of the Bureau of Land Management. In this 
role, I have strived to bring both a continuity of leadership 
and vision to the organization as well as a willingness to 
innovate and to approach our many responsibilities with fresh 
eyes.
    Many of the accomplishments of the first-term, including 
oil and gas leasing reforms and the Western Solar Plan, are 
still a work in progress. Limited budgets coupled with the 
long-term nature of the work we do means that successful 
implementation of programs often takes years. This reality 
makes long-term stability in the organization's leadership and 
philosophy a critical component of achieving our shared goals.
    While at the Bureau of Land Management, I have worked with 
my colleagues to find new ways of connecting with the public, 
our partners, and our own internal team. We have made some 
strides in this area, but much more needs to be done to provide 
clearer, more user-friendly information about the resources 
that exist on the public lands and the both long and short-term 
plans for management.
    The issue of communication is a particular challenge for 
the Bureau because, unlike some of our sister agencies, the 
resources that we manage are scattered across all 50 states, 
and there is rarely a clear demarcation of where the public 
lands stop and start. We are proud of the way that this land 
pattern places us as a key partner to so many communities, both 
rural and urban, but it also gives us an added responsibility 
to harness available tools to better inform the public about 
where we are and what we do.
    Right now at the Bureau we are in the process of using 
technology to break down barriers. In the oil and gas realm, we 
have made strong improvements in our reviews of drilling 
permits in recent years, but we can and will do better through 
the use of an online permitting system that will be tested and 
rolled out over the next several months.
    Similarly, we have a unique responsibility for surveying 
and conveying millions of acres of land to native corporations 
and to the State of Alaska. This work has historically been 
done through a relatively slow and expensive process. By 
looking at this particular challenge with a new perspective, we 
have found ways to fulfill our commitment to the State of 
Alaska literally decades ahead of the current schedule, at a 
fraction of the cost, and with a greatly improved product.
    In the face of declining budgetary resources and increasing 
demands on our nation's public lands and minerals, I am 
committed to exploring new approaches with the public, our 
stakeholders, and Congress so that the Bureau of Land 
Management can become a more effective and more responsive 
organization. Through these efforts and through greater use of 
science in our decision-making processes and by moving to a 
more nimble, landscape-level planning approach, we have 
incredible opportunities in the years ahead.
    As you know, the challenges we face are also substantial. 
Fire, drought, and the decline of critical species like sage 
grouse are all situations that we must adapt to and help 
address. We must also do more to understand the most durable 
ways to mitigate development impacts and to restore the public 
lands so that we can truly live up to the agency's dual mission 
of multiple use and sustained yield.
    If confirmed, I will work with my dedicated colleagues, 
Congress and the public to tackle these issues directly and to 
ensure that the Bureau of Land Management continues to play a 
vital role in the American economy and in sustaining public 
lands for this and all future generations to use and to enjoy.
    Mr. Chairman, I appreciate the opportunity to share these 
thoughts with you and your distinguished colleagues. I consider 
it a great privilege to be here with you today. I look forward 
to answering any questions you might have.

    The Chairman. Thank you, Mr. Kornze.
    We're glad to have you back. As you and I have talked about 
Western resources issues are not for the faint-hearted. You 
have been through a lot of those challenges and we're glad to 
have you here.
    Mr. Kastner.

  STATEMENT OF MARC A. KASTNER, NOMINEE TO BE DIRECTOR OF THE 
            OFFICE OF SCIENCE, DEPARTMENT OF ENERGY

    Mr. Kastner. Chairman Wyden, Ranking Member Murkowski and 
members of the committee, thank you for the opportunity to 
appear before you today as you consider my nomination to be 
Director of the Office of Science.
    I'm honored and indeed, humbled by being nominated by 
President Obama and supported by Secretary Moniz to lead the 
organization that is the largest supporter of physical sciences 
research in the United States. If confirmed I look forward to 
working with this committee to address the challenges of 
maintaining the Nation's leadership in fundamental science 
which is so important to our security and economic health.
    I was born in Canada and moved to Cleveland, Ohio with my 
parents at the age of 7 and then went to the University of 
Chicago for both undergraduate and graduate education. I 
majored in chemistry as an undergraduate and then switched to 
physics as a graduate student. After a short post-doctoral 
research experience I moved to MIT and I've been there for over 
40 years on the faculty of the Physics Department.
    I feel today as though I've come full circle because my 
first research experience took place at Argonne National 
Laboratory, one of the great national laboratories run by the 
Office of Science for the benefit of the country.
    I've been doing research for nearly 50 years. I've been 
privileged to have some exciting discoveries, primarily because 
I've had brilliant colleagues at MIT and brilliant students and 
brilliant post-doctoral researchers to work with. I won't bore 
you with any of the details of my research.
    Twenty years ago I began taking on administrative 
responsibilities which, I think, are relevant to the position 
of the Director of the Office of Science.
    The first was as Director of an NSF funded materials 
research center where I coordinated the research of 50 faculty 
members in science departments and engineering departments.
    After that I became Head of the Department of Physics where 
I was responsible for faculty that did research in high energy 
physics, nuclear physics, plasma physics as well as solid state 
physics and astrophysics, many of the primary responsibilities 
of the Office of Science to support these areas.
    In 2007 I became Dean of the School of Science and my 
portfolio broadened further to include the life sciences, the 
earth sciences and chemistry as well as mathematics.
    So over the years I've had supervisory responsibility for 
people working in almost all of the areas that are supported by 
the Office of Science.
    I chaired two different committees of the National Research 
Council of the National Academies that explored issues asked 
for by the Office of Science. I therefore got some insight into 
policy and other challenges and opportunities faced by the 
Department.
    Over the years I've had the privilege of having my own 
research funded by the Federal Government, by the National 
Science Foundation, by the Department of Defense and of course, 
by the Department of Energy. At this stage in my life I really 
look forward to helping younger people keep the United States 
at the forefront of research.
    Let me close by reiterating that our quality of life, the 
health of our economy, the strength of our national defense and 
the security of our energy future all stem from discoveries in 
basic science. I look forward, if confirmed, to working with 
members of this committee to ensure that basic science 
continues to thrive at DOE and that its discoveries are turned 
sufficiently into technologies that serve the American people.
    I thank you again for considering my nomination and will be 
happy to answer any questions.
    [The prepared statement of Mr. Kastner follows:]

 Prepared Statement of Marc A. Kastner, Nominee to be Director of the 
                Office of Science, Department of Energy

    Chairman Wyden, Ranking Member Murkowski, and Members of 
the Committee, thank you for the opportunity to appear before 
you today as you consider my nomination for the position of 
Director of the Office of Science at the Department of Energy 
(DOE). I am honored and humbled to be nominated by President 
Obama and supported by Secretary Moniz to lead this enterprise, 
which is the largest supporter of physical sciences in the 
United States. If confirmed, I look forward to working with 
this Committee to address the challenges of maintaining the 
Nation's leadership in fundamental science, which is so 
critical to our security and economic health.
    I am pleased that some members of my family are here today: 
My spouse of more than 46 years, Marcia Kastner, has a Ph. D. 
in applied mathematics. Although most of her career was in the 
private sector, her last job was supervising all of the 
standardized mathematics tests for the children of the 
Commonwealth of Massachusetts. Our two daughters are here, who 
are both business women; one has worked at startups in 
California, the other is starting a company of her own in 
Brooklyn, New York. Finally my two sisters are here with their 
partners, one from Maryland and one from North Carolina.
    I was born in Canada, but moved with my family at the age 
of 7 to Cleveland, Ohio. In college, at the University of 
Chicago, I studied Chemistry as an undergraduate and then 
switched to Physics in graduate school. In a sense, I have come 
full circle, because my first scientific publication, of which 
there are now about 270, was based on research done as an 
undergraduate, at Argonne National Laboratory in Illinois, one 
of the great National Labs supported by the Office of Science.
    In nearly 50 years of research, I have worked on 
fundamental questions related to how electrons move inside 
solids, a field that has provided the science underpinning the 
electronics and computer industries. Since joining the faculty 
of MIT just over 40 years ago, I have led extremely talented 
graduate students and postdoctoral scientists in experiments 
that have contributed to the understanding of novel 
semiconductors and superconductors. Our early research was on 
amorphous semiconductors, some of which are now used for solar 
energy conversion and others as the active memory material in 
DVDs. When high-temperature superconductivity was discovered in 
1986, I began a 15-year collaboration with Robert Birgeneau, 
who recently stepped down as Chancellor of the University of 
California at Berkeley, and the late great Brookhaven National 
Laboratory scientist Gen Shirane. We used the High Flux Beam 
Reactor at Brookhaven to study the magnetic properties of the 
fascinating materials, whose ability to transmit electricity 
without loss has the potential for increasing the efficiency of 
the electricity grid. The research at the reactor gave me a 
deep appreciation of the value of the large facilities than can 
only be built and maintained by the Office of Science. The work 
for which I am perhaps best known, was the discovery of a 
transistor that turns on and off again every time one electron 
is added to it; this should be compared with the transistors in 
your cell phone, which take several hundred electrons and can 
turn on only once before they are turned off. This single-
electron transistor, may someday help to make computers with 
greater computing power and lower energy consumption.
    Twenty years ago, I began to take on administrative 
responsibilities at MIT, which gave me an appreciation of ever 
expanding areas of science. As Director of the Materials 
Research Science and Engineering Center, funded by NSF, I 
organized the research of about 50 faculty members from the 
Schools of Science and Engineering working on interdisciplinary 
projects. When I became Head of the Department of Physics, I 
was responsible for a faculty carrying out research in high 
energy, nuclear, atomic, condensed matter and astrophysics. 
Finally, for the past six years, I have been Dean of the School 
of Science, which has given me oversight of the life sciences, 
chemistry, earth sciences and mathematics, including some 
computer science. Thus, I have had administrative 
responsibility for research in almost all the fields supported 
by the Office of Science.
    MIT has an outstanding record of turning scientific 
discoveries into technology and bringing the latter to the 
market place by starting new companies. I am enthusiastic about 
working with the Undersecretary for Science and the Director of 
ARPA-E and others at the Department, to explore new ways of 
increasing the speed with which technology transfer happens at 
DOE.
    In the past decade, I was privileged to serve as the chair 
of two committees of the National Research Council, which 
oversaw numerous studies requested by the Office of Science. I 
also served on several committees of the Basic Energy Sciences 
Advisory Committee. These have given me a view of some of the 
policy challenges and opportunities that I will face if I am 
confirmed.
    I have been privileged to have had my own research 
supported by government agencies, including the NSF and 
Department of Defense, as well as DOE, for nearly half a 
century. I look forward, if confirmed, to helping younger 
scientists make progress at the frontiers of knowledge.
    Let me close by reiterating that our quality of life, the 
health of our economy, the strength of our national defense and 
the security of our energy future all stem from discoveries in 
basic science. I look forward to working with members of this 
Committee to ensure that basic science continues to thrive at 
DOE and that its discoveries are turned efficiently into 
technologies that serve the American people.
    I thank you again for considering my nomination, and I will 
be happy to answer any questions you may have.

    The Chairman. Doctor, thank you, a very helpful statement. 
I'm particularly pleased that you want to focus on young people 
and making sure that they understand the possibilities for 
science.
    I've begun something at home called listening to Oregon's 
future where I get out to the high schools and just listen to 
the students about their hopes and aspirations. Science comes 
up again and again and again.
    So we'll want to ask you about that.
    Mr. Kastner. Thank you.
    The Chairman. Dr. Ellen Williams, welcome.

 STATEMENT OF ELLEN D. WILLIAMS, NOMINEE TO BE DIRECTOR OF THE 
 ADVANCED RESEARCH PROJECTS AGENCY-ENERGY, DEPARTMENT OF ENERGY

    Ms. Williams. Thank you very much, Chairman Wyden, Ranking 
Member Murkowski and members of the committee. I truly 
appreciate the opportunity to appear before you as President 
Obama's nominee for the Director of ARPA-E.
    I also would like to express my thanks to President Obama 
and to Secretary Moniz for trusting me and giving me this 
opportunity. If confirmed I would do everything in my power to 
validate that trust.
    As you know, ARPA-E's mission is to accelerate the creation 
of transformative technologies at the very earliest stages of 
development. I'd like to give you a little bit of information 
about my background in the context of ARPA-E's mission.
    As you know I grew up in Michigan. I attended Michigan 
State University for my bachelor's degree studying chemistry. 
Then I went on to California Institute of Technology, also in 
chemistry.
    But there I was introduced to the power of 
interdisciplinary research, the special opportunities to 
advance technology that occur at the boundaries between 
disciplines. So in my subsequent research career I've worked at 
the boundaries of chemistry, chemical engineering, physics and 
materials science.
    I became a professor at the University of Maryland, was 
there for nearly 30 years. I did teaching and research, ran a 
large research laboratory and a research center.
    In parallel with my academic career I had the opportunity 
to work in government service as a member of a consulting group 
that worked upon request for agencies of the U.S. Government 
providing technical assessments of various applications of 
technology. In that role I've worked on studies for many 
agencies including DARPA, the Department of Defense, NNSA and 
the Department of Energy.
    Over the decades of my research and consulting career I've 
had multiple opportunities to observe firsthand the 
transformation of early stage research, fundamental studies of 
what might seem to be very obscure and esoteric types, very 
difficult to carry forward, that have moved forward, step by 
step, over a ten or twenty year time scale to become 
commercialized products which are truly changing the way that 
we run our lives. As a result I have a lot of optimism about 
the long term power of transformative technology.
    Four years ago I had the opportunity to become involved 
directly in the commercial energy world when I was given the 
opportunity to become BP's Chief Scientist. At BP I've had a 
number of responsibilities, but among those that I found the 
most satisfying have been those that involved innovation and 
emerging technologies. I worked internally with BP's creative 
and innovative technologists to provide them with the tools and 
opportunities for them to look at emerging technologies and 
bring them into the company and discover new ways of delivering 
value.
    I've also worked externally appraising what's available in 
emerging technologies worldwide and trying to understand their 
strategic impacts for the energy industry overall.
    In both of these roles one of my key criteria and drivers 
has been really using strong, rigor in technical assessments 
and being able to develop a sound understanding of what's both 
technically and economically feasible and with that rigor of 
assessment also developing a rigor of communication because as 
a technologist I have a responsibility to bring to the 
decisionmakers the information that they need to make good 
policy decisions moving forward.
    So in summary what I would bring to the role as the 
Director of ARPA-E, if confirmed, are my many years of 
experience in basic research and understanding the applications 
of research through to technology and commercial development, 
my optimism and my enthusiasm for the power of transformative 
technology and my strong commitment to rigor and technical 
assessment and communication.
    As you all know the United States faces a lot of challenges 
and a lot of opportunities in developing and delivering the 
secure, clean and affordable energy that we need to maintain 
our quality of lives. I believe that ARPA-E's programs are 
essential to these challenges and I'm very honored to have the 
opportunity to work with ARPA-E in continuing to deliver value. 
If I'm confirmed I would look forward to working with every 
member of this committee to deliver that value.
    So I thank you for your attention. I'll be happy to answer 
any questions you may have.
    [The prepared statement of Ms. Williams follows:]

Prepared Statement of Ellen D. Williams, Nominee to be Director of the 
   Advanced Research Projects Agency--Energy (ARPA-E), Department of 
                                 Energy

    Chairman Wyden, Ranking member Murkowski, members of the 
Committee, I appreciate the opportunity to appear before you 
today as President Obama's nominee for Director of the Advanced 
Research Projects Agency--Energy (ARPA-E) at the United States 
Department of Energy (DOE). It is an honor to be here.
    I would like to thank President Obama for nominating me for 
this position. If confirmed, I would do my utmost to justify 
the confidence he has placed in me. I also would like to 
express my gratitude to Secretary Moniz for his support. If 
confirmed, it will be a privilege to join his team.
    I also would like to thank my family, my parents Lois and 
Richard Williams, my husband, Neil Gehrels and his parents Tom 
and Aleida Gehrels, my brothers and sisters, my children Thomas 
and Emily, and my friends and colleagues. Their guidance, love 
and support are the foundation for all my efforts.
    Mr. Chairman, as you know, ARPA-E is a young agency that is 
applying to energy technology the approaches to innovation and 
value development that have been demonstrated with long term 
success by Defense Advanced Research Projects Agency (DARPA) 
for military technology. If confirmed, I will bring to the role 
my lifetime of experience in scientific research and in 
supporting the application of cutting-edge technology to meet 
pressing social needs.
    I grew up in Michigan, in the Detroit suburbs, and 
experienced first-hand the benefits to local communities of a 
thriving manufacturing base. I went to college at Michigan 
State University, where I studied chemistry. The excellent 
program there made it possible for me to go on to advanced 
studies at California Institute of Technology in Pasadena, 
California. There I was introduced to a broad perspective of 
interdisciplinary research, and as a result my subsequent 
career in science has spanned the disciplines of chemistry, 
chemical engineering and materials science.
    After my doctoral and post-doctoral work, I became a 
professor at the University of Maryland in College Park. As a 
professor, teaching and running a research laboratory and later 
a research center, I saw over a decade's time amazing 
transformations in which difficult and esoteric experiments led 
to new technologies that shifted the baseline of the possible. 
This has left me with optimism about the potential of science 
and innovation. If confirmed I would bring this vision--
optimism, and my enthusiasm to the work of ARPA-E.
    In parallel with my academic career, I had the opportunity 
to be involved in government service as a member of a 
technology group that provides advice upon request to the U.S. 
government. In this role I participated in technical 
assessments for DARPA and the Department of Defense, and for 
other government agencies including the National Nuclear 
Security Administration and DOE. The DOE studies included 
stockpile stewardship, site remediation, and science 
activities. If confirmed, I would bring this external 
perspective to further developing the complementary 
relationship between ARPA-E and other DOE programs.
    In the midst of this satisfying and productive academic and 
service career, four years ago I had the opportunity to become 
directly involved in energy technology as BP's Chief Scientist. 
In this role I have been involved in both internally-facing and 
externally-facing activities. One of my greatest sources of 
pride in the inward-facing role has been giving our technology 
teams the space and resource to apply their talent and 
creativity to generate new technical value through innovation. 
In my externally-facing role, I've been responsible for 
assessing technology that may have strategic implications for 
the world energy industries. In doing so I've applied a 
stringent criterion of testing the technical basis for all 
assertions--this is essential to provide decision makers with 
the information they need to make sound choices for the future. 
If confirmed, I will bring the same rigor in supporting the 
members of this Committee with the information you need about 
ARPA-E and innovation in energy technology.
    Mr. Chairman, we as a nation face great challenges and 
great opportunities in proving the secure, clean and affordable 
energy essential to our quality of life both now and for 
generations to come. ARPA-E is playing an important role in 
establishing new, transformational opportunities for the 
future. If confirmed, I would look forward to working with the 
members of this Committee to help ARPA-E deliver the greatest 
value and impact.
    Thank you very much for this opportunity to come before 
this Committee. I look forward to answering any questions you 
may have.

    The Chairman. Doctor, thank you. We will.
    Let me begin, if I might, for Ms. Schneider and Mr. Kornze, 
on the whole issue with respect to financial stewardship and 
financial stewardship on our public lands. I think it's quite 
clear that our public lands can and should be used for many 
valuable purposes; recreation, mining, oil and gas development, 
routes for oil and gas pipelines, electric transmission lines, 
and forestry would be a few of them.
    There remains an obligation to the American taxpayer to 
make sure that our taxpayers are getting a fair return for 
commercial use of their public lands. A major share of onshore 
royalties also go to State and Indian tribes so shortcomings in 
royalty collections also short our States and our tribes. 
Shortly, a General Accounting Office report will be released 
that raises questions about how well the Department has been 
doing to ensure that taxpayers are getting a fair return for 
oil and gas development on both offshore and onshore public 
lands.
    Now I think it would be fair to say it's not clear that the 
Interior Department, and especially the Bureau of Land 
Management, has always kept up with the times.
    In addition, according to recent work done by the General 
Accounting Office in the Department's Office of the Inspector 
General, policies could also be improved with regard to the 
Federal coal program. For example, earlier this year the 
Inspector General reported that only one of BLM's offices takes 
the value of coal exports into account when setting the fair 
market value for coal leases.
    So let me begin with a question for you, Ms. Schneider, a 
question for you, Mr. Kornze. If you two are confirmed, will 
you commit this morning to working with the committee to update 
Interior's approach to managing public lands to ensure that 
taxpayers receive a fair return for the use of their lands?
    Ms. Schneider, let's start with you.
    Ms. Schneider. Thank you, Senator, for the question.
    Yes, I agree that the U.S. taxpayer should be getting a 
fair return for the use of public lands and the Outer 
Continental Shelf and that those benefits can also flow to the 
States and tribes as appropriately.
    I look forward, if confirmed, to reviewing this new GAO 
report and working with the members of the committee on this 
issue.
    The Chairman. Very good.
    Mr. Kornze.
    Mr. Kornze. Thank you, Mr. Chairman.
    Securing a fair return is part of our mandate at the Bureau 
of Land Management, making sure that we're looking out for the 
public. So we're making some progress on the coal issue, in 
particular. We do have some recommendations from GAO and IG 
that we are implementing.
    So I think we're making progress on some fronts. If 
confirmed, you can be certain that we will continue to take 
fair return for the taxpayer very seriously.
    The Chairman. Very good.
    Let me move now to a major Oregon issue. That is, and Mr. 
Kornze you're familiar with it, the Oregon and California 
legislation that is so important to Oregon's rural counties.
    I have spent a great deal of time trying to find a way. 
This is a hugely important issue to Oregonians--to double the 
timber harvest because these communities have been hit so hard 
economically--on average double those timber harvests, each 
year for the next 20 years. I believe that we found a way to do 
it. In effect, you all have validated that estimate that's been 
done by our scientists and at the same time protect our 
treasures.
    Now my question to you is--and your folks have been very 
helpful, both in Oregon and here in Washington, DC--if 
confirmed, will you continue to work with me to develop ways to 
implement the part of the issue that's so critical, the 
National Environmental Policy Act, early in the process on a 
large landscape scale basis, to ensure that NEPA fulfills its 
twin goals of considering the environmental impact of a 
proposed action and informing the public without contributing 
to unnecessary delay?
    Mr. Kornze. Senator, we are moving to a landscape level 
approach in much of the work that we do at the BLM. So we look 
forward to working with you on your forestry effort in Oregon.
    The Chairman. Thank you. I think it's very clear that NEPA 
is right at the heart of the debate. What we're going to have 
to do is find a way to make sure that all of the stakeholders, 
all of them, up front in Oregon, get a chance to participate in 
that discussion. That's what we do for both the moist forests 
and the dry forests.
    But then we have a certain predictability and certainty for 
the days ahead. We want to work closely with you on it. Of 
course, you've already indicated to me that you want to come up 
with a long-term solution for county funding as well. I will 
just note that for the record.
    I'm going to have some additional questions for you on the 
second round, particularly with respect to helium and methane 
leakage. But my time is expired.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I'm going to ask a couple questions about critical minerals 
and hard rock mining directed to both you, Ms. Schneider and 
Mr. Kornze.
    On the critical minerals the Chairman and I, along with 16 
of our colleagues, have recently reintroduced my Critical 
Minerals Policy Act directing the Secretary of the Interior to 
establish a list of minerals that are critical to the American 
economy. Very, very--30 thousand foot.
    If you can both inform me whether or not you think there is 
value to updating our mineral policies. If so, if you will 
agree to assist us with this, what I think is a very important 
measure, to move this legislation forward in the next year.
    Mr. Kornze, you want to start?
    Mr. Kornze. Yes, thank you.
    I've not looked at the details of that legislation. But I 
do think that identifying our critical minerals in this Nation 
is important. Certainly many other nations have been aggressive 
about securing mineral stocks for themselves. I think that's 
something that we need to pay close attention to.
    I look forward to working with you on that in addition to 
bringing in cooperators like USGS and other agencies.
    Senator Murkowski. I thank you for that. I think all we 
need to do is look to yesterday's news when China imposes a 
quota on critical minerals recognizing that everything that Dr. 
Williams and Dr. Kastner are going to need to do their job is 
dependent on a supply of critical minerals.
    Ms. Schneider.
    Ms. Schneider. Senator, thank you.
    I agree completely. I've done a lot of mineral development 
work in my career. I think it's important for the United States 
to be producing critical minerals that are important for 
defense purposes and other purposes as part of our overall 
national security.
    Senator Murkowski. Thank you.
    One of the issues that I think both of you are going to 
confront as they relate to accessing hard rock minerals is the 
EPA's decision to involve itself in the financial assurance 
requirement for hard rock mining operations. I think this is 
over reach by the EPA. You have the BLM. You've got the Forest 
Service and really every relevant State that already have 
programs in place.
    Based on the correspondence that I have had with DOI and 
the Forest Service these programs all seem to be working at the 
Federal level. So I'm just--I'm not certain why EPA needs to 
inject itself, add additional requirements there.
    So the question, and again, this is to both of you, is 
whether or not you think that there are any deficiencies that 
we have within existing programs that would require EPA's 
involvement? Just basically, flat out, do you think that EPA 
needs to be involved in this process?
    Certainly you, Mr. Kornze, will you defend BLM's statutory 
role, particularly in the interagency process?
    Mr. Kornze. Thank you, Senator Murkowski.
    The BLM has, I believe, an impressive record in modern hard 
rock mining since our 3809 regs have been put in place. We had 
a very successful run in making sure that operations are in 
environmental compliance and our net benefit to the communities 
that they serve and to our general Nation.
    So related to EPA we've had many discussions with them in 
recent years about projects all up and down the Western United 
States. We have had--we've shared thoughts at times about the 
appropriateness of various roles. We're continuing to work on 
that relationship with EPA.
    Senator Murkowski. I'd ask you to look very, very 
critically at it. It sounds like you've had some conversations. 
But I think it needs to be visited very seriously.
    Ms. Schneider.
    Ms. Schneider. Senator, thank you.
    I can also add that EPA has, based on my experience, also 
injected itself into the leasable minerals area as well on the 
bonding issue. I think it's a dialog that we need to have with 
EPA, if confirmed. Based on my review of BLM regulations I 
think the regulations are strong and adequate to support 
necessary reclamation for mineral development.
    Senator Murkowski. Thank you.
    Dr. Williams, just very briefly, I appreciated your 
background and clearly your level of interest, what you will be 
able to provide at ARPA-E. I'm reminded of a gentleman that the 
Chairman met with on his visit to Alaska last year, a guy who 
doesn't know the meaning of the word no, particularly when it 
comes to advancing new ideas in energy. He says we don't need 
more engineers, we need imagineers. I view this as the role of 
ARPA-E in so many different ways.
    I note that you have recently co-authored a publication 
titled, Water in Energy Industry. It's something that I have a 
particular interest in, this energy/water nexus. I would hope 
that in this area you could bring a fresh perspective. You 
could be that imagineer.
    As we think of those issues that hold us back in our energy 
development or that cause complications as we process our 
energy. So much of it is tied to water. So at ARPA-E you have 
the opportunity to truly be that imagineer that can change the 
direction that we can take and particularly as it relates to 
the water/energy nexus.
    Ms. Williams. Thank you very much, Senator. I'm very 
excited about the opportunities at ARPA-E of taking the 
imaginative early stage ideas and moving them forward to a 
point where they can be commercialized.
    I also agree with you that the issue of water along with 
energy is a very cogent and important one. It's well matched to 
ARPA-E's mission of energy efficiency.
    So if confirmed these would be areas that I'd be very 
excited in working on.
    Senator Murkowski. Good. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. A number of colleagues have been very 
patient. Next in order of appearance is Senator Manchin to be 
followed by Senator Scott.
    Well it will not be the first time we've made that mistake. 
So let us recognize Senator----
    [Laughter.]
    The Chairman. Let us recognize--oh I mistook my numbers. I 
thought it was a 7 rather than a one. I apologize to my 
colleagues. It is Senator Heinrich followed by Senator Scott.
    Senator Heinrich. For the record I just wanted to say I'm 
all for imagineers, but as the only engineer in the Senate, we 
could use a few more engineers.
    [Laughter.]
    The Chairman. OK.
    Senator Heinrich.
    Senator Heinrich. Mr. Kornze, welcome, first of all.
    As somebody who is a do it yourself public lands hunter and 
I know you embrace that activity as well, I'm really interested 
right now on in the issue of making sure that our public lands 
remain accessible to the public. That doesn't mean you get to 
drive off road or across country, but a lot of us, a lot of 
hunters and anglers, have seen some of the best recreational 
spots closed off by locked gates and privatized roads in the 
last 25 years.
    You know, one example that still sticks in my mind is that 
back in 2009 Congress created the Sabinoso wilderness, one of 
the few BLM wilderness areas in the State of New Mexico. But 
they're still literally no legal way for the public to get 
there.
    In the Southern part of the State Cedar Mountain's Cowboy 
Spring Wilderness Study Area, parts of the Sierra de la Sulvus 
would be incredible places to visit if there were any way to 
get there without breaking the law.
    If you're confirmed as Director of the BLM would you commit 
to working with the committee to ensure that our public lands 
are accessible to the public?
    Mr. Kornze. Senator, I appreciate the question.
    I saw a report just in the last few weeks that suggested 
that as many as 6 million acres of BLM public lands might be 
inaccessible to the public. So this is an issue that is 
important to us. If confirmed you absolutely have my commitment 
to work with you and other Members of Congress to see what we 
can do to make sure we are securing appropriate access to 
places that are important to Americans.
    Senator Heinrich. Great.
    I do want to say we've seen some great leadership out of 
the New Mexico BLM office in the last several years. We've seen 
some places opened up that have been off limits for many, many 
years. So I want to commend our State Director, Jessie Juen and 
his staff there for that work because it's an example that I'd 
like to see taken West wide.
    I hear from sportsmen, not only in my home State, but if 
you follow the periodicals from all over the Intermountain west 
who face similar issues.
    As you know our public lands play an incredibly 
indispensible role in energy production including transitioning 
our Nation to a cleaner energy economy. My home State of New 
Mexico certainly has a lot to offer in that regard. We're 12th 
in wind potential in the Nation. We're second in solar 
potential. We already produce an enormous number of traditional 
energy sources as well including the natural gas that we were 
talking about earlier in the hearing.
    But I think we need to make sure that we're smart about 
developing these energy sources, conserving our natural and 
cultural, our historical resources while encouraging energy 
development in the many places where it's appropriate. We need 
to ensure that a portion of the revenues, in my view, that the 
Federal Government receives from these new sources like wind 
and solar are used for conservation efforts that help to 
compensate for the impact of those projects.
    I'm a co-sponsor of Senator Tester's bill, Public Lands 
Renewable Energy Development Act, as are a number of the folks 
on this committee. I just wanted to ask as Director would you 
commit to working with the committee and with the Congress to 
develop a renewable energy development framework that balances 
that development of these important resources with the 
conservation efforts that are needed in the West?
    Mr. Kornze. Senator Heinrich, I appreciate that question 
and balance, when it comes to energy development, is at the 
core of what we do and that our mission. So we very much 
appreciate the challenge.
    As and I think solar development is a great example of 
where we've been moving to areas where development has not been 
the status quo. So there have been very important, critical 
questions about where the conservation piece of those actions 
is. I think we can certainly do more on that front. I look 
forward to working with you on a framework and moving those 
efforts forward.
    Senator Heinrich. Great.
    I think last I'll just say, you know, one of the places 
that we could see a substantial amount of solar development 
would be in Southern New Mexico. In addition there are--last 
week Senator Udall and I introduced legislation to designate 
the Oregon Mountains Desert Peaks National Monument in Southern 
New Mexico. Should you have the opportunity to spend some time 
in New Mexico we would love to get you out to see some of those 
resources first hand.
    Mr. Kornze. Thank you. I welcome the opportunity.
    Senator Heinrich. Thanks.
    The Chairman. I thank my colleague.
    Senator Scott, you've been very patient.
    Senator Scott. Thank you, Mr. Chairman.
    My congratulations to the panel on your nominations.
    Ms. Schneider, I'd love to chat with you for a few minutes. 
I'll have about 6 or 7 questions for you and only 5 minutes to 
get it through. I can filibuster by myself. So if we can work 
together just to get through this that would be fantastic.
    My focus will be on the Atlantic. From my perspective the 
offshore opportunity with the Atlantic is incredible. In South 
Carolina alone by the year 2035 we could see as many as 35,000 
new jobs, $2.7 billion added to our State's economy and perhaps 
nearly $4 billion added to our State's revenues. That would be 
fantastic.
    One of the things that we have to see happen for us to get 
there is, of course, the PEIS, that allows for us to see if in 
fact the Atlantic will be permitted for seismic activity.
    The Obama Administration has banned, it seems to me, energy 
production in over 85 percent of America's offshore. My first 
question to you is would you continue to support the moratorium 
or open new areas of offshore for energy production?
    Ms. Schneider. Senator, thank you for the question.
    I'm very familiar with the, getting more familiar, with the 
programmatic EIS that you referenced.
    Senator Scott. Yes.
    Ms. Schneider. For geological and geophysical work on the 
Atlantic. I think that's an effort that we need to complete 
expeditiously so that we can move forward with environmentally 
responsible, scientific information gathering to further 
support our decisionmaking for the next 5-year plan.
    Senator Scott. OK.
    How involved do you plan to be with the drafting of the 
next 5-year offshore leasing plan? Were you ever involved in 
drafting a 5-year plan in your previous capacity at Interior?
    Ms. Schneider. I have not been involved in drafting any of 
the prior 5-year plans in my prior capacity.
    I suspect that I will be heavily involved, if confirmed.
    Senator Scott. That's good.
    Ms. Schneider. In the next plan.
    Senator Scott. It seems like by your previous answer that 
you are relatively supportive of working an offshore production 
in the Atlantic after we get the seismic information.
    Ms. Schneider. Yes, I think we need to see what the 
information brings to bear. Then, you know, work with the 
States to identify those areas that may be, make the most 
amount of sense.
    Senator Scott. That was my attempt at a leading question 
that you didn't really follow very well. So I'm not an 
attorney. You are.
    [Laughter.]
    Senator Scott. I'll have to work on that next time.
    In your opinion----
    Ms. Schneider. You have to say, isn't that true?
    Senator Scott. OK.
    [Laughter.]
    Senator Scott. Mr. Chairman, I'm a rookie so I'll keep 
getting better at this, I assure you.
    In your opinion will the National Ocean Policy hinder the 
development of offshore energy and what role do you see it 
playing in the development of the next Department of the 
Interior?
    Ms. Schneider. You know, I need to get more up to speed on 
the new ocean policy. I think that we're going to need to bring 
the ocean policy and the positions that it's proposing along 
with and kind of merge the need for looking at new areas that 
can support both offshore renewable and conventional 
development.
    Senator Scott. If you are confirmed, my office would look 
forward to having an open relationship, an open dialog, with 
your office in helping us a, achieve my goal at least, of 
having the Atlantic, have the seismic information gathered as 
quickly as or as expeditiously as possible and then hopefully 
with that determination, allowing for some type of offshore 
energy production that will benefit the country as well as 
those jobs in South Carolina.
    Ms. Schneider. Senator, if I'm confirmed I look forward to 
working closely with you.
    Senator Scott. Thank you very much, Ma'am.
    The Chairman. Thank you, Senator Scott.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    To Ms. Schneider, as Assistant Secretary of the Land and 
Minerals Management you're going to have oversight of AML, I 
understand.
    In West Virginia last year our little State received 66, I 
think, and a half million dollars. It's a very important 
program for us to clean up the former mining sites and promote 
environmental conservation, community health.
    How do you intend to continue this program or how do you 
intend to fund it?
    Ms. Schneider. Senator, I have not had an opportunity to 
think a great deal about Federal fiscal issues in terms of 
where we are on the funding side of things. It's not something 
I've focused on in my private practice.
    I do agree that full funding for the Abandoned Mine Lands 
program is critically important. Similarly, Senator Murkowski, 
you know, this is the legacy wells.
    Senator Manchin. Yes, this is all paid for basically by the 
mining of the mineral.
    Ms. Schneider. Right.
    Senator Manchin. OK. So from it's not supported by the 
public tax dollars.
    Ms. Schneider. Right. No, I understand that, sir.
    Senator Manchin. The distribution, what I'd like to know, 
if from a lot of our western lands who produce great quantities 
because of the seam height don't really have the problems that 
we out in the east have in Appalachia that really built the 
industrial revolution, if you will and would really, most of 
the money is needed to cure a lot of the problems of the past.
    It's like a war going on back and forth. We're trying to 
find that balance. I just want to make sure you're up to the 
task jumping in this thing and trying to get the money where 
it's needed.
    Ms. Schneider. I'm absolutely looking to, if confirmed, to 
working with you to understand that balance better to make sure 
that meet all of the appropriate needs.
    Senator Manchin. I know you've also done all the work with 
renewables and also about the grid system. You know with the 
basic base load fuels that we have right now which is coal, gas 
and nuclear. They're the only ones that run 24/7.
    There's going to be a need for that and a blend and a 
balance to be had. How do you intend to work to find that 
balance especially with the grid system and bringing on 
renewables, but also making sure that the base load is able to 
deliver electricity that is needed?
    Ms. Schneider. Alright.
    Well I certainly agree that we need to have diversity in 
our fuel mix. I do a lot of work with utilities at present and 
that's a critically important part of what we're working on. As 
intermittent sources come online there needs to be 
modernization of the grid so that there can be facilities that 
are quicker starting and more efficient to help deliver the 
energy more efficiently and more cost effectively for 
consumers.
    Senator Manchin. Do you agree that coal plays a vital part 
in delivering the energy this country is dependent upon?
    Ms. Schneider. I do, sir.
    Senator Manchin. Mr. Kornze, if I may, as an avid 
outdoorsman myself and I understand you are too, you're going 
to be asked to work to maximize access to public lands for 
hunting, fishing and recreational purposes. Are you an advocate 
of rehabilitation is basically is habitat.
    You know, in a lot of places we can't do any habitat 
enhancements, along the national forest and in our fish and 
wildlife. What's your position on that?
    Mr. Kornze. I'm not sure I understand the----
    Senator Manchin. Basically, you know, a lot of the hunting 
and fishing that might be, we can't do habitat enhancement that 
food----
    Mr. Kornze. OK.
    Senator Manchin. Type of trees we plant, type of shelters 
we put in waters for fish habitat. Are you in support of maybe 
enhancing that a little bit and talking to your colleagues 
throughout this process? We have a heck of a time right now.
    Mr. Kornze. Yes. Thank you for the question, Senator.
    You know, actually we had a leadership meeting at the BLM a 
few weeks ago and one of my requests of our full leadership 
team was that we were better integrated with the State Fish and 
Wildlife agencies and that we're keen off of State wildlife 
action plans.
    Senator Manchin. How about access to public lands and that?
    Mr. Kornze. Access?
    Senator Manchin. Do you favor opening up public lands to 
fishing and hunting?
    Mr. Kornze. Absolutely. When it comes to hunting one of the 
things we're very proud of at the Bureau of Land Management is 
that 99 percent of the lands that we manage are open to 
hunting.
    Senator Manchin. I think, Dr. Kastner, I have one here. 
Almost 5 billion dollars the Office of Science's research 
budget greater than fossil energy, renewable energy and nuclear 
energy combined. If confirmed, what is your vision for how 
research performed by your office will work in concert with the 
directed energy research in the other areas of fossil, nukes 
and renewables?
    Mr. Kastner. Thank you for the question, Senator.
    The reorganization that the Secretary has undertaken 
creating an Under Secretary for Science and Energy, I think, is 
a great step toward bringing the Office of Science closer to 
the technology areas. After all, there's basic science 
underlying all of these areas. I think it's really important 
that I work, if confirmed, work carefully and aggressively with 
my colleagues in the technology areas to make sure that we can 
do the best to take the discoveries of basic science and get 
them into technology for the benefit of the American people.
    Senator Manchin. Dr. Williams, my time has expired. So I'm 
going to submit my question to you. But just about coal. I know 
you haven't had much work in that. I know also that you're 
looking at carbon capture, sequestration. So I would like to 
meet with you and talk further about that, Ma'am.
    Mr. Kastner. I look forward to it.
    Senator Manchin. Thank you both.
    Ms. Williams. Thank you.
    The Chairman. Senator Manchin, just before we leave. I'm 
very pleased that you brought up the importance of the hunters 
and anglers on these public lands. One of the things that we're 
very proud of in our part of the world is on the O&C bill for 
the rural counties in Oregon. The hunters and anglers are very 
much in support of the legislation.
    This is part of the recreation economy. What we learned 
when Sally Jewell was here is that's a $646 billion American 
industry. So I really appreciate your bringing that up.
    Thank you, Senator Manchin.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Welcome to all of you.
    Dr. Kastner, it's great to have someone with your 
background in this Office of Science which is, I hope you know, 
I feel is awfully important.
    I have one parochial question. I don't need much of an 
answer. Oak Ridge is tearing down a museum site for atomic 
energy and putting it in another place. I would like to ask you 
if you would be willing to come talk to me about what you 
propose to do with the museum site before you do it.
    I mean, I'm not asking you to do anything with it. I just 
want to know what you're going to do before you do it.
    Mr. Kastner. Thank you for the question. Of course, I'd be 
happy to come and talk to you about it.
    Senator Alexander. Thank you.
    Now let me get to a more global concern.
    Dr. Moniz, who we all respect, says he can't make decisions 
about fusion energy because he used to work on it at MIT. I 
guess, so did you. What I'm concerned about, who is going to 
make the decisions if you don't.
    I'm quite serious. This is not funny. This is a serious 
matter because you've got a $4.8 billion budget, $400 million, 
I mean 10 percent of that goes to fusion. Over the next few 
years it might be 50 percent.
    If you don't make any decisions about fusion then you're 
not making any decisions about priorities within your budget.
    My question is will you make decisions about fusion, at 
least in so far, that it permits you to make good decisions 
about priorities within your budget because to date fusion has 
been pretty far down the line of Department of Energy 
priorities.
    Mr. Kastner. Thank you for the question, Senator.
    I agree with you that fusion is very important. I am 
recused from participating in any discussions about fusion or 
other issues that directly affect MIT. If confirmed I will work 
with the General Counsel in the Department of Energy to 
explore, to understand, what broader fusion issues I might be--
--
    Senator Alexander. I'm not trying to get you to spend more 
money for fusion. I'm saying it's already a low priority within 
your Department. If you and Dr. Moniz, neither one, can make 
any decision about fusion, you're turning over priority setting 
to somebody else. So----
    Mr. Kastner. So let me say a couple of things.
    First of all it's not clear that I will be excluded from 
making--
    Senator Alexander. Good. I don't want you to be excluded. 
I'd like for you to be included.
    Mr. Kastner. To the extent that I am, the Under Secretary 
for Science and Energy would fill that gap.
    Senator Alexander. Who's that?
    Mr. Kastner. That, hopefully, if confirmed it will be Lynn-
Orr.
    Senator Alexander. Don't you think the Director of the 
Office of Science should set priorities for forms of energy 
within the Office of Science, particularly if the Secretary 
can't?
    Mr. Kastner. As I said, at the moment it's not clear that I 
will be excluded from making those kinds of broad decisions.
    Senator Alexander. OK. I hope you're not.
    Let me ask Dr. Williams.
    Dr. Williams, I'd like to encourage you to do missionary 
work, at least on the Republican side of the aisle here, 
because I like ARPA-E a lot and I think not enough of us know 
what you're doing. I'd like for you to address specifically, 
for example, we have coal Senators here for people who care 
about coal on both sides of the aisle.
    I'm not sure enough of them know that one of the ARPA-E 
companies in which you invest is trying to take carbon dioxide 
and coal plants, feed it to microbes and turn the 
CO<INF>2</INF> into a commercially viable product which if you 
could, then that would certainly make coal a much more easily--
easy to use.
    So I'd like to encourage you to do that. Answer this 
question. Do you see your job as picking winners and losers and 
leave me 20 seconds to ask one last question.
    Ms. Williams. Thank you, Senator.
    ARPA-E's mission is to accelerate potentially 
transformative technologies in their most earliest stages of 
development. We know that we have in this country a great----
    Senator Alexander. Yes, I know. But you're not there to 
pick winners and losers are you?
    Ms. Williams. That's correct.
    So our job is to make it possible for those very early 
stage developments to move forward to the next stage of 
development so, without picking winners and losers, allowing 
the winners and losers--
    Senator Alexander. So the answer is no. Is that right?
    Ms. Williams. The answer is no.
    The answer is no.
    Senator Alexander. Thank you.
    Now to the last question I would go to Ms. Schneider and 
Mr. Kornze.
    Senator Heinrich talked about the beautiful views of the 
mountains in New Mexico and the importance of reconciling that 
with energy development.
    Senator Manchin talked about that his abandoned land mines 
and there's a big--a lot of money that needs to be spent on 
abandoned land mines.
    According to the American Bird Conservancy by 2030 there 
will be 100 thousand wind turbines that you can see for 20 
miles. So have either of you thought about one, the effect that 
has on the beautiful mountains of New Mexico, these Cuisinarts 
in the sky which a bird----
    [Laughter.]
    Senator Alexander. Or have you, Ms. Schneider, thought 
about how you're going to pay for taking those down after 20 
years when they don't operate any more so you don't have a 
problem like we do with abandoned land mines. Do you--will 
there be a bond and a bond sufficiently to require the wind 
developer if that's not being used to take it down and take it 
away?
    Ms. Schneider. Senator, thank you for the question.
    I have done wind development work myself. I think with all 
large industrial facilities siting is key and that's the 
critically important component of that. In part of that you 
have to take, not only the resources into consideration, but 
also the environmental impacts including impacts to avian 
resources as well as to the view shed.
    In my experience the BLM rights of ways that are issued for 
those projects do require the developer to remove those 
facilities if the right of way is not removed, excuse me, not 
renewed.
    Mr. Kornze. Senator, I would echo many of those comments. 
It is my understanding that with all projects that we 
permitting today that they do have bonds to make sure that we 
can do proper reclamation. So it's very important to us, in 
addition to making sure that we have an open and public process 
when we discuss siting of those places to make sure they're 
done in the right places.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    In order of appearance Senator Barrasso is next and then 
we'll have Senator Lee.
    Senator Barrasso. I'm happy to defer to Senator Lee.
    The Chairman. So much collegiality.
    [Laughter.]
    The Chairman. What's the pleasure of my colleague?
    Senator Lee. Wyoming has always been such a good neighbor 
to Utah. They've never tried to invade us or anything like 
that.
    [Laughter.]
    Senator Lee. I appreciate the generous thought.
    The Chairman. I've heard of that Good Neighbor Policy.
    Senator Lee. Yes.
    The Chairman. Senator Lee.
    Senator Lee. Thank you very much. Thanks to all of you for 
being here.
    I'd like to start with Mr. Kornze.
    So recently the BLM withdrew a fairly significant amount of 
land from multiple use designation and set it aside to create a 
highly touted solar energy zones. You know this and other 
policies show that BLM is a strong supporter of renewable 
energy. Renewable energy, I think, all would agree is a good 
thing.
    At the same time there are a lot of people concerned that 
oil and gas companies are seeing these changing policies with 
regard to Federal land. Seeing that 1 day they might be able to 
consider exploring or developing oil and gas production 
projects on Federal land and then the next day there's a 
regulatory or a policy change within the Bureau or within the 
Department that makes that impossible.
    Another example of this is that recently in Utah where 
there were 100,000 acres of land that had previously been 
designated as eligible for leasing for oil and gas production 
on Federal land under the RMP. It was taken out of its 
eligibility for leasing 3 days before a scheduled auction. This 
constituted the vast majority of the land that was to be 
auctioned 3 days after the announcement was made.
    Again, this is causing a problem because a lot of the 
companies that engage in these activities that want to develop 
our energy resources here in the United States so as to 
contribute to our energy independence are choosing to shy away 
from Federal public land understanding that these regulatory 
changes create a lot of uncertainty for them.
    This is more than an abstract problem. It's far more than a 
problem for just the energy companies. This is a problem, 
especially for our rural communities in public land States like 
mine where the Federal Government owns two-thirds of the land.
    These communities rely on these kinds of projects in order 
to fund basic things like the development of their 
infrastructure to fund their public school systems, their fire 
and police departments. Because in many of these counties where 
this is the case, the Federal Government owns 80, 85, 90, 
sometimes 95 percent of the land. They can't tax that land. The 
PILT program in most cases provides only pennies on the dollar 
of what they would otherwise receive for property taxes.
    So they're strapped.
    So my question is, do you see this trend as a problem? If 
so, what might you do, if confirmed, to address this problem? 
What might you do to address the problem?
    Mr. Kornze. Senator, I appreciate the question.
    There's a lot in there that we can discuss, but it's 
important the Bureau of Land Management is--provides clarity. 
What our policies are, what direction we're headed into. That's 
one of the reasons why in my opening statement I focused on, 
you know, clear communication and making sure that people 
understand the resources that are available and also our 
intentions.
    So I certainly understand some of the frustrations you've 
expressed. If confirmed, you have my commitment that I focus on 
making sure that we are a consistent partner that people can 
rely on.
    Senator Lee. Transparency is an issue that Secretary Jewell 
explained to us and she embraces, when she was before our 
committee going through her confirmation process. Do you share 
that commitment to transparency?
    Mr. Kornze. Absolutely.
    Senator Lee. Ms. Schneider, do you also share that same 
commitment to transparency that Secretary Jewell has 
articulated?
    Ms. Schneider. Yes, Senator.
    Senator Lee. During your tenure in the Clinton 
Administration were you involved in the process of designating 
any national monuments?
    Ms. Schneider. I was not.
    Senator Lee. OK.
    One of the reasons why I'm focusing on this issue of 
transparency today and why it's concerning to me is that we had 
a very significant monument designation that was made in Utah, 
the Grand Staircase National Monument and the decision to 
designate that as a monument, a very, very large one at that. 
One that took in a vast swath of land with enormous energy 
potential.
    It was not made in view of the public. There is no 
opportunity for public comment. In fact the announcement of it 
was made without any advance warning and was made not in Utah, 
but in a neighboring State.
    So, this kind of lack of transparency is concerting to me 
and particularly with regard to the exercise of the vast 
discretion granted to the President in the Antiquities Act I 
would hope and expect that any future exercises of that 
authority would be made to the greatest extent possible with 
transparency and input from the public, especially from those 
who will be affected most directly by it.
    Thank you. I see my time's expired.
    Thank you, Mr. Chairman. Thank you again, Senator Barrasso.
    The Chairman. Thank you, Senator Lee.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Congratulations to all of you.
    Thank you, Mr. Kornze for taking the time to visit with me 
in my office. You know, as we discussed yesterday I do remain 
concerned that you lack the experience required for the 
position of BLM Director specifically because the Federal Land 
Policy and Management Act states that the BLM Director shall 
have a ``broad background and substantial experience in public 
land and natural resource management.''
    The President's last nominee, Bob Abbey, had over 30 years 
of experience in land and natural resource management prior to 
his nomination. His predecessor, Jim Caswell, also had over 30 
years of experience in land and natural resource management 
prior to his nomination.
    In contrast, as we've discussed, you spent less than 3 
years at BLM and no time at any other land management agency. 
With all due respect to the Majority Leader, who was here to 
introduce you, I think this is not the resume of the perfect 
nominee. To me it doesn't suggest that you will be the ``best 
Director we've ever had'' is how Senator Reid stated it.
    So now that the Majority Leader has, who happens to have 
been your former employer, has eliminated the rights of the 
minority in the confirmation process, I think it's more 
important than ever that this committee carefully weigh the 
qualifications of all nominees. It's imperative that this 
committee makes it clear that the lower threshold for 
confirmation does not mean a lower standard for nominees and 
that the President cannot ignore the requirements of the 
Federal law.
    There is a reason that the law requires the BLM Director to 
have ``a broad background and substantial experience in public 
land and natural resource management.'' BLM manages about 245 
million surface acres and 700 million mineral acres. The agency 
has about 10,000 employees. It's not a position for on the job 
training.
    It's a position that has an extraordinary impact on the 
lives and livelihoods of millions of Americans.
    So I believe the burden remains on you, Mr. Kornze, to show 
us why you should be confirmed.
    So I'd like to turn to the BLM's pending hydraulic 
fracturing rule. Secretary Jewell has said that we need minimum 
Federal standards for hydraulic fracturing. That may be the 
case with respect to States that do not regulate hydraulic 
fracturing. But there is no reason why BLM's rule should apply 
to States that currently regulate hydraulic fracturing.
    In June, Secretary Jewell was unable to tell this committee 
that the States currently regulating hydraulic fracturing 
aren't doing a sufficient job. Rather the Secretary applauded 
the States that currently regulate hydraulic fracturing.
    The Secretary testified that Wyoming is a good example of a 
State that is doing an effective job regulating hydraulic 
fracturing. She testified in the House that Wyoming has 
``great,'' sophisticated fracturing rules. The Secretary made 
these comments before Wyoming adopted additional rules 
requiring baseline ground water testing. Nevertheless BLM still 
seems to believe that States like Wyoming just can't be 
trusted.
    So my question to you is, is there any evidence suggesting 
that States like Wyoming will weaken or roll back their 
hydraulic fracturing regulations? If so, you know, which States 
do you have in mind?
    Mr. Kornze. Senator, thank you for the question. Thank you 
for the time to meet yesterday. I enjoyed our conversation.
    Related to the hydraulic fracturing rule there are some 
States that have certainly stepped out and appear to be doing a 
very good job. Wyoming is one of those States. Colorado, 
California, Texas, have all taken the task seriously. We 
appreciate that very much.
    I think the task that we face at the Bureau of Land 
Management is that we have somewhere around 33 States where 
there are oil and gas revenues being produced on public lands. 
But there are just over half of those States have stepped 
forward to establish some sort of base line regulation when it 
comes to hydraulic fracturing. So our goal is to establish 
something that can be coordinated with States to the greatest 
degree possible.
    In August I was very happy to visit in Denver with the oil 
and gas regulators from many States, including Wyoming, to talk 
about how State regulations and Federal regulations can fit 
better together. Also looking forward how our Inspection 
Enforcement Teams can be better coordinated so we can maximize 
our activities on the ground and make sure they're doing the 
best job in the oil and gas realm.
    Senator Barrasso. Thank you.
    I have one other question, Mr. Chairman, if that's alright?
    The Chairman. Of course. Of course.
    Senator Barrasso. Great.
    This is to Ms. Schneider.
    In June you published a commentary on BLM's pending 
hydraulic fracturing rule. In that commentary you wrote that 
BLM's revised rule, ``would add another layer of regulation to 
oil and gas operators on Federal and tribal lands and if 
adopted could impose significant new regulatory requirements 
and associated costs.''
    If confirmed, you would oversee BLM. So what steps, if any, 
would you take to reduce the regulatory burden and the cost 
associated with BLM's hydraulic fracturing rule?
    Ms. Schneider. Senator, thank you for the question.
    I think we need to try to find ways to maximize our 
efficiencies where we can including to work together with the 
States in order to accomplish that goal. You know, I know that 
the BLM has just closed the public comment period a number of 
months ago on the rule. They're taking those comments into 
consideration.
    If confirmed, I would certainly become more involved in the 
process to learn and understand what the comments say so that 
we can develop a final rule that makes sense.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank my colleague.
    I think my colleague from Wyoming knows how much I enjoy 
working with him. I think what we were able to do in a 
bipartisan way--I think we were visiting about it this 
morning--on the grazing issue, where you and Senator Heinrich 
with Senator Murkowski and I worked together, was really an 
example of how policy ought to be made.
    I think Neil Kornze is going to bring that to us in this 
whole effort. I would just put into the record a letter from 
John Laird, Secretary of Natural Resources for the State of 
California.
    He states and I quote here. ``Mr. Kornze's collaborative 
style approach to Western States and experience within the 
Department of the Interior will serve him well as he addresses 
the many resource management issues the Bureau of Land 
Management,'' you know, ``oversees.''
    I mean so the record is clear. This is an individual with 
extensive experience with public land issues in addition to 
having run BLM for the better part of the year, he's got more 
than a decade of experience both at the Department of the 
Interior and in the Congress working on these issues. So this 
is an individual who is steeped in public lands questions.
    I just wanted to make Mr. Laird's letter a part of the 
record and let my colleague from Wyoming know that we are going 
to continue to work very closely with him on these issues 
because the need for collaboration is so critical.
    Senator Hoeven, we're glad you're here.
    Senator Hoeven. Thank you, Mr. Chairman.
    I want to begin with first of all, thanks to all of you for 
being here. I want to begin with a question for Ms. Schneider.
    Really picking up where you left off following the Senator 
from Wyoming's question. That is hydraulic fracturing.
    States like North Dakota, Wyoming, Texas and others have 
very sophisticated protocols for overseeing hydraulic 
fracturing. So as you work on your rule you need to work with 
the States. I really believe in that States' first approach. 
It's been used in other types of energy regulation.
    I want to hear your views on really working with the States 
to empower the States on hydraulic fracturing.
    Ms. Schneider. Senator, thank you for the question.
    I want to also thank you for the time that we spend last 
week when we met together.
    Senator Hoeven. Thank you.
    Ms. Schneider. As I mentioned, I think it's critically 
important to work with the States. I mean, the States are 
obviously on the ground there and they know what's going on. So 
we want to make sure that we take all of the information that 
they've developed and integrate that as best we can into the 
Federal decisionmaking process.
    Senator Hoeven. Are you willing to work in a way with the 
States that really gives them that States' first approach in 
terms of the regulatory authority?
    Ms. Schneider. I think what we want to do is, if I'm 
confirmed, I want to, you know, sit down and meet with the 
folks at the BLM to get an understanding of what their 
perspectives are, get an understanding of what the States' 
perspectives are and then move forward in that direction.
    Senator Hoeven. Mr. Kornze, I want to thank you for coming 
out to North Dakota. We appreciate it very much with Secretary 
Jewell. Of course, appreciate Secretary Jewell being there as 
well as we've had our Chairman and Ranking Member from this 
Energy Committee both have been out too. For all of you, that's 
the way to do your homework. And thank you so much.
    So the first question that I'd have for you, Mr. Kornze, is 
we have 525 applications pending on BLM land in North Dakota. 
I've talked to you about this before. We need to find ways to 
address that backlog.
    You have a tremendous regional manager out of Billings, 
Jamie Conley, who we love working with, who is trying to find 
creative solutions.
    Will you commit to continue to work with her and us to find 
creative solutions to address that backlog?
    Mr. Kornze. Absolutely, Senator. I appreciate the question.
    North Dakota presents a unique challenge in terms of the 
resource in the Bakken and the growth of the access into the 
Bakken over the last few years. So we have moved strike teams 
into our Dickinson office when possible. I certainly commit to 
you to keep working on that, if confirmed to make that a 
priority and get the resources to the right places.
    Senator Hoeven. We have legislation pending right now which 
I think will pass very soon. It's the BLM Flexibility Act. It 
would allow offices to work across State lines.
    So for example, your Mile City, Montana office could work 
in North Dakota. This will also help Wyoming. I see that the 
good Senator from Wyoming has left, but will you help us with 
that legislation and then also work to implement it once 
passed?
    Mr. Kornze. Senator, that kind of flexibility would be a 
great gift to the agency. We have moving pieces, you know, a 
few years ago Mile City was in high demand, now it's Dickinson. 
A few years ago it was Buffalo, Wyoming, now it's Casper.
    So increased flexibility would be something we would 
welcome with open arms.
    If confirmed, I look forward to working with you to make 
sure that's implemented appropriately.
    Senator Hoeven. OK. Again, I want to thank all of you for 
being here, but I particularly again, want to thank Mr. Kornze 
for coming out to our State, seeing what's going on, spending 
time, meeting the people. I appreciate that very much.
    Thanks to both you and Ms. Schneider for coming by to see 
me and talk about these issues, so my thanks and appreciation 
for that.
    Thanks to all of you.
    The Chairman. Thank you, Senator Hoeven.
    We're going to have another round. I have some additional 
questions. I think Senator Murkowski does.
    Let me start with you, if I might, Mr. Kornze.
    We covered a lot of ground on the first round. You're going 
to be working with us on the question of fair return on public 
lands, especially with the GAO reports that are coming out.
    You'll work with me on an issue of enormous importance to 
my constituents which is really looking at NEPA in the context 
of these rural Oregon counties where we can build on some of 
your experience. I think, very welcome, again, with large 
landscape scale work in the forests.
    I want to address the two goals of NEPA. We've got to look 
at the environmental impacts of proposed action. We've got to 
inform the public and find a way to not have unnecessary delay.
    You've indicated that you would work with us on that.
    You'll work with us on a long-term solution for county 
funding because as you know, ever since 2000 when that law was 
written here in this committee, that has been a challenge.
    So we have essentially addressed those 3 issues to recap.
    I want to talk to you now about helium and then I want to 
talk to you about methane leakage on this round.
    The Congress, as you know, recently passed legislation 
allowing BLM to continue to operate the Federal Helium Reserve. 
But in doing so the Congress made a number of very important 
changes in the way BLM is supposed to operate including the use 
of open auctions.
    The helium program is certainly not the largest that is 
operated at the BLM. But certainly, as Senator Murkowski and I 
and a lot of Senators learned, helium is enormously important 
to the American economy. For example, it was well-documented 
what the implications were for MRIs, but for example, INTEL, a 
huge private sector employer in my home State, cares 
tremendously about this issue, as do many other technology 
companies.
    If you're confirmed, will you make sure that implementation 
of the helium legislation is a top BLM priority, including 
upgrades to equipment to keep the reserve operating or 
completed as quickly as possible and that you will work with 
the committee to meet the requirements of the legislation?
    Mr. Kornze. Senator, I appreciate the question. I also 
appreciate the work of this committee, in particular, the 
Chairman and the Ranking Member, in making the Helium 
Stewardship Act possible. Not only is the continuation of the 
program important, but also what you were able to do with the 
funds, notably, legacy wells is much appreciated.
    You have my, if confirmed, you have my absolute commitment 
to make sure that we are at the table and working swiftly to 
implement that law. I got an update as recently as yesterday 
and we're making good progress in implementing different pieces 
of the act and look forward to continuing to be at the table 
throughout and to make sure that that's done well and done 
successfully.
    The Chairman. Let's do this, because I think that's very 
constructive. Can we just say that you will give us regular 
updates on the implementation of the helium legislation?
    I'm going to work with the staff because we call audibles 
here from time to time and want to have some time to consult 
with you. But let's set up a regular update system where 
Senator Murkowski and I would get, on an ongoing basis, 
information about the implementation of that program.
    It is so important, and suffice it to say, I think 
something like 3 presidents and 5 Congresses have tried to get 
this right. I think we finally struck a balance with the 
auctions, trying to address the needs of American industry and 
we were able to generate more revenue than we thought which has 
been of great help to a number of the public purposes that this 
committee has to address.
    So I think we're off to a strong start. But it would be 
very helpful to have regular updates. Is that something that is 
acceptable to you?
    Mr. Kornze. Senator, we would be happy to provide regular 
updates to you.
    The Chairman. Very good.
    Let's talk now about methane leakage.
    As you and I talked about my view is this is one of the 
premier environmental challenges of our time. It is many times 
more potent even than carbon dioxide. So this is a matter of 
enormous environmental and public health concern.
    Recently the Department of the Interior released their 
statement on regulatory priorities for 2014. In the release the 
Department prioritized the reduction of wasted oil and gas from 
production on Federal onshore lands. That would mean reductions 
in flaring of associated gas and reductions in fugitive and 
vented methane emissions.
    It would also mean greater royalty payments for oil and gas 
produced on Federal lands and an increase in sources of 
American energy.
    The Department has announced an August 2014 deadline for 
this proposal which is a slight delay from the previous 
commitment of May.
    Discuss if you would the issue of wasted oil and gas 
resources on Federal land and your commitment to making sure 
that there is a strong and effective rule, a strong and 
effective final rule, to prevent wasted oil and gas resources.
    Mr. Kornze. Senator, I appreciate the question. This is a 
very important issue.
    We intend to develop a rule around methane capture. It 
would be onshore order No. 9. The onshore orders are how we 
regulate oil and gas.
    Right now we have a notice to leasees in place which is 20 
to 30 years old. So there's a lot of updating to do.
    One of the key steps we're going to be taking is looking at 
the recent study that came out from the Environmental Defense 
Fund and the University of Texas which pointed out some 
weaknesses in the general system.
    Also we'll be talking closely with the State of Colorado 
which has stepped out in recent weeks with a State-level 
regulation for methane capture.
    Also working closely with States like North Dakota where 
there is quite a bit of venting and flaring comparatively. I 
know one of the main challenges in that State is midstream, 
making sure those pipelines to get that gas out of there.
    So there's many challenges associated with this. It's a 
high priority for us. We look forward to working with you and 
this committee with that challenge.
    The Chairman. Thank you for that.
    I share your view. This is an issue with great 
implications.
    For example, the House passed a pipeline bill here 
recently. One of the issues that I've been exploring and will 
be anxious to talk to colleagues about is saying for the future 
we're going to need more pipelines because we've got to get the 
gas to market. But they ought to be better pipelines and in 
particular, if we can reduce methane leakage by having smarter 
pipelines for the future, this is an opportunity to do 
something that could be very good for the American economy and 
also very good for the planet.
    So I'm going to want to explore that with you. I, of 
course, want to talk to colleagues here in the committee about 
it first. But your involvement on the methane leakage issue is 
very important.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Kornze, I appreciate you bringing up the issue of the 
Alaska land conveyances and where we are, the fact that our 
technologies will allow us to move more quickly when it comes 
to the completion of these surveys. I don't think most people 
can appreciate, nor would they tolerate that a promise made at 
statehood, now some 54 years after statehood, in terms of 
promises made in terms of conveyances, that those conveyances 
have not yet been complete because much of the preliminary 
survey work has not been done. It's just incomprehensible to a 
lot of people.
    But it comes down to priorities within a budget. 
Unfortunately we have not seen the priority placed on this. 
It's not just this Administration. It goes back quite a ways.
    So I appreciate your commitment to help us with seeing that 
this promise made to the State at statehood and to Alaska 
natives with the Alaska Native Land Claims Settlement Act, that 
these promises are kept.
    So I do think that in terms of making sure that we place 
priorities in those areas where we have legislative mandates. 
We're 40 years delinquent on fulfilling, that those priorities 
would come before some priorities whether it's climate change 
monitoring or adaptation. Things that are brand new on the 
ground. In the meantime you've got promises that are pretty 
dated.
    We need to address them. It's not just the land conveyance. 
It's the legacy wells that you have mentioned.
    A couple times now we were successful in getting $50 
million from helium sales which helped. But the reality is is 
the necessary moneys were not included in the budget. It was 
through the efforts of the Chairman and myself as well as 
colleagues in the other body to help advance that.
    We also have further issues as they relate to contaminated 
lands that have been conveyed to Alaska natives. The No. 1 
priority at the Alaska Native Village CEOs is to deal with this 
issue of the cleanup of these contaminated lands. Kind of a raw 
deal when you're told OK, here's your land conveyance, your 
promise. But it's fouled or contaminated land.
    So we have much to do in this area. I appreciate your 
attention to it. You certainly know about the issues. We need 
to make sure that the priorities in terms of addressing them 
and keeping that commitment and promise are made.
    So, appreciate the opportunity we had to discuss it. We 
will be looking forward to more conversation and more action on 
that.
    Ms. Schneider, I just, as I was sitting here in midway 
through this hearing, received a letter from my Governor, who 
is writing on behalf of the Outer Continental Shelf Governor's 
Coalition. He is the Chair of that.
    He has stated in this letter that he hopes that the OCS 
Governor's Coalition can cultivate a substantive ongoing dialog 
with you, if you are confirmed, on the opportunities and 
challenges facing offshore energy development and the roles the 
coastal States play.
    He goes on to outline a number of concerns, a number of 
questions, much of which relate to the concern that there is 
not much dialog, perhaps no dialog between the States and the 
agencies as it relates to the planning for much of what goes on 
in the offshore and asks specifically to discuss the legal and 
otherwise appropriate role for the input of State governments 
and what actions would you take to ensure sufficient and 
ongoing input from the States.
    Other issues that he raises are, again, the timeliness of 
permits for OCS oil and natural gas operators, further issues 
on revenue sharing, following up on the question of Senator 
Scott, leasing plans in the Atlantic and additional leasing 
opportunities going forward.
    Recognizing that we're pretty much out of time here, I 
would submit the Governor's letter for the record and would ask 
that you respond to these questions as you respond to the 
additional questions for the record that I will be submitting 
to you.
    I do think that these are very important questions that 
have been raised.
    I guess I would ask you to speak just briefly here to what 
role you do believe, in terms of input from the States and 
State governments. What role is there? Do you think that you 
have sufficient input right now from the States because 
apparently the States or this coalition does not think that we 
do have that sufficient input that that dialog is strong and 
robust as it needs to be.
    The Chairman. I don't want my friend and colleague to be 
short-changed on this. I plead guilty to having one additional 
question by the way.
    Senator Murkowski. OK.
    The Chairman. But I do not want Senator Murkowski short 
changed-since she's raising an important point and I think that 
direct question was directed at you, Ms. Schneider.
    So please proceed.
    Ms. Schneider. Yes.
    Thank you, Senator.
    I can't speak to the level of dialog ongoing currently 
between the States and the Administration as I'm not part of 
the Administration. But I am committed to improving dialog 
between the States.
    I worked for the State of Oregon for a couple of years. I 
worked for the State of Florida. I understand that States have 
perspectives and they have voices and they need to be heard.
    I think, if confirmed, I will do everything I can to make 
sure that States are heard, that I go out, I meet with the 
States, that I go to the various States to understand what 
their perspectives are because obviously things are different 
in the different jurisdictions and that the States have an 
ample opportunity to voice their opinions on development 
opportunities both onshore and offshore.
    Senator Murkowski. I might suggest that this OCS Governor's 
Coalition might be a great place for you to start.
    Ms. Schneider. I agree.
    Senator Murkowski. That dialog.
    So I'm sure that they will look forward to hearing from you 
on many of these important issues.
    Mr. Chairman, I do have additional questions that I will 
submit for the record.
    Probably one that I would like you to, both Ms. Schneider 
and Mr. Kornze to focus on a little more intently is the 
question that relates to ANILCA and the, basically, the history 
and the premise behind the ANILCA provisions and the no more 
clause.
    We are daily concerning in Alaska that this Administration 
will move forward in announcing new wilderness in our State, 
new wilderness most particularly up in the coastal plain and in 
direct violation and contravention of the ANILCA Act.
    So I would ask that you look critically at that, that you 
look to the history of ANILCA as you understand how, not only 
the issue of wilderness plays out, but so many other aspects of 
management of our lands in the State tie into the provisions of 
ANILCA and most specifically the no more clause contained 
within that act.
    So with that, Mr. Chairman, I thank you for an extra few 
minutes there.
    The Chairman. Thank you.
    Ms. Schneider, I very much share Senator Murkowski's point 
about listening to the States. Since you were in the State, you 
probably know that I've had something like 660 town hall 
meetings. Folks always say ``When's the next one?'' because I 
think there is, as Senator Murkowski pointed out, such a hunger 
in the West simply because we are so far from Washington, DC, 
for people to have a chance to weigh in on these issues.
    So let me just underscore what my colleague has said about 
the importance of listening to folks and particularly in the 
West.
    Last question that I wanted to ask is about technology 
transfer for you, Dr. Kastner and Dr. Williams.
    We've had all kinds of ideas floated up here on the Hill to 
make the national labs better at tech transfer, to make it 
easier for businesses to partner with them, and to tap into the 
unique capabilities and expertise that we have at the national 
labs.
    I don't want you to feel short-changed for purposes of this 
discussion. You can give us an expanded answer. But why don't 
you each highlight, if you could do a couple of things to 
improve the tech transfer process, what would you do?
    Start with you, Dr. Kastner.
    Mr. Kastner. Thank you for the question, Senator.
    The Chairman. Then we can liberate you four. It's been a 
long morning.
    Mr. Kastner. Thank you, Senator.
    I think tech transfer is really very important. At MIT we 
have a very strong record in this taking scientific discovery 
to the stage of technology and then into creating small 
companies so that these things come to the marketplace.
    I believe that a lot more could be done. But I really need 
still to understand what is being done better before I would 
make specific recommendations. But let me say that this is 
really important to me, if confirmed, I would work really hard 
on it because I think it's extremely important that the 
investments in basic science pay off for the American people in 
ways that improve their lives.
    The Chairman. Dr. Williams.
    Ms. Williams. Thank you very much for that question.
    I believe there is a special area where there's a gap we 
can help to bridge in bringing the creativity of basic science 
through to the next stage of development where the market can 
take over and make choices.
    So, if confirmed, I would be very excited to work with 
ARPA-E on that mission of identifying the very early stage, 
basic science results that have the potential to become 
transformative. Many of those will come from our national 
laboratory system and work to get those over that gap of basic 
to demonstration so that they can later move on into technology 
transfer to commercial sector.
    The Chairman. Thank you all.
    I think at this point you all have been very patient and 
have taken the time to answer a great number of questions. You 
could see the Senators' interest.
    It's my intention to support all of you very strongly. I 
believe Senator Murkowski, perhaps we ought to leave the record 
open until tomorrow night?
    Is that acceptable? Do you wish for a longer period? What's 
your pleasure?
    Senator Murkowski. Mr. Chairman, I am certainly ready with 
all of my questions. I think we had pretty good participation 
here amongst the committee members.
    But I will put out the word to all the other members to get 
their questions in promptly then----
    The Chairman. Very----
    Senator Murkowski. Would ask that the nominees respond in 
kind.
    The Chairman. Very, very good.
    I think we've had a lot of Senate participation. Senators 
may have additional questions. So, as Senator Murkowski has 
urged, we're going to need quick responses.
    With that, the committee is adjourned.
    [Whereupon, at 12:31 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Response of Marc A. Kastner to Question From Senator Wyden
                             fusion energy
    Question 1. As you have experienced firsthand at MIT, sacrifices 
are being made in the funding of our domestic fusion programs to 
satisfy the US contribution to ITER, the international fusion project.

  <bullet> Do you feel that the right balance is currently being struck 
        between domestic programs and ITER?
  <bullet> Are there other options that would not require sacrificing 
        our domestic programs, but also would not expand the budget of 
        the total fusion program?

    Answer. If confirmed, I will be recused from any particular matters 
that would have a direct and predictable effect on MIT, including any 
decisions on the future of the Alcator C-Mod fusion facility. I will 
follow guidance from DOE's Designated Agency Ethics Official on whether 
that recusal should include other matters in the fusion program.
    That said, I certainly agree with you that finding the right 
balance between ITER and the domestic fusion program is very important. 
We have an international commitment to ITER, but we also have to 
maintain an impactful domestic program and domestic facilities. I am 
not yet part of the Department of Energy, so I cannot comment yet on 
what options might exist for fusion funding that don't entail expanding 
the fusion budget overall. If confirmed, I look forward to learning 
more about the Fusion Energy Sciences program and how the domestic and 
international components are balanced.
    Responses of Marc A. Kastner to Questions From Senator Murkowski
    Question 1. Recently, there have been concerns raised about the 
evolving missions of the national labs and the need to ensure that they 
support our national energy and security needs in the most efficient 
and cost-effective way. Do you believe the national labs need reform? 
If so, and if you are confirmed, what would you do to reform the 
national labs system?
    Answer. The national labs are a great strength of DOE and of the 
Office of Science. At the beginning of my career I worked at Argonne 
National Lab, and more recently at Brookhaven National Lab, and I saw 
firsthand the great science that emerges from the research of the 
national lab system. I am aware of the recent reports on the labs. I 
understand that the Department is in the process of constituting the 
National Lab Policy Council and National Lab Operations Board to look 
at lab issues, including those raised in various reports. Both of these 
groups contain representatives from the labs and DOE, working 
collaboratively together to find ways to improve our labs. If 
confirmed, I will work with Secretary Moniz and my counterparts across 
the Department on these important issues. I also look forward to 
working with you on this and other issues involving our national labs.
    Question 2. We now know that the Undersecretary for Science will 
not only oversee science-related offices but also all of the energy 
offices at DOE. If confirmed, how would you anticipate working together 
with a much wider array of offices with a range of different missions?
    Answer. I believe the new responsibilities of the Undersecretary 
for Science will enhance collaboration between the Office of Science 
and other programs by regularly bringing the leaderships of these 
programs together in order to foster collaboration and coordination. 
The Office of Science has a long history of working well with the 
applied and technology offices to make sure the basic science portfolio 
is aligned well with needs of the technology offices. I have learned 
that there are multiple ``tech teams'' and working groups that bring 
people from across the Department together on various topics. If 
confirmed, I look forward to working with the Undersecretary for 
Science and Energy and my colleagues across energy program offices to 
help turn discoveries in basic science into advancements in clean 
energy technologies that reach the marketplace.
    Question 3. I think we would all like to see fusion energy happen 
by the middle of this century or sooner but I've been advised that 
there are plenty of science and materials issues to be resolved before 
we can even think of fusion power. Could you tell me your thoughts on 
what are the priorities in fusion research for this country? Could you 
also address DOE's ever increasing commitment to the International 
Thermonuclear Experimental Reactor, which some say has a negative 
impact on our future domestic research and development capabilities?
    Answer. I want to preface this answer by noting that, if confirmed, 
I will be recused from any particular matters that would have a direct 
and predictable effect on MIT, including any decisions on the future of 
the Alcator C-Mod fusion facility. I will follow guidance from DOE's 
Designated Agency Ethics Official whether that recusal should include 
other issues in the Fusion program.
    That said, I agree that fusion energy holds great promise, but that 
there are still many technical, engineering, and scientific challenges 
before it becomes a viable and affordable source of energy. The Fusion 
Energy Sciences program funds research in order to find solutions to 
overcoming the materials and other challenges you mentioned. I believe 
that ITER and our domestic facilities and programs will all play a role 
in understanding how to control burning plasma leading toward a real 
fusion energy source. I recognize that ITER is a large and complex 
undertaking, both in terms of the size of the budget element and as an 
international scientific collaboration.
    Responses of Marc A. Kastner to Questions From Senator Landrieu
    Question 1. Dr. Kastner, as I understand it, Secretary Moniz has 
had to recuse himself from involvement in the Fusion Energy Sciences 
program because of MIT's involvement in the fusion program and the fact 
that he was from MIT. Do you face a similar need to recuse yourself 
from involvement in fusion?
    Answer. While I do not have the information to comment on Secretary 
Moniz's recusal, if confirmed, I will be recused from any particular 
matters that would have a direct and predictable effect on MIT, 
including any decision on the future of the Alcator C-Mod fusion 
facility. I will follow guidance from DOE's Designated Agency Ethics 
Official on whether that recusal should include other matters in the 
fusion program.
    Question 2. Dr. Kastner, what is your opinion about the U.S. 
maintaining its commitment to the ITER fusion project?
    Answer. ITER is the largest and most complex international 
scientific project in fusion ever attempted. If successful, it would be 
the first realization of a ``burning plasma'' that would generate net 
energy for the first time. I think we must take our international 
commitments seriously, while ensuring a balanced fusion portfolio.
    Question 3. Dr. Kastner, I believe that it's very important for the 
U.S. to maintain a healthy domestic fusion research program. But, it's 
clear that for the past few years, many of our university fusion 
programs, including MIT, have suffered serious cuts and have lost 
students and professors. In addition, our major fusion experiments have 
only historically operated a handful of weeks a year because of 
inadequate budgets. What will you try to do about this if you are 
confirmed? Do you think that the necessary increased funding for the 
ITER project should come at the expense of the domestic fusion budget?
    Answer. I want to preface this answer by noting that, if confirmed, 
I will be recused from any particular matters that would have a direct 
and predictable effect on MIT, including any decisions on the future of 
the Alcator C-Mod fusion facility located at MIT. I will follow 
guidance from DOE's Designated Agency Ethics Official whether that 
recusal should include other issues in the fusion program.
    I agree that it's important we must strike the right balance 
between our domestic fusion program and ITER. It is my understanding 
that the Office of Science supports many students and scientists at 
fusion program and facilities across the country.
    In this time of lean budgets, it is important we take a hard look 
at how to best balance the fusion portfolio. We have an international 
commitment to ITER, but we also must maintain an impactful domestic 
program and domestic facilities. If confirmed, I look forward to 
learning more about the Fusion Energy Sciences program and how the 
domestic and international components are balanced.
                                 ______
                                 
   Responses of Ellen D. Williams to Questions From Senator Murkowski
    Question 1. In a recent interview as the Chief Scientist for BP, 
you stated that BP Solar has pulled out of the solar energy business 
because of its inability to compete with inexpensive ``made in China'' 
solar panels. If confirmed as the head of ARPA-E, how would you address 
development of highly reliable and innovative energy production 
technologies while facing fierce competition from much cheaper 
solutions overseas?
    Answer. I believe it is important that any project receiving 
federal funds is equipped to compete in a global marketplace. While 
ARPA-E seeks to develop transformational energy technologies that do 
not exist today, I understand that the ARPA-E technology-to-market 
program provides awardees with practical training and critical business 
information to equip projects with a clear understanding of market 
needs to guide technical development and awareness of evolving markets 
to help technologies succeed.
    Further, I understand that ARPA-E requires small businesses to 
manufacture substantially in the United States any products used or 
sold in the United States that embody inventions that were first 
conceived of under an ARPA-E award. I also understand that ARPA-E 
requires large businesses to manufacture substantially in the United 
States any products that embody subject inventions, whether they are 
used and sold in the United States or overseas.
    If confirmed, I look forward to learning more about what ARPA-E can 
do to help U.S. businesses remain competitive in a global marketplace 
and advancing those opportunities.
    Question 2. By some estimates, the energy sector currently accounts 
for 14 percent of the nation's freshwater consumption, but it is 
projected to account for 85 percent of the growth in freshwater 
consumption by 2030. I think we would all agree that water is vital in 
sustaining affordable, efficient and clean energy solutions, whether it 
is to cool power plants, produce and extract oil and gas, or grow 
feedstock for various biofuels. ARPA-E has invested some resources in 
examining these applications. What unique opportunities do you see that 
could make a substantial difference in water use and consumption in the 
energy production sector?
    Answer. As you may know, Secretary Moniz noted the importance of 
the energy-water nexus in his confirmation hearing and I agree with his 
assessment of the significance of this topic. One of ARPA-E's missions, 
improving energy efficiency in any economic sector, is closely aligned 
with improving water efficiency in the energy sector. This is because 
the major energy-related consumption of water in the United States is 
due to use of water for cooling to remove waste heat. Improved energy 
efficiency reduces waste heat and will directly reduce the related 
consumption of water.
    Opportunities to improve energy efficiency, with related decreases 
in water consumption, will include more efficient manufacturing 
processes, more efficient carbon capture processes, more efficient 
separations processes and more effective use of low grade heat. If 
confirmed, I would be interested in working within ARPA-E and with 
other federal agencies with direct responsibility for US water issues 
to assess potential opportunities in the energy-water nexus and in 
improved energy efficiency in reducing freshwater consumption.
    Question 3. I think a key to ARPA-E's success is its ability to 
entice industry to pick up future technologies that solve specific 
energy problems. What is your understanding of the process by which 
technologies under research and development at ARPA-E are transferred 
from conceptual idea to market deployment? Please provide some previous 
statistics regarding the success in achieving market deployment.
    Answer. In my view, a key component of the ARPA-E model is the 
technology-to-market program. The ARPA-E technology-to-market program 
provides awardees with practical training and critical business 
information to equip projects with a clear understanding of market 
needs to guide technical development and help projects succeed. 
Awardees are required to provide a technology-to-market plan prior to 
receiving an award and work closely with ARPA-E's technology-to-market 
advisors throughout the project, developing custom strategies to move 
projects toward the marketplace. In addition, ARPA-E facilitates 
relationships with investors, government agencies, small and large 
companies, and other organizations that are necessary to move awardees 
to the next stage of their project development.
    I am told that, as of March 2013, ARPA-E funding has led to the 
formation of 12 new companies and 17 projects have attracted over $450 
million in private sector funding after ARPA-E's initial investment of 
approximately $70 million. Several ARPA-E projects have begun 
demonstration testing with various public and private corporations to 
further develop their technologies. If confirmed, I look forward to 
continuing this important trajectory.
    Question 4. Do you think that ARPA-E is working in a synergetic way 
with other DOE offices, especially the Office of Science where one sees 
some overlap in research activities? I want to ensure that we don't 
have too many duplicative and unnecessary efforts across the Department 
and that we optimize those activities that do overlap. One area of such 
potential duplication is energy storage R&D, with multiple programs, 
for example, at ARPA-E, the Office of Science and its national labs, 
and at Office of Energy Efficiency and Renewable Energy. Please 
comment.
    Answer. It is my understanding that programs throughout the 
Department address multiple stages of research, development and 
deployment across integrated topics. For example, ARPA-E plays a unique 
role in the Department's broader research and development portfolio, 
focusing on transformational energy technologies that are too early for 
other DOE applied R&D programs. The Office of Science focuses on basic 
research with the goal of providing scientific understanding to 
accelerate solutions to energy challenges. Although I am not yet at the 
Department, I understand ARPA-E coordinates closely across the 
Department's applied energy programs and the Office of Science. If 
confirmed, I will continue that work to ensure that ARPA-E's efforts 
are coordinated with all relevant programs across the Department.
    Question 5. Should you be confirmed, how would you prioritize the 
work of ARPA-E in an increasingly budget constrained environment?
    Answer. As the nominee for Director of ARPA-E, I believe funding 
the work of ARPA-E should be a high priority. If confirmed, I would 
continue ARPA-E's rigorous program design process and hands-on-
engagement to ensure thoughtful expenditures that leverage funding and 
deliver value in this environment of limited resources.
    Question 6. Can you please comment on how success is measured at 
ARPA-E? Is it by the number of successful technology deployments, the 
number of projects picked up for further maturation by industry, or 
other parameters? In your opinion, is ARPA-E meeting the success goals 
that it laid for itself?
    Answer. I believe the success of ARPA-E programs and projects will 
ultimately be measured by impact in the marketplace. However, as the 
projects ARPA-E funds seek to generate transformational energy 
technologies that do not exist today, it is my understanding that ARPA-
E looks at various metrics to measure ongoing progress towards eventual 
market adoption. For example, early technical achievements are measured 
by indicators such as patents and publications, and success is also 
gauged success by the formation of new companies and fostering public 
and private partnerships to ensure projects continue to move towards 
the market.
    I am told that, as of March 2013, ARPA-E funding has led to the 
formation of 12 new companies and 17 projects have attracted over $450 
million in private sector funding after ARPA-E's initial investment of 
approximately $70 million. Several ARPA-E projects have begun 
demonstration testing with various public and private corporations to 
further develop their technologies. I view this as success, and if 
confirmed, I look forward to working toward the success of more 
projects and companies.
    Question 7. Does ARPA-E have the ability to partner with similarly 
directed foreign governmental entities to get more ``bang for the 
buck'' when it comes to research and development? Please explain.
    Answer. It is my understanding that ARPA-E does have the ability to 
partner with foreign governmental entities, however, such an agreement 
would be expected to comply with ARPA-E's existing intellectual 
property and domestic manufacturing requirements. While I understand 
that ARPA-E does not currently have any partnerships with foreign 
governments, if confirmed I look forward to exploring this area with 
great interest.
    Responses of Ellen D. Williams to Questions From Senator Manchin
    Question 1. Arpa-e, the organization you've been nominated to lead, 
has projects that look at carbon capture and sequestration (CCS) from 
coal power plants. It also has projects that try to figure out how we 
can use that carbon dioxide (CO2) to make something useful. These areas 
are extremely important to my state, as well as the nation, if we're 
serious about improving how we use fossil fuels. Can I get a commitment 
from you that you'll continue to look for solutions for CCS and CCUS 
(carbon capture, utilization, and storage) if you are confirmed as the 
Director of Arpa-e?
    As a follow up, would you agree that developing these technologies 
is critical given the continued projected use of coal and natural gas, 
both here in the U.S. and overseas?
    Answer. As part of the Administration's ``all-of-the-above'' energy 
approach, I support funding energy technologies needed to create a more 
secure and affordable American future. ARPA-E's role in this mission is 
advancing high-potential, high-impact energy technologies that are too 
early for private sector investment. I am pleased that this has 
included and may continue to include Carbon Capture and Utilization 
technologies, which complement ARPA-E's portfolio of investments in 
this technical area. I agree that investment these technologies are 
critical for use of both coal and natural gas resources in the U.S. and 
globally, and if confirmed I look forward to working with you on these 
important issues.
    Question 2. You understand that solving our energy challenges 
requires more than just understanding the science: it takes working 
with people in the real world to figure out how to develop successful 
solutions. You said as much in an interview a year ago with Energy 
Quarterly, and that's a breath of fresh air to hear from a nominee. Can 
you discuss how you'll establish partnerships with both the private 
sector and national laboratories to make sure we're developing the 
right technologies?
    Answer. I believe that partnerships with private industry, 
academia, national laboratories, and other government agencies are 
critical for both the development of new programs and to help existing 
projects continue to move towards the market. It is my understanding 
that the concept for any new ARPA-E program is developed through 
engagement with diverse science and technology communities from all 
sectors, including some that may not have traditionally been involved 
in the topic area, to bridge basic science to early stage technology 
with improved potential for commercialization.
    In addition, in my view ARPA-E encourages interdisciplinary 
thinking in applications by recommending that projects use a diverse 
combination of skills and partners that can approach challenges in new 
ways. As part of ARPA-E's technology-to-market program, relationships 
are facilitated with investors, government agencies, small and large 
companies, and other organizations that are necessary to move awardees 
to the next stage of their project development. I understand that ARPA-
E also has MOUs with private companies, governmental entities and non-
profit organizations to identify opportunities to test and accelerate 
the commercialization of ARPA-E funded technologies. If confirmed, I 
look forward to working with you in this important area.
                                 ______
                                 
  Responses of Janice M. Schneider to Questions From Senator Murkowski
    Question 1. Are you familiar with the ``No More'' clause contained 
in the Alaska National Interest Lands Conservation Act (ANILCA)? ANILCA 
transferred 124 million acres of lands in Alaska--a size almost equal 
to the entire east coast--into federally protected acreage like parks, 
refuges, monuments and wild and scenic rivers. In enacting ANILCA, 
Congress found that the law ``provides sufficient protection for the 
national interest in the scenic, natural, cultural and environmental 
values on public lands in Alaska.and thus Congress believes that the 
need for future legislation designating new conservation system units, 
new national conservation areas, or new national recreation areas, has 
been obviated thereby.'' Additionally, Section 1326 of ANILCA specifies 
that there can be no ``future executive branch action which withdraws 
more than 5,000 acres in the aggregate of public lands in the State of 
Alaska.''

          a. How do you interpret ANILCA's ``No More'' clause?
          b. Given ANILCA's ``No More'' clause, what authority did the 
        Administration use to reclassify nearly 13 million acres in the 
        National Petroleum Reserve--Alaska (NPRA) as ``Special Areas,'' 
        thereby preventing further energy development?
          c. I understand the Administration is also about to unveil a 
        new land management plan for the 19 million acre Arctic 
        National Wildlife Refuge that may seek additional wilderness 
        designation beyond the 8.5 million acres already designated as 
        wilderness. How does this move square with ANILCA's ``No More'' 
        clause?

    Answer. Because I am not currently part of the Administration, I 
cannot address the reasons for the specific actions referenced in your 
question. However, if confirmed, I commit to ensuring that actions 
taken by the bureaus under the purview of the Assistant Secretary for 
Land and Minerals Management are consistent with all applicable laws.
    Question 2. The federal government's conveyance program of land 
owed to Alaska and Alaska Natives is mandated under the over 42-year-
old Alaska Native Claims Settlement Act (ANCSA). The BLM has repeatedly 
proposed to cut the funding and personnel for the Alaska Conveyance 
Program and perhaps more egregiously, BLM proposes to take the State of 
Alaska's 50-percent share of revenue from oil and natural gas activity 
in the NPR-A to pay for the land conveyance program and the Legacy Well 
Cleanup. I believe the Department should fund conveyance and surveying 
closer to the $29 million that was provided in FY 12--without making 
Alaska foot the bill. The Alaska Land Conveyance Program is very 
important both to the State of Alaska and to the Alaska Native 
Corporations who are eagerly awaiting their long promised lands to 
which they are entitled.

          a. If confirmed, can you commit to me that you will ensure 
        that the Alaska Land Conveyance Program receives the necessary 
        funding to complete the conveyances as expeditiously as 
        possible?

    Answer. I understand the importance of completing the Alaska 
Conveyance work and support efforts to complete this work as 
expeditiously as possible. If confirmed, I will be cognizant of the 
Department's outstanding commitment to complete the Alaska Conveyance 
work in reviewing program activities and in discussions on the budget.

          b. Do you believe that it is proper for the Administration to 
        reduce the funding of a legislatively mandated program, and one 
        which it is 40 years delinquent on fulfilling, while spending 
        funds on non-legislatively mandated programs, like climate 
        change monitoring and adaptation?

    Answer. If confirmed, I will work closely with the BLM Director and 
Departmental leaders to develop balanced funding recommendations for 
the Secretary's consideration. Factored into this balance would be 
statutory and contractual requirements, mission-directed requirements, 
investments needed to perform Departmental missions more effectively, 
and deficit reduction considerations.
    Question 3. The federal government both directly and under contract 
drilled some 136 oil and gas and exploratory wells in the National 
Petroleum Reserve-Alaska in the 1940s and again in the early 1980s. 
Many of those wells have not been properly capped and were instead 
abandoned. The State of Alaska has been seeking for years for Interior 
to do a better job of cleaning up its messes, just as the government 
would fine private developers who had not properly secured exploratory 
wells. Earlier this year the Administration proposed to use Alaska's 
share of mineral leasing revenues to pay to remedy the federal messes--
something I found totally unacceptable and unjust.

          a. While we approved $50 million in the recent helium 
        legislation that may fund 16 more well cleanups over the next 
        five years, do you believe it is the federal government's 
        responsibility to clean up all remaining wells at its own 
        expense--not Alaska's--in the future?
          b. With the $50 million in funding for well remediation and 
        clean-up in the Helium Stewardship Act, can you please provide 
        me an update on the status of the planning for well cleanup in 
        2014?
          c. When will you be able to share with me a written cleanup 
        plan for 2014? Which wells will be remediated?
          d. If confirmed, will you make funding for well remediation 
        in the NPRA a priority?

    Answer. I believe the federal government has a responsibility to 
clean up these wells. Because I am not currently part of the 
Administration, I cannot speak to the current planning efforts 
regarding remediation of NPRA Legacy Wells. If confirmed, I am 
committed to working with the BLM Director and others in the 
Department's leadership to ensure the agency has the resources it needs 
to complete this important work.
    Question 4. The Federal Government participated in armed field 
visits during August 22-27, 2013 near the community of Chicken, Alaska. 
I have conveyed my frustration and the frustration of Alaskans at the 
manner in which these raids were undertaken, which have come to 
symbolize continued Federal Government overreach in Alaska. Will you 
commit to working with me to ensure such an overzealous law enforcement 
approach does not occur again?
    Answer. I have not been briefed on the specifics of this operation. 
If confirmed I will make every effort to ensure the BLM enforcement 
actions are done in a professional manner and in full compliance with 
all applicable laws.
    Question 5. Do you believe energy production on federal lands, 
including oil and gas, should be increased in principle? If so, what 
are steps you will take to ensure this happens?
    Answer. I am committed to the President's all-of-the-above energy 
strategy to expand domestic energy production and reduce dependence on 
foreign sources of energy. If confirmed, I will work with the directors 
of the bureaus under my purview, including the Bureau of Land 
Management, the Office of Surface Mining Reclamation and Enforcement, 
the Bureau of Safety and Environmental Enforcement, and the Bureau of 
Ocean Energy Management, to ensure permitting and review processes are 
efficient and effective.
    Question 6. Do you believe that federal lands offshore should, with 
deference to environmental safeguards, as well as the rights and 
interests of the states, be developed in an ``expeditious and orderly'' 
manner, as stated by the Outer Continental Shelf Lands Act? Please 
explain.
    Answer. Offshore energy resources are important parts of the United 
States' domestic energy production portfolio. As I noted at my 
confirmation hearing, I believe it is important to engage with states 
in this regard. If confirmed, I will support the Department's programs 
to promote the safe, responsible and efficient development of the 
Nation's offshore conventional and renewable energy resources and will 
ensure states have opportunities to provide input on these decisions.
    Question 7. As you know, seismic studies have not been conducted in 
the Atlantic OCS for several decades now. It is my understanding that 
planning for the 2017-2022 period will begin next year, even as the 
environmental impact statement for seismic activity has been delayed. 
Can you commit to including Atlantic areas in the five year plan?
    Answer. As I indicated at my confirmation hearing, if confirmed, I 
will be committed to expeditiously providing the Secretary with the 
information necessary to inform a decision regarding the potential 
inclusion of the Mid and South Atlantic Planning Areas for leasing in 
the 2017-2022 Five Year Program.
    Question 8. Does present-day technology allow Americans to develop 
energy resources on federal lands while protecting the environment? Do 
we have sufficient knowledge about hydraulic fracturing, horizontal 
drilling, and other unconventional technologies to use them for 
production in an environmentally-safe manner?
    Answer. I understand that hydraulic fracturing and horizontal 
drilling methods can be used safely and effectively if best management 
practices are utilized. If confirmed, I will make it a priority for the 
BLM to remain current with emerging technologies and best practices to 
ensure safe and responsible development of oil and gas on federal 
lands.
    Question 9. As you know, there is an effort underway to build a 
pipeline to transport gas from Alaska's North Slope to southern Alaska 
for LNG export. When the line's commercial considerations are reached, 
it is going to require timely approval of a host of environmental and 
land use permits to allow the $45 to $60 billion project to proceed. 
Any delays in federal permitting will add substantially to the 
project's costs. As Assistant Secretary will the Department be willing 
and able to allocate resources to have sufficient staff available to 
consider and process required permits in an expedited manner so that a 
pipeline can be built?
    Answer. I recognize the importance of oil and gas resources to the 
State of Alaska. If confirmed, I plan to work with the Department's 
bureaus and partners to identify where the Department's budget and 
staff resources can most effectively be used to keep pace with demand 
for energy exploration and development.
    Question 10. Your official biography from Latham & Watkins notes 
that you have ``extensive experience'' in a number of areas, including 
hydropower project licensing. Can you tell us about your experience in 
that area? Please describe your views on hydropower more generally.
    Answer. I have worked extensively on issues related to operation of 
the Federal Columbia River Power System located in the Pacific 
Northwest. Additionally, I have worked on many Federal Energy 
Regulatory Commission (FERC) relicensing proceedings under Part I of 
the Federal Power Act, counseling both federal and private industry 
clients, including in proceedings before the FERC and in the federal 
courts of appeal. Hydropower is an important part of this Nation's 
energy mix.
    Question 11. I understand that in your work as a partner at Latham 
& Watkins, one of your main roles was to help companies resolve 
difficulties or delays that arose when seeking project approval from 
various government agencies.

          a. Would you agree that winning approval from the government 
        for an energy project can be a laborious, difficult endeavor 
        for private companies?
          b. Based on your experiences in this area, have you 
        identified any reforms that could make project development 
        easier, or at least less cumbersome than it currently is?

    Answer. I am aware that the Administration has put in place a 
number of important reforms to improve and help expedite the permitting 
process for infrastructure and energy projects generally. These include 
the Presidential Memorandum on Modernizing Federal Infrastructure 
Review and Permitting Regulations, Policies, and Procedures (2013), 
Executive Order 13604 (Improving Performance of Federal Permitting and 
Review of Infrastructure Projects) (2012), and the Presidential 
Memorandum on Speeding Infrastructure Development through More 
Efficient and Effective Permitting and Environmental Review (2011). 
These efforts created a Federal Infrastructure Permitting and Review 
Process Improvement Steering Committee, established the Federal 
Infrastructure Projects Dashboard, improved collaboration through 
information technology tools, and assisted in developing government-
wide best practices.
    If I am confirmed, I will prioritize additional permit process 
improvements to help make project development more efficient and more 
transparent, while ensuring that projects are developed in an 
environmentally responsible way. I agree that improving permit 
efficiencies across the board is very important for this Nation's 
economic and energy security.
    Question 12. Please describe how you see the relationship between 
the State Department's international activities and the agencies that 
would fall under your domain at the Department of the Interior.
    Answer. Because I am not currently part of the Administration, I 
cannot speak to the specific existing relationships between the 
international activities of the Department's bureaus and State 
Department. However, I am aware that there is collaboration with 
relevant agencies, such as the State Department, when, for example, 
development may take place in areas that implicate foreign policy 
interests. If confirmed, I look forward to learning more about the 
interactions between the Department and its bureaus and the State 
Department.
    Question 13. Many of us noted, as you likely did, some trade press 
coverage of your nomination. One of the headlines was, ``Industry sour 
on Obama pick for minerals post.'' The general concerns that were 
expressed seem to hint at a lack of relevant experience. If confirmed, 
you will be in charge of four agencies with a combined budget in excess 
of $1.5 billion. Is there anything you'd like to say to set those of us 
on this Committee--and those who you will be regulating, if confirmed--
at greater ease about your qualifications for the job?
    Answer. I have over 20 years of experience working in natural 
resource, environmental, and American Indian law with the Department of 
the Interior and other federal and state agencies and American Indian 
tribes. For the past 12 years, I represented industry and the regulated 
community interfacing with the federal government, successfully and 
efficiently navigating the federal review process, securing large-scale 
energy and other infrastructure project approvals, and, when necessary, 
successfully defending those approvals in federal district and 
appellate courts.
    I have broad-ranging, on-the-ground experience getting projects 
permitted across the West. Among other issues, I have personally worked 
on coal projects across the country; oil and gas projects, including in 
the Bakken formation; wind, solar and geothermal projects in West 
Virginia, Hawai'i, Washington, California and Nevada, respectively; 
liquified natural gas development in Louisiana; hardrock and leaseable 
mineral development in Oregon, Idaho and Minnesota, respectively; 
refinery issues in Alaska; hydropower projects across the Pacific 
Northwest and in California; and extensive high-voltage transmission 
and pipeline work on public and private lands. I understand the need 
for efficiency and predictability for both project developers and 
financial institutions, the need to work in an environmentally 
responsible manner, respecting state and tribal perspectives, and to 
balance conservation with energy needs.
    I currently serve as the Local Department Chair for the 
Environment, Land and Resources Department at the law firm at which I 
am currently employed, as a Global Co-Chair of the Energy and 
Infrastructure Project Siting and Defense Practice, and on the firm's 
Knowledge Management Committee. I also served four years on the firm's 
Finance Committee. In addition to being topical, these positions have 
provided me with significant management experience.
    Question 14. If you are confirmed as the Assistant Secretary for 
Lands and Minerals Management, you will be fortunate to have Tommy 
Beaudreau, who currently holds the job in an Acting capacity, still 
within the Department. Do you have any plans to coordinate with him on 
the issues you will face, particularly after he is confirmed to his new 
position as Assistant Secretary for Policy, Management, and Budget?
    Answer. If confirmed, I intend to build on Mr. Beaudreau's 
leadership. I plan to work collaboratively and cooperatively with him 
on policy issues, including those in Alaska and the Arctic, if I am 
confirmed as the Assistant Secretary for Lands and Minerals Management.
    Question 15. [on behalf of the OCS Governors Coalition]. One of the 
core missions of the OCS Governors Coalition is to promote a 
constructive dialogue with federal policy makers on decisions affecting 
offshore development. Unfortunately, over the past few years, the 
governors have been concerned with the lack of communication between 
state and federal officials, particularly in regard to the development 
of offshore leasing plans. Of note, President Obama canceled Lease Sale 
220 off Virginia in December 2010 without sufficient consultation with 
the Commonwealth of Virginia. The bipartisan leadership in Virginia has 
clearly indicated multiple times that it supports a leasing program in 
the Atlantic, and Governor McDonnell has addressed the Administration's 
concerns about safety and spill containment infrastructure and 
coordination with military operations in the area.
    Similarly, prior to release of the proposed Final Outer Continental 
Shelf Oil and Natural Gas Leasing Program for 2012-2017, the State of 
Alaska was not consulted on the Department of the Interior's decision 
to postpone lease sales off Alaska one year from the initial timeframe.

          a. Understanding the multiple stakeholder conversations that 
        go into planning a leasing program, can you discuss the legal 
        and otherwise appropriate role for the input of state 
        governments?
          b. What actions would you take to ensure sufficient and 
        ongoing input from the states?

    Answer. As I indicated at my confirmation hearing, I believe that 
consultation and coordination with coastal states, including Alaska, is 
an important part of the OCS Five Year Program process. I understand 
that the statutory responsibility for coordinating and consulting with 
the state governments during development of a Five Year Program is 
described in the Outer Continental Shelf Lands Act. If confirmed, I 
look forward to having an active dialogue with coastal states regarding 
offshore oil and gas leasing and the OCS Five Year Program. I am 
committed to ensuring that the views of coastal states inform, along 
with other relevant factors, the decision-making process with respect 
to offshore oil and gas leasing.
    Question 16. [on behalf of the OCS Governors Coalition]. A second 
priority for the OCS Governors Coalition is the pace of permitting for 
OCS oil and natural gas operators. Following the temporary deepwater-
drilling moratorium in 2010, operators experienced significant delays 
in plan and permitting approval. Even though operators in the Gulf of 
Mexico are starting to return to pre-Macondo operation levels, several 
concerns with the inefficient and inconsistent regulatory regime for 
offshore operators remain. What measures can be taken by the Department 
of the Interior to ensure a more timely and consistent regulatory 
framework for all operators without sacrificing environmental safety?
    Answer. I am committed to the President's all-of-the-above energy 
strategy to expand domestic energy production and reduce dependence on 
foreign sources of energy. I appreciate that the pace of permitting and 
the ability of companies to pursue development of their Outer 
Continental Shelf leases is important to you and your constituents. If 
confirmed, I will look forward to working with the Bureau of Safety and 
Environmental Enforcement and Director Salerno to ensure continued 
engagement with industry and all stakeholders to promote the safe and 
environmentally responsible development of our Nation's energy 
resources on the OCS, as well as to provide clarity and certainty for 
operators seeking to develop those resources. Let me also underscore my 
commitment to efficiency within the permitting process. It is my 
understanding that the processing time for permits has been reduced 
significantly, and I pledge to seek continual improvement in this 
important process.
    Question 17. [on behalf of the OCS Governors Coalition]. In a 
previous meeting of the governors, we each agreed that revenue-sharing 
of royalties generated from offshore leasing and energy production 
should be shared equally with all coastal states that produce energy--
either traditional or renewable--off their respective shores. These 
revenues are critical for funding state coastal restoration and 
conservation efforts as well as other state programs. While Texas, 
Louisiana, Mississippi and Alabama (all OCS Governor member states) 
benefit from revenue-sharing that is capped and can only be used for 
limited purposes, Alaska and states along the Atlantic coast are not 
eligible for revenue sharing. Do you believe there should be 
consistency on revenue sharing for all coastal states?
    Answer. I know this is an issue that is important to you, and it is 
complex. I am aware that the Administration has outlined its position 
on this issue at a July 23, 2013 hearing before the Committee. If I am 
confirmed as Assistant Secretary I commit to working with the 
Committee, states, and other stakeholders to find what common ground 
may exist on this issue.
    Question 18. [on behalf of the OCS Governors Coalition]. Virginia 
Governor McDonnell, North Carolina Governor McCrory, and South Carolina 
Governor Haley--all of whom are members of the Coalition--support the 
opening of the Atlantic for oil and natural gas exploration. The Bureau 
of Ocean Energy Management is working on a Programmatic Environmental 
Impact Statement (PEIS) for geological and geophysical activity in the 
Atlantic in order to allow seismic surveyors to uncover the true 
potential of the resources in that region. The PEIS review has already 
lasted nearly four years and the Coalition has continuing concerns that 
further delays could ultimately forestall Atlantic leasing. At the same 
time, we are pleased that Bureau of Ocean Energy Management (BOEM) 
Director Tommy Beaudreau recently acknowledged that the Interior 
Department can proceed with including Atlantic leasing in the next five 
year plan, even if new seismic data has not yet been collected. Can you 
please discuss your thoughts on including additional leasing 
opportunities in the Department's 2017-2022 leasing plan?
    Answer. I believe that when developing the next Five Year Program, 
the Department should continue to strike an appropriate balance in 
promoting the responsible development of domestic offshore oil and gas 
resources. This includes thorough consideration of whether areas not 
currently available for leasing should be made available in the next 
Five Year Program.
    Question 19. [on behalf of the OCS Governors Coalition]. A recent 
report released by the Woodrow Wilson International Center for Scholars 
recommends that lease terms in the Arctic OCS be lengthened to ensure 
that operators have sufficient time to recoup the large capital 
investment required to extract resources in this region. Currently, 
lease terms are 10 years in the Arctic. Greenland allows for 16 year 
extensions of leases and Canada permits companies to retain leases 
indefinitely if oil or gas is found within the initial nine year lease 
timeframe. The report suggests that a combination of the Greenland and 
Canadian lease frameworks would be appropriate in the American Arctic.
    Could you please discuss your thoughts on the possibility of 
expanding the lease timeframe with respect to the Arctic OCS to ensure 
that operators are able to operate efficiently in a frontier region?
    Answer. I believe that offshore leasing and lease terms should be 
tailored to the conditions and challenges of a particular region, 
including frontier areas such as the Alaskan Arctic. If confirmed, I 
will explore the appropriate leasing and lease terms that should apply 
in these areas.
                                 ______
                                 
Responses of Ellen D. Williams to Questions From Senator Murkowski (for 
                             Senator Hatch)
    Question 20. On April 30, 2009 Senator Bob Bennett asked Secretary 
Salazar the following question:

          ``16. Do you agree that the Department's authority to 
        establish new Wilderness Study Areas under Section 603 of FLPMA 
        expired no later than October 21, 1993?''

    Senator Bennett received the following answer on May 20, 2009:

          ``Answer: Yes. Section 603 of FLPMA required the Secretary to 
        conduct a review of roadless areas of public lands of at least 
        five thousand acres and report his recommendations about the 
        suitability or unsuitability of each area for preservation as 
        wilderness to the President, who in turn was to make 
        recommendations to Congress. Areas deemed suitable for 
        preservation as wilderness through that process are called 
        Wilderness Study Areas (WSAs). Section 603 specified that the 
        Secretary's review and recommendations were to occur within 
        fifteen years of FLPMA's enactment in 1976. The President then 
        had two yeas to advise Congress of his recommendations for 
        areas to be designated as wilderness. This means that all of 
        the requirements of Section 603 were to be completed seventeen 
        years after FLPMA's enactment, or by October 21, 1993, at which 
        time the authority expired. We do not expect our position on 
        this question to change.''

    Is this still your position?
    Answer. I am not currently at the Department and therefore cannot 
speak on behalf of the Department. However, if confirmed, I commit to 
looking into this matter in more detail and would welcome the 
opportunity to discuss it with you.
    Question 21. On April 30, 2009 Senator Bob Bennett asked Secretary 
Salazar the following question:

          ``17. Do you agree that the Department currently has no 
        authority to establish new WSAs (post-603 WSAs) under any 
        provision of federal law, such as the Wilderness Act of Section 
        202 of FLPMA?''

    Senator Bennett received the following answer on May 20, 2009:

          ``Answer: Yes. Section 603 created a unique multi-step 
        process that resulted in the establishment of WSAs and imposed 
        certain management requirements on WSAs. No other provision of 
        federal law creates a similar process or authorizes the 
        creation of WSAs. Section 603 required the Secretary over a 15 
        year period to determine whether certain lands were suitable 
        for preservation as wilderness and to report those findings to 
        the President. The lands so reported are known as WSAs. The 
        President was then required within two years to recommend to 
        Congress which of these lands should be designated as 
        wilderness. Pending action by Congress either designating the 
        WSAs lands as wilderness or releasing them from their WSA 
        status, the Secretary is required by section 603 to manage WSA 
        lands so as not to impair their suitability for designation as 
        wilderness.
          It should be noted, however, that the fact the Department can 
        no longer establish WSAs does not impair the BLM's ability to 
        protect areas with wilderness characteristics through FLPMA's 
        land use planning process under Section 202 of FLPMA. In their 
        2005 Settlement Agreement, both BLM and Utah acknowledged that 
        BLM has the discretion under Section 202 to manage lands to 
        protect their wilderness characteristics, consistent with the 
        multiple-use and sustained yield standard in FLPMA. We do not 
        expect our position on this question to change.''

    Is this still your position?
    Answer. I am not currently at the Department and therefore cannot 
speak on behalf of the Department. However, if confirmed, I commit to 
looking into this matter in more detail and would welcome the 
opportunity to discuss it with you.
    Question 22. On April 30, 2009 Senator Bob Bennett asked Secretary 
Salazar the following question:

          ``18. Do you agree that the Department has not had the 
        authority to create any new WSAs since the expiration of FLPMA 
        Section 603 on October 21, 1993?''

    Senator Bennett received the following answer on May 20, 2009:

          ``Answer: Yes. See answers to Questions 16 and 17.''

    Is this still your position?
    Answer. I am not currently at the Department and therefore cannot 
speak on behalf of the Department. However, if confirmed, I commit to 
looking into this matter in more detail and would welcome the 
opportunity to discuss it with you.
    Question 23. On April 30, 2009 Senator Bob Bennett asked Secretary 
Salazar the following question:

          ``19. Do you agree with federal Judge Dee Benson that the 
        settlement agreement between the state of Utah and the United 
        States is consistent with FLPMA?''

    Senator Bennett received the following answer on May 20, 2009:

          ``Answer: Yes. We believe that the settlement agreement and 
        Judge Benson's opinion in Utah v. Norton are consistent with 
        FLPMA. As Judge Benson concluded, the settlement agreement 
        recognizes that the plain language of FLPMA provides for the 
        establishment and management of WSAs exclusively under Section 
        603, which by its own terms expired no later than October 21, 
        1993. In addition, Judge Benson noted that under the settlement 
        agreement, both BLM and Utah acknowledged that BLM's authority 
        under section 202 of FLPMA remains intact and provides 
        authority to use the land use planning process to protect areas 
        with wilderness characteristics, consistent wih the guiding 
        multiple-use and sustained-yield policy of FLPMA. We do not 
        expect our position on this question to change.''

    Is this still your position?
    Answer. I am not currently at the Department and therefore cannot 
speak on behalf of the Department. However, if confirmed, I commit to 
looking into this matter in more detail and would welcome the 
opportunity to discuss it with you.
    Question 24. On April 30, 2009 Senator Bob Bennett asked Secretary 
Salazar the following question:

          ``20. Does the BLM have authority to apply the non-impairment 
        standard, as enumerated in the Interim Management Plan for 
        wilderness study areas, to lands that are not designated as 
        WSAs under Section 603?''

    Senator Bennett received the following answer on May 20, 2009:

          ``Answer. No. Because the Department's authority to establish 
        WSAs, which are required to be managed under the non-impairment 
        standard, expired no later than October 21, 1993, the BLM does 
        not have authority to apply the no-impairment standard to non-
        WSAs. However, as explained in the other answers, this does not 
        prevent the BLM from managing non-WSAs with wilderness 
        characteristics in a way that protects these characteristics. 
        As Utah acknowledged in the 2005 Settlement Agreement, FLPMA 
        Section 202 provides BLM with the discretion to manage lands to 
        protect their wilderness characteristics.'' We do not expect 
        our position on this question to change.''

    Is this still your position?
    Answer. I am not currently at the Department and therefore cannot 
speak on behalf of the Department. However, if confirmed, I commit to 
looking into this matter in more detail and would welcome the 
opportunity to discuss it with you.
    Question 25. On May 24, 2012, you published a Latham & Watkins 
Client Alert Commentary on BLM's pending hydraulic fracturing rule. In 
the commentary, you discussed the impact that BLM's hydraulic 
fracturing rule would have on Indian tribes. You discussed how BLM's 
rule may put Indian lands at a competitive disadvantage with state and 
private lands. You wrote:

          ``Indeed, where reservations are `checkerboarded,' oil and 
        gas operators would be able. . .to move just a few feet away 
        onto privately held or state lands where none of the new 
        regulations would apply, potentially depriving tribes of 
        critical sources of revenue.''

    BLM's rule will also put Federal public lands at a competitive 
disadvantage, and deprive public land states, like Wyoming, of critical 
sources of revenue.
    If confirmed, you would oversee BLM. What steps would you take to 
ensure that BLM's hydraulic fracturing rule will not put Federal public 
lands and Indian lands at a competitive disadvantage with state and 
private lands?
    Answer. If confirmed, I will work with the BLM to make certain that 
it continues to take appropriate steps to ensure that hydraulic 
fracturing on federal and Indian lands is conducted in a manner that is 
safe, environmentally responsible, and economically viable for 
industry. In addition, I understand that the BLM is taking steps to 
improve the processing of applications for drilling permits through 
automation and other process improvements and I will work with states 
and tribes to eliminate redundancies and maximize flexibility where 
possible, and work to ensure that these steps will help federal and 
Indian lands remain attractive for oil and gas producers.
    Question 26. The BLM has a multiple use mission as set forth in the 
Federal Land Policy and Management Act to manage public land resources 
for a variety of uses, such as energy development, livestock grazing, 
recreation, and timber harvesting.
    If confirmed, what actions would you take to ensure BLM meets this 
statutory multiple use mandate?
    Answer. I strongly support the Federal Land Policy and Management 
Act's multiple use mandate to sustainably manage the public lands 
through a combination of balanced and diverse resource uses for the 
benefit of present and future generations. I support the efforts of the 
Department of the Interior and the BLM to implement FLPMA and, if 
confirmed, I will apply my varied career experiences and work 
collaboratively with a variety of stakeholders and partners to ensure 
multiple-use and sustained yield management on the public lands.
    Question 27. If confirmed, how would you strive to improve the 
relationship between the agency and stakeholders who hold grazing 
permits on public lands?
    Answer. I am committed to bringing people together to find common 
ground and solutions to difficult issues. If confirmed, I will work 
with stakeholders, including ranchers that hold grazing permits, to 
ensure that public lands are managed for multiple uses and sustained 
yield, including livestock grazing, where appropriate.
    Question 28. The Department of the Interior (DOI) is running out of 
options to deal with excessive wild horses on BLM land and feral horses 
in Indian Country. The long-and short-term holding facilities are full, 
fertility control is too extensive and ineffective, and horses are 
overgrazing riparian areas and destroying wildlife habitat.
    What BLM administrative or policy changes do you believe would 
improve the implementation of the 1971 Wild Horse and Burro Act to 
reduce cost and improve compliance with Appropriate Management Levels 
in the west to avoid severe overgrazing?
    Answer. I am aware that the Wild Horse and Burro program at the BLM 
poses unique and difficult challenges. I understand the BLM is 
continuing to develop and implement policy changes, consistent with the 
recommendations in a recently issued National Academy of Sciences 
report and input from the Wild Horses and Burros Advisory Board, and is 
working to find ways to make the program sustainable within the 
existing statutory framework. If confirmed, I would look forward to 
working with you to better understand the issues and complexities 
surrounding the program.
    Question 29. What role do you believe state and local governments 
play in defining the appropriate multiple use and sustained yield 
standard within their jurisdictions?
    Answer. I recognize the importance of engaging with state and local 
governments and value their input in the land use planning and National 
Environmental Policy Act processes, as it promotes more sustainable 
outcomes. FLPMA directs the BLM in developing land use plans to 
coordinate its inventory, planning, and management activities with its 
state and local government partners. If confirmed, I will work with the 
BLM Director to ensure that state, tribal, and local governments 
continue their important role in the Department's efforts to balance 
environmentally responsible development with appropriate conservation 
measures and recreation activities.
    Question 30. In his State of the Union Address, President Obama 
said that his ``administration will keep cutting red tape and speeding 
up new oil and gas permits.'' If confirmed, what would you do to speed 
up oil and gas permitting on Federal public lands?
    Please address whether you would: (1) expedite the leasing process; 
(2) expand the use of categorical exclusions under the National 
Environmental Policy Act (NEPA); (3) eliminate the requirement for 
Master Leasing Plans; and (4) deploy ``strike teams,'' such as those 
used in North Dakota, to reduce permitting backlogs.
    Answer. If confirmed, I will ensure that the BLM continues its 
efforts to expedite its permitting processes. I understand that the BLM 
has made improvements in its review of drilling permits and is 
exploring ways to use technology to further improve the process. I also 
understand that by identifying and addressing possible land-use 
conflicts early in the leasing process, the BLM has seen a steady 
decline in the percentage of BLM lease parcels protested. If confirmed, 
I will support the BLM's work in this area, and will work to further 
improve permit efficiencies.
    Question 31. Over the last few years, DOI has expedited 
environmental impact statements under NEPA for a number of large scale 
renewable energy projects on Federal public lands. If confirmed, what 
steps, if any, would you take to expedite environmental impact 
statements for large scale coal, oil and gas, and uranium projects on 
Federal public lands?
    Answer. I both value and understand the necessity for providing 
certainty when it comes to managing our Nation's public lands. I 
support the BLM's ongoing efforts to ensure that environmental reviews 
are conducted in an efficient manner, while also adhering to important 
process requirements, including opportunities for public participation, 
that result in well-reasoned and sustainable resource management 
decisions. If confirmed, I will work within the parameters set by NEPA 
to address the need for domestic production of the energy resources 
needed to power our economy. In addition to involving cooperating 
agencies during this process, I will fully engage elected officials, 
industry, and all of the many and varied stakeholders of the public 
lands.
      Responses of Ellen D. Williams to Questions From Senator Lee
    Question 32. The President considers you qualified for this 
position due, at least in part, to your extensive previous experience 
at the Department of the Interior, which largely took place during the 
Clinton Administration. During the Clinton Administration, 21 national 
monuments were either created or expanded, including during the time 
you were at the department and serving as counselor to the Deputy 
Secretary. As you know, these designations were of great concern to 
western states and communities, including the manner in which they were 
created.
    During your tenure at the Department of the Interior, did you 
attend or have involvement of any kind in any meetings or participate 
in discussions where the designation or management of any national 
monuments were considered or discussed? Did you review and/or approve 
or surname any documents or other materials of any kind pertaining to 
any designations or management of any national monuments? If so, please 
describe your role further, including any specific national monument 
designations in which you attended meetings or in which you 
participated in discussions.
    Answer. During my tenure at the Department of the Interior, I was 
not involved in the decisions to designate or manage any of the 21 
national monuments designated or expanded during the Clinton 
Administration. Similarly, during my tenure at the Department I did not 
review, approve, or surname any documents or other materials pertaining 
to any of the 21 national monuments designated or expanded during the 
Clinton Administration.
    Question 33. Even if you were not personally involved in the 
designation of national monuments during the Clinton administration, 
you are of course aware of the controversial nature of some of those 
designations. Is it your opinion that the process of designating the 
Grand Staircase-Escalante National Monument was contrary to general 
principles of cooperation, openness, and transparency, principles to 
which Secretary Jewell and yourself have committed to as nominees 
before the Senate Energy and Natural Resources Committee?
    Answer. I was not involved in the designation of the Grand 
Staircase-Escalante National Monument during the Clinton 
Administration. I believe that any decisions regarding the responsible 
use of the Antiquities Act by the President need to be fully informed 
by public engagement and local stakeholder outreach. I support 
President Obama's and Secretary Jewell's ``bottom up'' approach to any 
use of the Antiquities Act by the President and with the perspective 
that these decisions are best made with broad local support. I do not 
view this as an ``either-or'' proposition. If confirmed, I am also 
committed to working with Members of Congress to legislatively protect 
important areas.
      Response of Ellen D. Williams to Question From Senator Risch
    Question 34. The U.S. Geological Survey continues to note that the 
United States is becoming increasingly reliant upon imports for key 
metals and minerals critical to US manufacturing and economic growth. 
The United States, with a 7-10 year timeframe, is now considered one of 
the worst nations in terms of the time it takes to obtain permits to 
mine. Do you believe the Department of the Interior should look at this 
situation and to make changes to make permitting more timely and 
efficient, especially for the Bureau of Land Management which is 
responsible for providing authorizations and permits for developing our 
vast mineral resources on federal lands?
    Answer. As I mentioned at my confirmation hearing, I share the 
Committee's concerns regarding our dependence on foreign sources of 
critical minerals. I understand that mining supports many jobs and 
important products. I have worked on many mining projects, including 
the recent successful permitting of a new phosphate mine in 
southeastern Idaho on BLM lands, a project that was not challenged 
before the Interior Board of Land Appeals or in federal court. If 
confirmed, I will work to ensure that mining permits are processed in 
an efficient and environmentally responsible manner, consistent with 
legal requirements and best management practices.
   Responses of Ellen D. Williams to Questions From Senator Landrieu
    Question 35. What plans do you have to further streamline the 
process of offshore permitting, which while vastly improved compared to 
the period immediately following the moratorium, still lags behind 
where it should be?
    Answer. I am committed to the President's all-of-the-above energy 
strategy to expand domestic energy production and reduce dependence on 
foreign sources of energy. I appreciate that the pace of permitting and 
the ability of companies to pursue development of their Outer 
Continental Shelf leases is important to you and your constituents. If 
confirmed, I will look forward to working with both the Bureau of Ocean 
Energy Management and the Bureau of Safety and Environmental 
Enforcement to ensure continued engagement with industry and all 
stakeholders to promote the safe and environmentally responsible 
development of our Nation's energy resources on the OCS, as well as to 
provide clarity and certainty for operators seeking to develop those 
resources. Let me also underscore my commitment to efficiency within 
the permitting process. It is my understanding that the processing time 
for permits has been reduced significantly, and I pledge to make this a 
priority and seek continual improvement in this important process.
    Question 36. What is your opinion on the possibility of future 
lease sales in the Atlantic? Will you support states who express 
interest in hosting offshore production in holding these lease sales?
    Answer. I believe that when developing the next Five Year Program, 
the Department should continue to strike an appropriate balance in 
promoting the responsible development of domestic offshore oil and gas 
resources. This includes thorough consideration of whether areas not 
currently available for leasing should be made available in the next 
Five Year Program. I am committed to ensuring that the views of coastal 
states, along with other relevant factors, inform the decision-making 
process with respect to offshore oil and gas leasing.
    Question 37. Will you work with me and my staff to move forward 
with the issue of revenue sharing to coastal states, to ensure that 
these states remain able to support offshore oil and gas production?
    Answer. If I am confirmed as Assistant Secretary I will commit to 
working with you, your staff, the Committee, states, and other 
stakeholders to find what common ground may exist on this issue.
                                 ______
                                 
         Response of Neil Kornze to Question From Senator Wyden
    Question 1. In June the National Academy of Sciences released 
findings and recommendations on improving the BLM's Wild Horse and 
Burro Management Program. In response to the report, you replied, 
``[t]he BLM looks forward to reviewing the report in detail and 
building on the report's findings and recommendations. . . .'' Can you 
please explain any steps the Agency has taken in light of the report, 
and outline a schedule for me of any changes the Agency may take going 
forward?
    Answer. The BLM is currently evaluating the Wild Horse and Burro 
program in light of the recent National Academies of Sciences report 
and is adopting many of the recommendations outlined in the study. The 
BLM continues to make reforms to the Wild Horse and Burro program to 
ensure humane care, achieve financial sustainability, and promote 
ecological balance on the range. As part of the BLM's effort to limit 
population growth, the Bureau is working with the scientific and 
veterinary communities to develop longer-lasting population control 
tools. In 2014, the BLM intends to support several pilot efforts to 
develop and evaluate potential tools, including more effective 
immunocontraceptives. All pilot efforts supported by the BLM will be 
peer reviewed by a group of well-qualified scientists. In addition to 
facilitating the development of more effective population growth 
suppression tools, the BLM plans to implement improved population 
survey methods and to review its policy for establishing and adjusting 
Appropriate Management Levels. The BLM is also evaluating several 
options to reduce the numbers of animals in off-range holding 
facilities, including reforming the adoption program, partnering with 
new Federal, State, and non-profit partners to find good homes for 
animals, and exploring options for lower-cost off-range holding 
facilities. Each of these efforts will be grounded in the best 
available science and incorporate the input of interested stakeholders. 
If confirmed, I look forward to working with Congress to deal with the 
unique challenges posed by management of wild horses and burros on 
public rangelands.
      Responses of Neil Kornze to Questions From Senator Murkowski
    Question 2. Are you familiar with the ``No More'' clause contained 
in the Alaska National Interest Lands Conservation Act (ANILCA)? ANILCA 
transferred 124 million acres of lands in Alaska--a size almost equal 
to the entire east coast--into federally protected acreage like parks, 
refuges, monuments and wild and scenic rivers. In enacting ANILCA, 
Congress found that the law ``provides sufficient protection for the 
national interest in the scenic, natural, cultural and environmental 
values on public lands in Alaska. and thus Congress believes that the 
need for future legislation designating new conservation system units, 
new national conservation areas, or new national recreation areas, has 
been obviated thereby.'' Additionally, Section 1326 of ANILCA specifies 
that there can be no ``future executive branch action which withdraws 
more than 5,000 acres in the aggregate of public lands in the State of 
Alaska.''

          a. How do you interpret ANILCA's ``No More'' clause?

    Answer. I understand that ANILCA's section 1326 prohibits the 
Secretary of the Interior from studying federal lands in Alaska for the 
single purpose of considering the establishment of a new conservation 
system unit or for related or similar purposes, and that it requires 
Congressional approval of a joint resolution for any withdrawal 
exceeding 5000 acres.

          b. Given ANILCA's ``No More'' clause, what authority did the 
        Administration use to reclassify nearly 13 million acres in the 
        National Petroleum Reserve--Alaska (NPRA) as ``Special Areas,'' 
        thereby preventing further energy development?

    Answer. Special Areas are authorized by section 104(b) of the Naval 
Petroleum Reserves Production Act, which requires the BLM, consistent 
with providing for exploration of the NPRA, to assure maximum 
protection of the surface values of areas having significant 
subsistence, recreational, fish and wildlife or historical or scenic 
value. The BLM's regulations call these areas ``Special Areas.'' The 
Special Areas expanded and designated by the NPRA Integrated Activity 
Plan, finalized in February 2013, are consistent with this direction. I 
understand that ANILCA section 1326 is not implicated here because 
Special Areas are not ``conservation system units'' and have not been 
withdrawn.

          c. I understand the Administration is also about to unveil a 
        new land management plan for the 19 million acre Arctic 
        National Wildlife Refuge that may seek additional wilderness 
        designation beyond the 8.5 million acres already designated as 
        wilderness. How does this move square with ANILCA's ``No More'' 
        clause?

    Answer. I have not been involved in the Fish and Wildlife Service's 
planning effort.

          d. If confirmed as BLM Director, you will be responsible for 
        87 million acres of public land just in Alaska alone. How will 
        you balance Alaska's need for economic development with the 
        Department's conservation efforts?

    Answer. Both the Department of the Interior and the BLM are 
committed to balancing the nation's need for economic development with 
the Department's conservation efforts. If confirmed, I will continue to 
work with you and interested stakeholders to find the appropriate 
balance between development and conservation. The BLM's plan for the 
National Petroleum Reserve--Alaska (NPRA), which covers nearly 23 
million acres of Alaska's North Slope, provides a useful recent 
illustration. The plan authorizes access to nearly three-quarters of 
the area's estimated oil resources while also protecting world-class 
caribou herds, migratory bird habitat, uplands, and sensitive coastal 
resources that are central to the subsistence culture of Alaska 
Natives. This approach was developed through broad collaboration. If 
confirmed, I will ensure that the BLM continues to strike an 
appropriate balance among the many potential uses of our nation's 
public lands and resources.
    Question 3. The federal government's conveyance program of land 
owed to Alaska and Alaska Natives is mandated under the over 42-year-
old Alaska Native Claims Settlement Act (ANCSA). The BLM has repeatedly 
proposed to cut the funding and personnel for the Alaska Conveyance 
Program and perhaps more egregiously, BLM proposes to take the State of 
Alaska's 50-percent share of revenue from oil and natural gas activity 
in the NPR-A to pay for the land conveyance program and the Legacy Well 
Cleanup. I believe BLM should fund conveyance and surveying closer to 
the $29 million that BLM provided in FY 12--without making Alaska foot 
the bill. The Alaska Land Conveyance Program is very important both to 
the State of Alaska and to the Alaska Native Corporations who are 
eagerly awaiting their long promised lands to which they are entitled.

          a. If confirmed, can you commit to me that you will ensure 
        that the Alaska Land Conveyance Program receives the necessary 
        funding to complete the conveyances as expeditiously as 
        possible?
          b. Do you believe that it is proper for the BLM to reduce the 
        funding of a legislatively mandated program, and one which it 
        is 40 years delinquent on fulfilling, while spending funds on 
        non-legislatively mandated programs, like climate change 
        monitoring and adaptation?

    Answer. I am aware of the importance of completing the Alaska 
Conveyance work and of the BLM's obligations under the Alaska Native 
Claims Settlement Act and Alaska Statehood Act. The BLM recently 
developed an innovative approach to surveying that will substantially 
reduce costs, increase the speed of surveys, and provide a high-quality 
product. I fully support efforts to complete this work more quickly and 
to find ways to do so within the constrained budget environment. If 
confirmed, I will work closely with my colleagues in the Department to 
develop balanced funding recommendations for the Secretary's 
consideration and presentation to the President.
    Question 4. As you may know, the formation of the Lake Clark 
National Park in Alaska during the Carter Administration forced Cook 
Inlet Region Inc. and its villages to forfeit certain of their original 
highest priority land selections within lands that became the Park--
lands which were promised to them under the Alaska Native Claims 
Settlement Act (ANCSA). For the past 30 years, the Department of the 
Interior has been on notice that Cook Inlet Region's ANSCA entitlement 
would be under conveyed even after the completion of the 12(a) and 
12(b) transfers to the CIRI villages. While the villages have now 
received title to their respective 12(a) and 12(b) lands, approximately 
43,000 acres of ANCSA entitlement lands are still due to the Cook Inlet 
Region. On October 22, 2013, the Alaskan delegation sent a letter to 
Secretary Jewell inquiring as to what federal lands in Alaska could 
satisfy CIRI's ANCSA land entitlement and who in the Department should 
CIRI and the delegation work with to expedite a conclusion of CIRI's 
land selection process.

          a. When will we receive a response to our delegation letter?
          b. Can I get your assurances that you will work with me, the 
        delegation and CIRI to remedy the current shortfall in CIRI's 
        entitlement in an expeditious fashion?

    Answer. I understand a response to the delegation's letter is being 
finalized and will be delivered shortly. Because of land ownership 
patterns in the Cook Inlet area, prior legislation specific to CIRI's 
land selections, previous memoranda of understanding between CIRI and 
the Department, and other issues, conveyance of lands to fulfill CIRI's 
land entitlement is unique and complex. I am fully committed to seeking 
the conveyance of CIRI's full entitlement in the most expeditious 
manner, and will be working closely with you, the delegation, and CIRI 
toward that end.
    Question 5. The federal government both directly and under contract 
drilled some 136 oil and gas and exploratory wells in the National 
Petroleum Reserve-Alaska in the 1940s and again in the early 1980s. 
Many of those wells have not been properly capped and were instead 
abandoned. The State of Alaska has been seeking for years for Interior 
to do a better job of cleaning up its messes, just as the government 
would fine private developers who had not properly secured exploratory 
wells. Earlier this year the Administration proposed to use Alaska's 
share of mineral leasing revenues to pay to remedy the federal messes--
something I found totally unacceptable and unjust.

          a. While we approved $50 million in the recent helium 
        legislation that may fund 16 more well cleanups over the next 
        five years, do you believe it is the federal government's 
        responsibility to clean up all remaining wells at its own 
        expense--not Alaska's--in the future.

    Answer. I believe the Federal Government has a responsibility to 
remediate and clean-up the legacy NPRA wells, and the Department of the 
Interior and the BLM are committed to that effort. If confirmed, I will 
work with you and the Committee to ensure that BLM has the resources 
necessary to continue the progress we have made in this area and to 
complete this important effort. The BLM greatly appreciates the recent 
inclusion of funding in the Helium Stewardship Act that will allow the 
agency to significantly accelerate legacy well clean-up.

          b. With the $50 million in funding for well remediation and 
        clean-up in the Helium Stewardship Act, can you please provide 
        me an update on the status of the planning for well cleanup in 
        2014?

    Answer. Using the priorities established in the 2013 Legacy Wells 
Strategic Plan published on our website (http://www.blm.gov/ak/st/en/
prog/energy/oil_gas/npra/legacywell.html), the BLM is currently 
finalizing a spending plan addressing the sequence of work to be 
completed on the Alaska legacy wells with funding from the Helium 
Stewardship Act. The BLM is using existing agreements to move quickly 
on priority work while also preparing new agreements to execute work 
for 2014 and beyond.

          c. When will you be able to share with me a written cleanup 
        plan for 2014? Which wells will be remediated?

    Answer. In 2014, the BLM will complete work on the Umiat #3 well 
and complete surface clean-up on three wells on the Simpson Peninsula 
(Simpson Core Test #26, Simpson Core Test #30, and Simpson Core Test 
#30A). Planning continues for work in 2015 and beyond. The BLM will be 
happy to share with you and your staff the spending plan for 2014 once 
it is finalized and to discuss any other aspect of the Alaska legacy 
well cleanup effort that may be of interest.

          d. If confirmed, will you make funding for well remediation 
        in the NPRA a priority for the BLM?

    Answer. If confirmed, I look forward to continuing working with you 
and other Members of Congress to ensure that the BLM has the resources 
necessary to complete this important effort. We greatly appreciate the 
recent inclusion of funding in the Helium Stewardship Act that will 
allow the BLM to accelerate progress on Alaska legacy well cleanup.
    Question 6. As you know, the State of Alaska has long sought the 
conveyance of about 50,000 acres along the Susitna River in 
Southcentral Alaska under its 1959 Statehood Act land entitlement. This 
acreage is now needed for a future reservoir. For the record, do you 
have a firm timeline for when the state will receive title to those 
lands?
    Answer. The BLM shares your interest in resolving the State's 
request. During this past summer, the BLM met with the Alaska Energy 
Authority on a regular basis to better understand the details of the 
request. In addition, regular contact between the Department of the 
Interior Regional Solicitor's Office and its counterpart at the Alaska 
Energy Authority has helped to keep lines of communication open. If 
confirmed, I will continue to work closely with you and the State on 
this issue.
    Question 7. The Federal Government participated in armed field 
visits during August 22-27, 2013 near the community of Chicken, Alaska. 
I have conveyed my frustration and the frustration of Alaskans at the 
manner in which these raids were undertaken, which have come to 
symbolize continued Federal Government overreach in Alaska. Will you 
commit to working with me to ensure an overzealous law enforcement 
approach does not occur again?
    Answer. If confirmed, I will make every effort to ensure that BLM 
enforcement actions are done in a professional manner and in full 
compliance with all applicable laws.
    Question 8. On September 19, 2013 the Energy Committee held the 
first subsistence oversight hearing since the creation of ANILCA and 
the Alaska Native Claims Settlement Act (ANCSA). One area where 
everyone can agree is that the dual management framework in Alaska is 
not working for our rural residents. We are taking a hard look at the 
current structure of the Federal Subsistence Board, of which the BLM is 
a member. We would like to add additional subsistence users to the 
Board, in order to have an equal split between Alaska users and the FSB 
which makes the decisions that impact their livelihood. Additionally, 
we would like to reform the Rural Determination Process, which 
currently reconsiders the rural status of Alaska's communities every 
decade, leaving many Alaskans constantly worrying about their rural 
preference or lack thereof. Will you commit to working on this pressing 
reform effort?
    Answer. If confirmed, I look forward to working with you on this 
effort. In Alaska, the Department of the Interior has a special 
responsibility to ensure that fish and wildlife resources are available 
now and in the future for rural Alaskans who rely on subsistence 
harvest. I understand that the management of subsistence harvests of 
natural resources is complicated. A number of laws provide many 
mandates related to management; multiple entities, including the BLM, 
have subsistence management responsibilities; and many different 
subsistence users are affected by management of harvest. Opportunities 
to streamline, clarify, and simplify these efforts should be pursued.
                                 ______
                                 
   Responses of Neil Kornze to Questions From Senator Murkowski (for 
                             Senator Hatch)
    Question 9. The Red Cliffs Desert Reserve in Washington County, 
Utah was established in February of 1996 with the issuance of the 
Washington County Utah Habitat Conservation Plan and its permit. Under 
the terms of the permit and its implementation agreement, the Bureau of 
Land Management assumed the commitment to acquire all private land in 
that Reserve through exchange or direct purchase from willing sellers 
of property within the Reserve.
    During the development of the HCP, the BLM and the United States 
Fish and Wildlife Service (USFWS) prioritized those parcels that would 
be essential for the `core' of the Reserve because that `core zone' 
constituted the most biologically significant habitat for recovery of 
the tortoise.
    Currently, the BLM with Washington County and the USFWS are 
preparing for the renewal of the HCP permit which expires in February 
of 2016. Please provide a full accounting of whether the priority 
``core zone'' has been acquired and if not, a full explanation as to 
why the BLM's obligation under the agreement has not been met. Also, 
please provide a full accounting of all acquisitions of private lands 
within the Red Cliffs Reserve and the priority of those lands under the 
USFWS criteria for conservation of the desert tortoise. Also, has the 
BLM completed its Reserve Management Plan as mandated by Congress 
within three years of the creation of the Red Cliffs NCA in 2009? Will 
this plan contain a strategy for acquiring priority lands within the 
Reserve?
    Answer. The BLM remains strongly committed to completing 
acquisition from willing sellers of the remaining approximately 1,200 
acres of private lands within the Red Cliffs Desert Reserve in 
Washington County. The BLM is taking a three-prong approach to complete 
these acquisitions in Utah, including purchases with appropriated 
monies from the Land and Water Conservation Fund (LWCF), land exchanges 
consistent with FLPMA, and the use of land sale revenues provided for 
under section 1978 of Public Law 111-11.
    I understand that the BLM in Utah believes the ``core zone'' you 
reference is equivalent to Zone 3 from the 1996 EIS Incidental Permit. 
To date, the BLM has acquired nearly 6,400 acres of inholdings, the 
majority of which have been within Zone 3. Nearly $18.7 million of LWCF 
appropriated funds have been spent to date on these acquisitions.
    I also understand that the single largest tract of private property 
in the Reserve was tied up in bankruptcy proceedings from June 2004 to 
October 2010. Since resolution of judicial proceedings, the BLM has 
worked to acquire remaining lands as funds become available.
    Section 1974 of Public Law 111-11 requires the BLM to develop a 
comprehensive management plan for the Red Cliffs National Conservation 
Area (NCA) designated by that law. Public scoping meetings were held in 
2010, followed by public input and a report in 2011. The BLM expects to 
release a draft plan for full public review and comment in mid-2014. 
The plan will not specifically address private property within the 
external boundary of the NCA because the scope of the plan is limited 
to lands managed by the Federal government.
    If confirmed, I will continue to direct the BLM in Utah to continue 
to work diligently and collaboratively to complete these acquisitions 
and the management plan.
    Question 10. As a state bound by 63% federal lands, economic 
development surrounding public lands requires close coordination 
between the BLM and private enterprise. In the past 3 years, the 
permitting process for right of way across public lands has been 
greatly delayed with excessive Environmental Analysis required. Public 
comment periods have been ordered, ``just to be safe'', rather than as 
required by regulations. Furthermore, cultural resource inventories 
have been ordered on right of way parcels affecting less than 1/8 of 
mile of BLM land. How will you work with state field and district 
managers to effect an equitable environmental assessment within 
existing regulations and discourage the ordering of long EA and EIS as 
a matter of course, rather than evaluating each situation?
    Answer. Prior to approving any action on public lands the BLM must 
comply with the National Environmental Policy Act and its implementing 
regulations. If confirmed, I will work with the BLM planning team to 
ensure that the appropriate level of analysis is completed efficiently 
and with appropriate public involvement.
       Response of Neil Kornze to Question From Senator Stabenow
    Question 11. As the Chair of the Agriculture Committee, I work 
closely with the Department of Agriculture's Natural Resource 
Conservation Service (NRCS) and the outstanding work they do with 
private landowners. Through conservation planning and assistance 
programs, the NRCS helps landowners and agricultural producers increase 
the productivity of the land while improving the health of the soil, 
water, air, plants and animals. NRCS has done tremendous work in the 
past few years, particularly on creative, outside-the-box, solutions to 
our nation's pressing natural resource issues.
    NRCS and BLM have an existing interagency agreement to address 
habitat issues related to the sage-grouse. As we know, conservation 
issues aren't limited to just public lands or private lands. If we are 
really going to tackle big issues, we need to coordinate across the 
agencies to set mutually agreeable priorities, share expertise and 
talent, and effectively collaborate.
    If confirmed, will you pledge to work collaboratively with Chief 
Weller at NRCS? Can you please describe how your past experiences and 
future plans for the BLM will foster better communication and 
partnership between the two agencies?
    Answer. If confirmed, I will continue to work collaboratively with 
Chief Weller at NRCS. The BLM values its working relationship with the 
NRCS. For example, the BLM continues to collaborate nationally with 
NRCS on the Landscape Monitoring Framework where a subset of the NRCS 
National Resources Inventory data is collected on public lands. This 
data collection helps the BLM to better understand resource conditions 
and trends in priority habitat for Greater Sage-Grouse, as well as 
across all western rangelands. The BLM and the NRCS are also working 
cooperatively to develop new plant materials needed to restore native 
forbs and grasses in degraded sage-grouse habitats. The BLM looks 
forward to continuing a cooperative working relationship with NRCS to 
complete Ecological Site Descriptions for public lands. The BLM is also 
proud to be a partner in the Sage Grouse Initiative (SGI) that NRCS is 
leading. If confirmed, I will ensure a continued high level of 
communication and coordination with NRCS at all levels of the Bureau.
        Responses of Neil Kornze to Questions From Senator Flake
    Question 12. If Congress does not act by January 14, 2014, the BLM 
stands to lose a critical land-management tool, stewardship contracting 
authority. With that authority the BLM can enter agreements that, among 
other things, allow for the reduction of hazardous fuels thereby 
helping to prevent or mitigate the damage from catastrophic wildfires. 
Do you support reauthorization of this authority?
    Answer. I support the reauthorization of this authority and I know 
the Department has testified in support of stewardship contracting 
authority on several occasions. Stewardship contracting authority 
allows the BLM to award and enter into contracts to accomplish 
important forest health and restoration treatments, including hazardous 
fuels reductions, and to use the value of timber or other forest 
products removed as an offset against the cost of services received.
    Question 13. Do you support improvements to stewardship authority, 
such as cancellation ceiling flexibility that would allow the BLM to 
treat larger areas of land, including the type of landscape-level 
treatments that are proven to more effectively reduce wildfire risks?
    Answer. If stewardship contracting authority is reauthorized, the 
BLM's future strategy for these projects would include increasing their 
scope and duration. I support the use of stewardship contracting 
authority to treat both small and large areas of land. If confirmed, I 
look forward to working with you to accomplish this shared goal, as 
well as our shared goal of reducing wildland fire risks.
    Question 14. Do you support S. 1300, which would reauthorize and 
improve stewardship contracting authority for the BLM and the Forest 
Service?
    Answer. I support the reauthorization of stewardship contracting 
authority for the BLM. I appreciate the work you and your staff have 
done to address concerns raised in the BLM's testimony on S. 1300. If 
confirmed, I look forward to working with you on this issue.
    Question 15. I have heard from some counties and municipalities 
trying to work with the BLM to authorize third-party concessionaires to 
operate on Recreation and Public Purposes Act parcels. It is my 
understanding that the Solicitor's Office continues to evaluate this 
issue in its review of the August 2011 Instructional Memorandum for 
Third Party Uses on Recreation and Public Purposes Act Patents and 
Leases (2011-162). When does the Solicitor's Office expect to make a 
decision about the ability for lease and patent holders to enter into 
agreements with third-party concessionaires to operate on Recreation 
and Public Purposes Act lands?
    Answer. Lands leased or patented to local governments under the 
Recreation and Public Purposes Act, carry with them a number of 
restrictions on commercial uses. It is my understanding that the BLM in 
Arizona is pursuing a number of possible options with Maricopa County 
and other Arizona local governments to address these proposed uses. 
Among the solutions being discussed are commercial leasing and the 
purchase of reversionary interests of existing R&PP conveyances by 
these local governments. Additionally, the BLM is currently revising 
its Recreation Permit and Fee Administration Handbook which will 
provide general guidance on recreational commercial leases on BLM-
managed lands.
    Question 16. I understand the City of Tucson and the BLM are 
continuing discussions regarding the transfer of title for Udall Park 
to the City of Tucson. I further understand this transfer would be 
intended to fulfill a land exchange with BLM that originally commenced 
in the 1980s, where the City conveyed title to a parcel known as the 
Freeman Road property to the BLM. Can you provide an update on the 
status of those discussions, including whether the issue can be 
resolved administratively?
    Answer. The BLM has been in discussions with the City of Tucson 
regarding the Udall Park issue. When Udall Park was transferred to the 
City of Tucson in 1989, the land was transferred under a Recreation & 
Public Purposes Act (R&PP) patent that included a reversionary clause 
prohibiting certain commercial uses of the property. The BLM in Arizona 
is in discussions with the City regarding the possible conveyance of 
that reversionary interest thus enabling the City to allow commercial 
uses such as the installation of a cellular tower. The BLM has the 
authority to sell reversionary interests at fair market value in 
accordance with uniform appraisal standards. The value of that interest 
for the parcel in question is not yet known. If confirmed, I will 
ensure that the BLM continues to explore possible administrative 
solutions with the City of Tucson.
    Question 17. Maricopa County has been actively trying to work with 
the BLM to renew its lease for the San Tan Mountain Regional Park. Can 
you provide an update on the status of the BLM's efforts to confirm the 
County's interim authority to operate the park, as well as BLM's 
efforts to process the County's Recreation and Public Purposes Act 
patent application?
    Answer. The BLM is engaged in discussions with the Maricopa County 
Parks and Recreation Department to allow the County to continue 
operating the San Tan Mountain Regional Park, which includes public 
lands managed by the BLM. When the Cooperative Recreation Management 
Agreement with the County expired in September 2013, the BLM and the 
County entered into a ``contribution of services'' agreement. This 
agreement authorizes the Parks and Recreation Department to manage the 
Park in accordance with the BLM-approved park plan while the BLM 
processes the County's lease and patent application pursuant to the 
Recreation and Public Purposes Act. The BLM is working cooperatively 
with the County to complete this process as quickly as possible. If 
confirmed, I look forward to working with Maricopa County to ensure 
that it may continue to operate the increasingly popular San Tan 
Mountain Regional Park.
      Responses of Neil Kornze to Questions From Senator Barrasso
    Question 18. In your questionnaire to the Committee, you state that 
you held the following positions in the Office of U.S. Senator Harry 
Reid between December 2004 and January 2011: Legislative Correspondent, 
Legislative Aide, Legislative Assistant, Director of Nevada Operations, 
and Senior Policy Advisor. Please provide the month(s) and year(s) you 
served in each of the listed positions.
    Answer. My positions in the Office of U.S. Senator Harry Reid were 
as follows. I worked on public land and natural resource issues in each 
of these roles.
 Legislative Correspondent                     January 2003--September
                                               2003
Legislative Aide                              October 2003--May 2005
Legislative Assistant                         June 2005--March 2006
Director of Nevada Operations                 April 2006--March 2008
Senior Policy Advisor                         April 2008--January 2011
    Question 19. On January 14, 2013, Edward Shepard, President of the 
Public Land Foundation (PLF) wrote a letter to Secretary Salazar, 
encouraging him to nominate ``a career professional natural resource 
manager'' as the next BLM Director.
    The PLF is a national non-profit organization which advocates and 
works for the professional management of the nation's public lands. The 
PLF's members are predominately retired employees of BLM.
    Mr. Shepard's January 14th letter cited section 301(a) of the 
Federal Land Policy and Management Act (FLPMA) which states that: 
``[t]he Director of the Bureau shall have a broad background and 
substantial experience in public land and natural resource 
management.'' Mr. Shepard also stated that ``BLM has several current 
and retired professionals that would serve well in the director 
position and have demonstrated their competencies as Federal 
executives.''
    However, on November 21, 2013, Mr. Shepard wrote a letter to 
members of the Committee urging your ``expedited confirmation.''

          A. Did you contact the PLF between January 14, 2013 and 
        November 21, 2013? If so, when did you contact the PLF and what 
        was the nature of your exchange with the PLF?
          B. Do you know or are you otherwise aware of any person 
        contacting the PLF on behalf or in support of you between 
        January 14, 2013 and November 21, 2013? If so, who contacted 
        the PLF and when did that person or persons contact the PLF?

    Answer. In my role as Principal Deputy Director of the BLM, I meet 
regularly with outside groups, including the Public Lands Foundation, 
to gather input on issues important to the management of public lands. 
As you note, the Public Lands Foundation is an organization comprised 
primarily of retired BLM professionals. I am honored by the 
organization's support for my nomination. I did not, however, request 
its support. Similarly, I am not aware of anyone having contacted the 
Public Lands Foundation on my behalf.
    Question 20. You testified before the Committee that: ``we have 
somewhere around 33 states where there are oil and gas revenues being 
produced on public lands, but.just over half of those states have 
stepped forward to establish some sort of baseline regulation when it 
comes to hydraulic fracturing.''
    Please provide a list of all states that have not established 
``baseline regulation'' for hydraulic fracturing. For each of the 
states that have not established baseline regulation for hydraulic 
fracturing, please list: (a) the total amount of oil and gas produced 
on public lands for each of the last five years; and (b) of these 
amounts how much oil and gas was produced using hydraulic fracturing 
for each of the last five years.
    Answer. The BLM does not currently monitor hydraulic fracturing and 
therefore cannot estimate how much oil and gas was produced using that 
method. State regulation of hydraulic fracturing is changing rapidly, 
and regulatory provisions vary between states. The BLM revised proposed 
rule on hydraulic fracturing will establish baseline environmental 
safeguards for hydraulic fracturing operations across all public and 
Indian lands, while providing flexibility to oil and gas operators in 
situations where a state's regulation meets or exceeds the BLM 
standards.
    Question 21. BLM proposes air quality management goals, objectives, 
and actions in several proposed Resource Management Plans (RMPs). The 
State of Wyoming, with oversight from the Environmental Protection 
Agency (EPA), has primacy over air quality issues in Wyoming. What 
authority is BLM relying on to develop its own air quality management 
goals, objectives, and actions?
    Answer. The BLM acknowledges and respects the role of the states 
that have primacy for Clean Air Act compliance. The BLM is required to 
comply with the Clean Air Act and the National Environmental Policy Act 
for actions or authorizations on public lands. In addition, pursuant to 
the Federal Land Policy and Management Act, the BLM has responsibility 
for land use planning and is required, among other things, ``to weigh 
long-term benefits to the public and short-term benefits'' and 
``provide for compliance with applicable pollution control laws, 
including state and federal air, water, noise, or other pollution 
standards or implementation plans.'' FLPMA also states that it is the 
policy of the United States that ``the public lands be managed in a 
manner that will protect the quality of scientific, scenic, historical, 
ecological, environmental, air and atmospheric, water resource, and 
archeological values,'' among others.
    Question 22. I understand that several RMPs under revision in 
Wyoming propose air resource management plans that are inconsistent 
with the Memorandum of Understanding (MOU) that the Department of the 
Interior (DOI) signed with EPA and the Department of Agriculture in 
2011. Why is BLM not following the existing MOU and instead 
establishing new air resource management plans?
    Answer. The 2011 National Air Quality MOU outlined steps to analyze 
and mitigate the potential impacts to air resources associated with oil 
and gas decisions on Federal lands. The BLM in Wyoming worked closely 
with the MOU signatories to develop the Air Resource Management Plans 
included in the Resource Management Plans (RMPs) under revision, which 
address how the BLM in Wyoming will manage air resource impacts from 
development. In addition to the MOU signatories, the BLM ensured that 
the Wyoming Department of Environmental Quality and the Governor's 
office were involved in the development of the Air Resource Management 
Plans. The RMPs are not yet final. The public review process will be 
completed according to the timetable for each plan, with completion 
dates ranging from early 2014 to mid 2016. If confirmed, I will 
continue to ensure that the BLM undertakes appropriate and 
collaborative resource management planning.
    Question 23. BLM proposes timing restrictions, required design 
features, and access restrictions that will impact valid existing oil 
and gas leases. How does BLM plan to protect existing lease rights in 
accordance with the BLM Land Use Planning Handbook?
    Answer. The BLM's land use plan decisions are subject to valid 
existing rights. If confirmed, I will ensure that valid existing rights 
are protected pursuant to the requirements of the Federal Land Policy 
and Management Act.
    Question 24. BLM proposes making large areas of land unavailable to 
oil and gas leasing in many of its RMPs currently under revision.
    However, FLPMA requires the Secretary of the Interior to comply 
with special procedures before making a management decision that 
removes a principal or major use, such as oil and gas leasing. For 
example, section 204 requires the Secretary to notify Congress and 
provide it with specific information about a withdrawal.
    I understand that DOI, to date, has not complied with section 204 
of FLPMA or BLM's implementing regulations in 43 C.F.R. part 2300. Why 
is BLM removing a principal use or public lands without following the 
procedures required by law?
    Answer. Land use decisions regarding the availability of public 
lands for oil and gas leasing are completed through the planning 
process, which involves an open and public dialogue. A BLM decision 
through the planning process to close an area to oil and gas leasing is 
not a withdrawal and therefore is not subject to the requirements 
outlined in Section 204 of the Federal Land Policy and Management Act 
(FLPMA).
    I am aware that FLPMA Section 204(c) requires the Secretary of the 
Interior to notify Congress of Section 204 withdrawals of over 5,000 
acres. The Department of the Interior complies with this notification 
requirement whenever a Section 204 withdrawal of over 5,000 acres is 
made. If confirmed, I will ensure that the BLM continues to fulfill its 
responsibilities for Congressional notification pursuant to FLPMA for 
such withdrawals.
    Question 25. The State of Wyoming, local governments, and many 
stakeholders have spent considerable resources developing and 
implementing greater sage grouse management strategies to protect the 
species.
    DOI has endorsed Wyoming's efforts. For example, in response to the 
Wyoming Governor's renewal of a state executive order establishing a 
sage grouse ``core areas'' conservation plan, the Fish and Wildlife 
Service (FWS) stated:

          ``The Service believes the Executive Order can result in the 
        long term conservation of the greater sage grouse, and thus 
        reduce the need to list the species under the Endangered 
        Species Act.''

    However, BLM does not seem to agree with FWS. Through its RMP 
revisions, BLM is imposing management policies that are inconsistent 
with the strategy implemented by Wyoming.

          a. Prior to proposing its management policies for greater 
        sage grouse in Wyoming, did BLM conduct a review to determine 
        whether these polices were consistent with the Wyoming sage 
        grouse plan.

    Answer. Yes. In support of the State's strategy, on December 29, 
2009, the BLM Wyoming issued the Greater Sage-Grouse Conservation 
Policy Instruction Memorandum (IM), WY IM 2010-012. This IM recognizes 
the State's ``core areas'' for population management focus and 
represents the BLM's substantial effort to actively manage those 
habitats on public lands in support of the population management 
objectives, as set by the State of Wyoming and the Wyoming Game and 
Fish Department.

          b. Do you agree with the assessment from FWS on the Wyoming 
        sage grouse plan?

    Answer. The BLM concurs with the Fish and Wildlife Service's 
assessment that Wyoming's plan can result in long-term conservation of 
the Greater Sage-Grouse.

          c. If confirmed, would you direct BLM to incorporate 
        Wyoming's sage grouse plan into BLM planning processes without 
        further restrictions on top of those that exist within the 
        Wyoming sage grouse plan.

    Answer. The BLM has incorporated Wyoming's sage grouse plan into 
alternatives in each of the four National Environmental Policy Act 
documents that the BLM is preparing in Wyoming as part of the National 
Greater Sage-Grouse planning effort being undertaken with the U.S. 
Forest Service, States and other key partners. The final planning 
decisions will be made after consideration of input from the public.
    Question 26. For more than a year, BLM has been engaged in a 
systematic review of its management practices for conservation of the 
greater sage grouse in western states. In some states, the new 
conditions being considered would dramatically shrink the availability 
of multiple use on and access to public lands.

          a. What process did BLM use to determine the scientists on 
        which the agency would rely.

    Answer. The BLM planning team for the Greater Sage-Grouse Planning 
effort is comprised of a wide range of natural resource specialists and 
scientists. As part of its Greater Sage-Grouse Planning Strategy, the 
BLM utilizes the best available science drawn from experts both inside 
and outside the government. The planning effort is analyzing a wide 
range of factors impacting Greater Sage-Grouse conservation as 
identified in the National Technical Team (NTT) report, the Fish and 
Wildlife Service's Conservation Objectives Team (COT) report, and the 
U.S. Geological Survey's Baseline Environmental Report (BER). Each of 
these reports was peer reviewed and based on the latest scientific 
studies. The BLM also relies heavily on partnerships with experts from 
state fish and wildlife agencies, particularly through the Western 
Association of Fish and Wildlife Agencies (WAFWA). Through the national 
planning effort, the BLM utilizes the best available science alongside 
input from state fish and wildlife agencies to ensure land managers and 
biologists tailor land use decisions to local ecological conditions.

          b. What peer review process does BLM follow for its sage 
        grouse management practices?

    Answer. The development of the National Technical Team (NTT) report 
followed the U.S. Department of the Interior's Data Quality Guidelines, 
and sought a peer review commissioned through the Western Association 
of Fish and Wildlife Agencies (WAFWA).
    In the planning process currently underway, the BLM will consider 
the NTT report, the COT report, the BER report, and other best 
available science before making final planning decisions.
    Question 27. BLM currently has an excess of wild horses both in 
long-and short-term holding facilities as well as on BLM lands.

          a. If no changes are made to BLM policy and no legislative 
        action is taken, what are the long-term implications both 
        financially for BLM and ecologically for BLM lands?

    Answer. The rapid rate of on-range population growth requires the 
BLM to develop innovative long-term solutions that ensure Appropriate 
Management Levels are maintained, while limiting the number of animals 
placed in holding facilities. I remain committed to implementing 
reforms that draw from a recent National Academy of Sciences report, 
and, if confirmed, will continue to work with Congress and interested 
stakeholders to put the Wild Horse and Burro program on sound financial 
and ecological footing for the long term.

          b. BLM is currently violating the law by failing to maintain 
        Appropriate Management Levels. What is BLM's plan for 
        population control?

    Answer. The BLM continues to make reforms to the Wild Horse and 
Burro program to ensure humane care, achieve financial sustainability, 
and promote ecological balance on the range. As part of the BLM's 
effort to limit population growth, the Bureau is working with the 
scientific and veterinary communities to develop longer-lasting 
population control tools. In 2014, the BLM intends to support several 
pilot efforts to develop and evaluate potential tools, including more 
effective immunocontraceptives. All pilot efforts supported by the BLM 
will be peer reviewed by a group of well-qualified scientists. If 
confirmed, I look forward to working with Congress to deal with the 
unique challenges posed by the management of wild horses and burros on 
public rangelands.

          c. If confirmed, would you direct BLM to use sale authority 
        if the appropriation rider language was removed?

    Answer. It is the policy of the BLM not to sell wild horses or 
burros without limitation. I am committed to improving the Wild Horse 
and Burro program, and if confirmed, will continue to expand 
partnerships and support innovative ideas that help the BLM place 
animals in well-qualified homes.
    Question 28. I understand that BLM provides grants and similar 
sources of Federal funding to entities outside the Federal government. 
I find this troubling given recent budget constraints within DOI and 
BLM.
    Please provide the Committee with a detailed accounting of all 
grants and similar sources of Federal funding that BLM made to outside 
entities between October 2011 and the present. Please provide the name 
of the recipient, the total amount awarded, and under what authority 
BLM provided the funding.
    Answer. Both the Department of the Interior and the BLM are 
committed to using appropriated funds judiciously and in a way that 
maximizes on-the-ground benefit. The Challenge Cost Share Program 
demonstrates how the BLM partners with local organizations to meet 
priorities for on-the-ground habitat, recreation, and cultural resource 
work. For example, in some very recent projects, federal funds have 
leveraged up to six times that amount in partner contributions. If 
confirmed, I would ensure that the BLM continues to use funding wisely 
to meet our multiple-use and sustained yield mission. We would be happy 
to discuss this request with you or your staff so that the Bureau can 
better understand the scope of the inquiry and provide the information 
that you seek.
         Responses of Neil Kornze to Questions From Senator Lee
    Question 29. Please identify any incident of groundwater 
contamination that directly resulted from hydraulic fracturing that was 
identified by BLM and served as the catalyst for interjecting a major 
new rulemaking on top of what states are already doing?
    Answer. It is a BLM responsibility to ensure that activities on 
public lands are carried out in a manner that protects public health, 
safety, and the environment. Existing BLM regulations governing 
hydraulic fracturing operations on public lands are more than three 
decades old and were not written to address modern hydraulic fracturing 
activities. As with all of its programmatic areas, the BLM is committed 
to maintaining regulations that keep pace with current conditions.
    Question 30. Please identify any states and the appropriate 
regulatory agency that has failed to regulate hydraulic fracturing 
activity where that failure has resulted in actual environmental harm. 
Please cite the specific incident, if any.
    Answer. As this Administration has expanded opportunities for safe 
and responsible domestic energy production on federal and tribal lands, 
the Department of the Interior has proposed common sense regulatory 
updates while also providing flexibility and facilitating coordination 
with states and tribal nations. The BLM incorporated input from members 
of the public, various stakeholders, states, tribal nations, industry, 
and many others when preparing the revised proposed rule. If confirmed, 
I will ensure that this input is fully considered in developing 
appropriate safety and environmental protections.
    Question 31. What do you anticipate to be the annual costs to the 
BLM of being able to administer the proposed hydraulic fracturing rule?
    Answer. The BLM would administer the hydraulic fracturing rule as 
part of its ongoing responsibilities to manage the oil and gas program. 
The BLM is reviewing more than 1.3 million comments received during the 
public review of the revised proposed rule and will be able to provide 
details on administrative requirements once the rule is finalized.
    Question 32. Has BLM conducted any economic assessment of what 
impact this new rule might have upon its ability to effectively and 
efficiently process APDs, process renewable energy project 
applications, or even how the increased burden might divert resources 
from steadily increasing costs for the wild horse program?
    Answer. As noted in the response to the previous question, the BLM 
is currently reviewing more than 1.3 million comments received during 
the public review of the revised proposed rule and will be able to 
provide details on administrative requirements once the rule is 
finalized. If confirmed, I will continue to work to ensure that the BLM 
supports its obligations, including the processing of drilling permits, 
renewable energy project applications, and the wild horse and burro 
program, along with our regulatory efforts related to oil and gas 
development on public lands.
    Question 33. Has any direction of any kind, written or otherwise, 
been given to any personnel within the agency to not conduct wild horse 
gathers at this time? If so, might the promulgation of a new rule on 
BLM hydraulic fracturing divert resources from activities such as being 
able to conduct wild horse gathers?
    Answer. The BLM is working closely with our individual BLM State 
Directors to evaluate gathers on a case-by-case basis.
    If confirmed, I will continue to work to ensure that the agency 
meets its obligations, including our regulatory responsibilities 
related to oil and gas development on public lands.
    Question 34. While it is clear that there will be some impact to 
other programs as BLM diverts its limited resources to duplicate state 
regulatory efforts, why has BLM not conducted any analysis of how this 
new regulatory effort might impact ongoing activities that BLM has 
stated are a priority?
    Answer. The BLM is responsible for instituting and enforcing 
regulations that provide for safe and responsible development of oil 
and gas resources on public lands. Like its work in other resource 
areas, the agency takes seriously its responsibility for having 
regulations that are up-to-date and responsive to current operating 
realities.
    Question 35. Does BLM plan to hire new personnel to administer this 
new hydraulic fracturing rule? BLM has sometimes had a difficult 
challenge in attracting people with highly technical capabilities to 
come to the agency because they can be paid substantially more in 
industry. Where will these new hires come from? Do you expect that the 
agency will attempt to hire away personnel from state agencies since 
those agencies have decades of experience already in regulating these 
activities while BLM does not?
    Answer. The BLM is already working to fulfill its responsibilities 
related to oil and gas development at a time of increasing demand for 
trained personnel by both industry and government. The BLM is working 
to address challenges associated with recruitment and retention of 
applicants for skilled positions by looking closely at ways to get 
certified petroleum engineer technicians on the job more quickly and at 
ways to increase base salaries for petroleum engineers and technicians, 
which are significantly less than salaries that are paid by industry. 
If confirmed, I look forward to continuing to work with you and other 
Members of Congress to identify new approaches to this ongoing 
challenge.
    Question 36. Recently, the Utah BLM deferred nearly 100,000 acres 
from an auction that was scheduled to take place on November 19, 2013. 
The deferral occurred only days before the auction. Could you provide 
the documents supporting the decision to defer the acreage, including 
any emails referencing the decision to defer the acreage? What were the 
exact reasons for the deferral? Did the BLM, in deciding to defer the 
acreage, have any contact with outside groups prior to the deferral?
    Answer. The BLM in Utah decided to defer certain parcels from the 
November 19 lease sale in order to provide additional time to address 
concerns about potential impacts to the Old Spanish National Historic 
Trail, cultural resources, and sensitive species. It is my 
understanding that the BLM Utah State Director met with a variety of 
stakeholders prior to the decision, including industry, state and 
county officials, conservation groups, and other federal agencies. I 
would be happy to meet with you to define the scope of your request for 
specific documents leading up to the decision to defer some of the 
parcels from the November 19, 2013, lease sale.
        Responses of Neil Kornze to Questions From Senator Risch
    Question 37. Myself, along with Senator Crapo, would like to know 
more about your philosophy as it relates to collaborative problem-
solving at the Bureau of Land Management. If you are confirmed, will 
you commit to fully implementing the Owyhee Initiative (Public Law 111-
11) which is based upon collaborative problem-solving?
    Answer. I am committed to using collaborative approaches to solving 
problems whenever possible. Bringing stakeholders together to address 
public land management issues is beneficial for the BLM, the public 
lands and their resources, and stakeholders. If confirmed, I will work 
with the BLM's Idaho State Director to ensure that the BLM continues to 
work collaboratively with the Owyhee Initiative and others to fully 
implement Public Law 111-11 and other statutes that govern the BLM's 
management of public lands.
    Question 38. Myself, along with Senator Crapo, would like to know 
if you will direct the BLM to honor its commitments during the 
negotiations and legislative lead up to the law's passage in 2009, 
including the outstanding memorandum of understanding between the BLM 
and the Owyhee Initiative Board of Directors, inconsistent policies 
related to motorized herding in wilderness and execution of agreements 
associated with a ``science review'' process wherein range management 
experts review scientific assertions in environmental analyses required 
for National Environmental Policy Act compliance on any given allotment 
and make specific science-based recommendations on the management 
regime for that specific allotment?
    Answer. The BLM values its partnership with the Owyhee Initiative 
Board of Directors and is committed to implementing Public Law 111-11, 
in addition to fulfilling its obligations under the Federal Land Policy 
and Management Act, National Environmental Policy Act, and other laws. 
If confirmed, I will work with the BLM Idaho State Director to ensure 
that the BLM continues close collaboration with the Owyhee Initiative 
Board, the Shoshone-Paiute Tribes and other stakeholders on wilderness 
management, range management and the application of best available 
science for public land management in Owyhee County.
      Responses of Neil Kornze to Questions From Senator Landrieu
    Question 39. Mr. Kornze--what do you see as the future role of the 
BLM in the regulation of onshore oil and natural gas production--that 
is, do you see BLM assuming a greater regulatory role, or do you 
envision a balance between Federal and state regulation that allows 
those states currently doing a good job of regulating their oil and gas 
industries to continue to do so?
    Answer. The BLM's multiple use and sustained yield mandate gives 
the agency a unique stewardship responsibility in the management of 
public lands and resources. The BLM implements its mandate in a highly 
collaborative manner, reaching out to all stakeholders and working 
closely with our fellow regulators, including states and tribal 
nations. If confirmed, I will continue to work closely with states, 
tribal nations, industry partners and others as we move forward with 
the President's all-of-the-above energy strategy.
    Question 40. Do you agree that with the current delay in permitting 
compared to private lands has reduced the ability of Federal lands to 
contribute to the growth in domestic energy production? You mention a 
new leasing system to be rolled out in the coming months, could you 
detail the specifics of that plan and what effect you envision it will 
have? Do you have other plans to streamline the permitting process?
    Answer. The BLM has made important strides in oil and gas 
permitting in recent years. Industry now has nearly 7,000 approved 
drilling permits in-hand and available for use on public lands and 
minerals. As I mentioned in my testimony, the BLM is also developing a 
new electronic Application for Permit to Drill (APD) processing system 
to increase efficiency, which will track drilling permits through the 
entire process and provide greater transparency for the BLM, industry, 
and the public. Our plan is to pilot this electronic system in parts of 
Utah and New Mexico during the first half of 2014. Once the system is 
ready for broader deployment, it will be rolled out nationwide. If 
confirmed, I will ensure that the BLM continues to take advantage of 
opportunities like this to improve our permitting efforts and to 
provide greater certainty and predictability to industry.
    Question 41. In response to the National Academy of Sciences 
findings, what specific efforts is BLM making to employ the use of 
immunecontraceptive technologies, reduce round-ups, and reform the 
management strategies that have been found lacking?
    Answer. The BLM is currently evaluating the Wild Horse and Burro 
program in light of the recent National Academies of Sciences report 
and is adopting many of the recommendations outlined in the study. The 
BLM continues to make reforms to the Wild Horse and Burro program to 
ensure humane care, achieve financial sustainability, and promote 
ecological balance on the range. As part of the BLM's effort to limit 
population growth, the Bureau is working with the scientific and 
veterinary communities to develop longer-lasting population control 
tools. In 2014, the BLM intends to support several pilot efforts to 
develop and evaluate potential tools, including more effective 
immunocontraceptives. Pilot efforts supported by the BLM will be peer 
reviewed by a group of well-qualified scientists. In addition to 
facilitating the development of more effective population growth 
suppression tools, the BLM plans to implement improved population 
survey methods and to review its policy for establishing and adjusting 
Appropriate Management Levels. The BLM is also evaluating several 
options to reduce the numbers of animals in off-range holding 
facilities, including reforming the adoption program, partnering with 
new Federal, State, and non-profit partners to find good homes for 
animals, and exploring options for lower-cost off-range holding 
facilities. Each of these efforts will be grounded in the best 
available science and incorporate the input of interested stakeholders. 
If confirmed, I look forward to working with Congress to deal with the 
difficult challenges posed by management of wild horses and burros on 
public rangelands.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   Statement of the American Sportfishing Association American Fly 
 Fishing Trade Association  Berkley Conservation Institute  Boone & 
Crockett  The Conservation Fund  Delta Waterfowl  Ducks Unlimited  
   Izaak Walton League of America  Mule Deer Foundation  National 
 Shooting Sports Foundation  The Nature Conservancy  North American 
      Grouse Partnership  Pheasants Forever  Theodore Roosevelt 
  Conservation Partnership  Tread Lightly  Trout Unlimited  Quail 
     Forever  Wild Sheep Foundation  Wildlife Forever  Wildlife 
                          Management Institute
    Our organizations represent hunters, anglers, and outdoor 
enthusiasts throughout the United States. We write to you today to 
express our support for the nomination of Neil Kornze to become the 
next Director of the Bureau of Land Management.
    In nominating Neil Kornze to lead the Bureau of Land Management, 
the President has selected a voice for the West who has helped forge 
solutions to some of the nation's most complex natural resource 
challenges. For more than a decade, Neil has helped ensure that the 
priorities of sportsmen and Western communities are heard in Washington 
and reflected in the nation's energy and public lands policies.
    As Principal Deputy Director of the Bureau of Land Management 
(BLM), Neil has applied an effective brand of listening and leadership 
to help the organization modernize key functions for the benefit of the 
public. In particular, Kornze has placed a focus on implementing the 
Secretary's onshore oil and gas leasing reforms, including enhanced 
public input, siting energy development in areas of minimal conflict, 
driving landscape-level planning efforts, and dramatically expanding 
the agency's use of technology for energy permitting and land surveys. 
In doing so, Neil has shown that with smart policies and careful 
planning the U.S. can balance energy development on public lands with 
conservation and recreation.
    In particular, sportsmen worked effectively with Kornze to 
effectively launch and site solar development on public lands. He heard 
our concerns, and worked with us and with industry to balance 
conservation of critical wildlife habitat with utility-scale 
development. Today, we are on track to meet the goal of having 
sufficient renewable energy capacity on public lands to power more than 
6 million homes by 2020.
    In conclusion, Neil has demonstrated the qualities that the hunting 
and fishing communities expect in a BLM Director. We are very 
encouraged that he has been nominated him to this crucial post and 
encourage you to approve his nomination as soon as possible.
                                 ______
                                 
                       California Natural Resources Agency,
                                 Sacramento, CA, December 10, 2013.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC,
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senators Wyden and Murkowski,
    I write to offer my strong support of President Obama's appointment 
of Neil Kornze as Director of the Bureau of Land Management (BLM).
    In his present role at BLM's principal deputy director, Mr. Kornze 
has been an effective manager of the agency and its 245 million acres 
of public lands. He is a leader who is open-minded and inclusive toward 
the perspectives of states and stakeholders. His understanding of the 
role of federal lands in the West, particularly for the potential for 
renewable energy generation is of significant interest to California. 
Of note, Neil has a demonstrated history in supporting Native American 
consultation, especially as it relates to oil, gas and renewable energy 
development.
    Mr. Kornze's collaborative style, approach to western states and 
experience within the Department of Interior will serve him well as he 
addresses the many resource management issues that the Bureau of Land 
Management oversees.
    I strongly urge the committee to undertake his nomination and 
support confirmation of Neil Kornze as the next Director of the Bureau 
of Land Management.
            Sincerely,
                                                John Laird,
                                   Secretary for Natural Resources,
                                               State of California.
                                 ______
                                 
                      New Mexico Green Chamber of Commerce,
                                 Albuquerque, NM, November 8, 2013.
Hon. Ron Wyden,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC,
Hon. Lisa Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, 304 
        Dirksen Senate Building, Washington, DC.
    Dear Chairman Wyden and Senator Murkowski: The New Mexico Green 
Chamber of Commerce (NMGCC) and its local chapters represent businesses 
dedicated to building healthy economies in New Mexico's diverse 
communities. We write to you today to support the confirmation of Neil 
Kornze as the next Director of the Bureau of Land Management (BLM).
    New Mexico is ranked 2nd in the nation for solar potential, 12th 
for wind potential, and has vast untapped geothermal and biomass 
resources. We believe Mr. Kornze's leadership and hands-on experience 
launching responsible solar and wind energy projects on federal lands 
will help create jobs and investment in New Mexico's local economies 
through clean energy development.
    Last year, Mr. Kornze listened to the NMGCC, our congressional 
delegation and other local stakeholders seeking to protect the Rio 
Grande del Norte National Monument near Taos. Already, the BLM reports 
that the monument has seen a 40 percent increase in visitation--
bolstering the local economy and local employers. We look forward to 
working with him to ensure our small business perspective is included 
in the new monument's management planning.
    We also look forward to the opportunity to educate Mr. Kornze about 
our members' interests in seeing the Organ Mountains-Desert Peaks BLM 
lands protected in Southern New Mexico. An economic study we 
commissioned shows that a monument designation could infuse the local 
economy with $7.4 million, nearly double the number of tourism jobs 
available to residents, and over $500,000 annually in local and state 
tax revenue.
    Mr. Kornze has shown he understands and appreciates that New 
Mexico's economy is closely tied to its public lands. Should he be 
confirmed, we look forward to the opportunity to continue working with 
Mr. Kornze to ensure our perspective is considered in the BLM's 
balanced public lands policies.
            Sincerely,
                               Laura E. Sanchez, Esq., CEO.
                                 ______
                                 
                                                  November 8, 2013.
Hon. Ron Wyden,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
    Senator Wyden:
    We wish to express our support for the nomination and swift 
confirmation of Neil Kornze to serve as Director of the Bureau of Land 
Management. BLM lands are extremely important to sportsmen across the 
west but particularly in New Mexico where over 90 percent of our 
residents hunt on public land. In nominating Mr. Kornze, the President 
has chosen a voice for the west and common-sense conservation to lead 
this vital agency.
    Since March 1, 2013, Mr. Kornze has been leading the BLM as the 
agency's Principal Deputy Director, and prior to serving in his current 
role; Mr. Kornze was the BLM's Acting Deputy Director for Policy and 
Programs starting in October 2011. Mr. Kornze joined the organization 
in January 2011 as a Senior Advisor to the Director.
    Before coming to the Bureau of Land Management, Mr. Kornze worked 
as a Senior Advisor to U.S. Senate Majority Leader Harry Reid of 
Nevada, while in that role Mr. Kornze worked in cooperation with 
Senator Jeff Bingaman of New Mexico to develop and pass the nation's 
most significant public lands legislation in recent memory, The Omnibus 
Public Lands Act of 2009.
    As a leader in the BLM's move toward landscape-scale planning, and 
as one of the architects of the largest land conservation legislation 
in a generation, Neil has shown that--with smart policies and careful 
planning--the U.S. can safely encourage energy development on public 
lands while also expanding opportunities for hunting, fishing, and 
outdoor recreation.
    Mr. Kornze's reputation for working with all stakeholders for 
common-sense solutions has been proven in New Mexico where he traveled 
to the Northern New Mexico to hear directly from sportsmen and other 
community members prior to the broadly supported Rio Grande del Norte 
National Monument designation--which will protect hunting, fishing and 
habitat for the future in one of the west's most spectacular 
landscapes. We look forward to working with Mr. Kornze as we move 
closer to permanent protection for the iconic Organ Mountains/Desert 
Peaks area in Southern New Mexico.
    As New Mexico sportsmen we wish to again express our strong support 
for swift confirmation of Neil Kornze to Director of the BLM.
            Sincerely,
                                   Oscar Simpson, Chairman,
               Backcountry Hunters and Anglers, New Mexico Chapter,
                                   John Cornell, President,
                              Dona Ana County Associated Sportsmen,
                                      Ray Trejo, President,
                                    New Mexico Wildlife Federation,
                               Sanford Schemnitz, Chairman,
                                  Southwest Consolidated Sportsmen,
                                   Max Trujillo, President,
                        Sportsmen Concerned of Northern New Mexico,
       Toner Mitchell, New Mexico Public Lands Coordinator,
                                                   Trout Unlimited.
                                 ______
                                 
                         Outer Continental Shelf Coalition,
                                                 December 16, 2013.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        304 Dirksen Senate Office Building, Washington, DC.
    Dear Senator Murkowski,

    I am writing on behalf of the Outer Continental Shelf (OCS) 
Governors Coalition, which is a group of coastal state governors who 
joined together in May 2011 to promote a constructive dialogue on OCS 
energy-resource planning and development among coastal state governors 
and federal policy makers. Currently, I serve as chair of the 
Coalition. On behalf of the Coalition, I respectfully request that you 
consider addressing the topics listed below with Assistant Secretary of 
the Interior for Land and Minerals Management-Designate Janice 
Schneider during her confirmation hearing before your committee on 
December 17, 2013.
    As you know, all federal decisions regarding energy exploration and 
production on the OCS must be made in consultation with affected 
states. However, in recent years, the federal government has had little 
consultation with the states before taking significant actions 
affecting OCS energy development. For this reason, the governors have 
joined the Coalition to foster a more productive dialogue between the 
federal government and the coastal states on energy-resource 
evaluation, sustainable resource development, and other OCS policy 
matters.
    Should she be confirmed, the OCS Governors Coalition hopes to 
cultivate a substantive, ongoing dialogue with Ms. Schneider on the 
opportunities and challenges facing offshore energy development and the 
roles that coastal states play in the development and execution of 
federal OCS policy.
          items of interest for discussion with ms. schneider
          1. One of the core missions of the OCS Governors Coalition is 
        to promote a constructive dialogue with federal policy makers 
        on decisions affecting offshore development. Unfortunately, 
        over the past few years, the governors have been concerned with 
        the lack of communication between state and federal officials, 
        particularly in regard to the development of offshore leasing 
        plans.

                  a. Of note, President Obama canceled Lease Sale 220 
                off Virginia in December 2010 without sufficient 
                consultation with the Commonwealth of Virginia. The 
                bipartisan leadership in Virginia has clearly indicated 
                multiple times that it supports a leasing program in 
                the Atlantic, and Governor McDonnell has addressed the 
                Administration's concerns about safety and spill 
                containment infrastructure and coordination with 
                military operations in the area.
                  b. Similarly, prior to release of the proposed Final 
                Outer Continental Shelf Oil and Natural Gas Leasing 
                Program for 2012-2017, the State of Alaska was not 
                consulted on the Department of the Interior's decision 
                to postpone lease sales off Alaska one year from the 
                initial timeframe.
                  c. Understanding the multiple stakeholder 
                conversations that go into planning a leasing program, 
                can you discuss the legal and otherwise appropriate 
                role for the input of state governments? What actions 
                would you take to ensure sufficient and ongoing input 
                from the states?

          2. A second priority for the OCS Governors Coalition is the 
        pace of permitting for OCS oil and natural gas operators. 
        Following the temporary deepwater drilling moratorium in 2010, 
        operators experienced significant delays in plan and permitting 
        approval. Even though operators in the Gulf of Mexico are 
        starting to return to pre-Macondo operation levels, several 
        concerns with the inefficient and inconsistent regulatory 
        regime for offshore operators remain.

                  a. What measures can be taken by the Department of 
                the Interior to ensure a more timely and consistent 
                regulatory framework for all operators without 
                sacrificing environmental safety?

          3. In a previous meeting of the governors, we each agreed 
        that revenue sharing of royalties generated from offshore 
        leasing and energy production should be shared equally with all 
        coastal states that produce energy--either traditional or 
        renewable--off their respective shores. These revenues are 
        critical for funding state coastal restoration and conservation 
        efforts as well as other state programs. While Texas, 
        Louisiana, Mississippi, and Alabama (all OCS Governor member 
        states) benefit from revenue sharing that is capped and can 
        only be used for limited purposes, Alaska and states along the 
        Atlantic coast are not eligible for revenue sharing.

                  a. Do you believe there should be consistency on 
                revenue sharing for all coastal states?

          4. Virginia Governor McDonnell, North Carolina Governor 
        McCrory, and South Carolina Governor Haley--all of whom are 
        members of the Coalition--support the opening of the Atlantic 
        for oil and natural gas exploration. The Bureau of Ocean Energy 
        Management is working on a Programmatic Environmental Impact 
        Statement (PEIS) for geological and geophysical activity in the 
        Atlantic in order to allow seismic surveyors to uncover the 
        true potential of the resources in that region. The PETS review 
        has already lasted nearly four years and the coalition has 
        continuing concerns that further delays could ultimately 
        forestall Atlantic leasing. At the same time, we are pleased 
        that Bureau of Ocean Energy Management (BOEM) Director Tommy 
        Beaudreau recently acknowledged that the Interior Department 
        can proceed with including Atlantic leasing in the next five 
        year plan, even if new seismic data has not yet been collected.

                  a. Can you please discuss your thoughts on including 
                additional leasing opportunities in the Department's 
                2017-2022 leasing plan?

          5. A recent report released by the Woodrow Wilson 
        International Center for Scholars recommends that lease terms 
        in the Arctic OCS be lengthened to ensure that operators have 
        sufficient time to recoup the large capital investment required 
        to extract resources in this region. Currently, lease terms are 
        ten years in the Arctic. Greenland allows for 16 year 
        extensions of leases, and Canada permits companies to retain 
        leases indefinitely if oil or gas is found within the initial 
        nine year lease timeframe. The report suggests that a 
        combination of the Greenland and Canadian lease frameworks 
        would be appropriate in the American Arctic.

                  a. Could you please discuss your thoughts on the 
                possibility of expanding the lease timeframe with 
                respect to the Arctic OCS to ensure that operators are 
                able to operate efficiently in a frontier region?

    Thank you for consideration of these important matters as you 
prepare for the December 17th hearing.
    For general information on the Coalition and its members, please 
visit our website at http://www.ocsgovernors.org/. If you have any 
questions, or if the OCS Governors Coalition can be of any further 
assistance, please contact Kip Knudson, my Director of State and 
Federal Relations for the State of Alaska, at 202-624-5858 or via email 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7acaeb7e9acb5aeb2a3b4a8a987a6aba6b4aca6e9a0a8b1e9">[email&#160;protected]</a>
            Best regards,
                          Sean Parnell, Governor of Alaska,
                                                             Chair.
                                 ______
                                 
              Sportsmen for Responsible Energy Development,
                                                 December 17, 2013.
Hon. Ron Wyden,
Chair, Energy and Natural Resources Committee, U.S. Senate, Washington, 
        DC,
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Chairman Wyden and Ranking Member Murkowski:

    On behalf of the Sportsmen for Responsible Energy Development 
(SFRED) coalition and its founding partners the National Wildlife 
Federation, the Theodore Roosevelt Conservation Partnership, and Trout 
Unlimited, we write in support of the confirmation of Neil Kornze as 
Director of the Bureau of Land Management (BLM). SFRED is a coalition 
of more than 1,000 businesses, organizations and individuals dedicated 
to conserving irreplaceable habitats so future generations can hunt and 
fish on public lands. The role of the BLM Director is an important one 
to SFRED. The BLM's 248 million surface acres include valuable fish and 
wildlife habitats and many popular places to fish and hunt. These lands 
also provide timber, minerals, renewable energy, and other resources. 
To be effective in leading the BLM, the Director must understand the 
importance of balancing the multiple uses of public lands.
    During his time on Capitol Hill and in recent years at the BLM, Mr. 
Kornze has demonstrated a pragmatic, solutions-oriented approach to 
public lands challenges. For example, Mr. Kornze played a key role in 
creating a plan for the development of solar energy on public land in 
the West which carefully considered the input of hunters and anglers in 
order to better balance energy development with the conservation of 
important fish and wildlife habitat. In addition, his leadership in 
developing a large-scale mitigation strategy is a big step in the right 
direction for engaging sportsmen in lessening the impacts to fish and 
wildlife habitat from development on public lands.
    Much work remains to be done on BLM lands to ensure that the 
concerns of sportsmen/-women are fully considered in the management, 
conservation and development of our public lands. Energy development on 
our public lands provides great benefits but it must be done in a way 
that sustains our invaluable fish and wildlife heritage.
    SFRED supports the nomination of Neil Kornze and is looking forward 
to working with him to ensure that energy is developed in a responsible 
manner that accommodates true multiple use on our public lands. We urge 
the committee to confirm him for the position of BLM Director.
            Sincerely,
                        Larry Schweiger, President and CEO,
                                      National Wildlife Federation,
                          Whit Fosburgh, President and CEO,
                       Theodore Roosevelt Conservation Partnership,
                             Chris Wood, President and CEO,
                                                   Trout Unlimited.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
